Capital Case – Execution October 5, 2021 at 6:00 central
No. 21-______
In The Supreme Court Of The United States
ERNEST JOHNSON,
Petitioner,
v.
PAUL BLAIR,
Respondent.
ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF MISSOURI
PETITIONER’S PETITION FOR WRIT OF CERTIORARI APPENDIX
* LAURENCE E. KOMP
Capital Habeas Unit, Chief
JEREMY S. WEIS
Assistant Federal Public Defender
PAULA K. HARMS
Assistant Federal Public Defender
Federal Public Defender
Western District of Missouri
1000 Walnut, Suite 600
Kansas City, MO 64106
laurence komp@fd.org
(816) 471-8282
COUNSEL FOR PETITIONER

TABLE OF CONTENTS
Missouri Supreme Court Opinion – 8/31/2021 ................................... Appendix A
Missouri Supreme Court Rehearing Ruling – 10/1/2021 .................Appendix B
Letter from Dr. S. Appelbaum, MD ......................................................Appendix C
Intellectual Developmental Disorder (Intellectual Disability Text Updates)
.................................................................................................................... Appendix D
Dr. Martell’s Report ................................................................................ Appendix E
Dr. Heisler’s Report ................................................................................ Appendix F
Deposition of Debra Turner ................................................................. Appendix G
Jury Instructions ................................................................................... Appendix H
Proposed Jury Instructions ................................................................... Appendix I
Dr. Novick-Brown’s Report ................................................................... Appendix J
School Records ....................................................................................... Appendix K
Relevant Portions of Transcript .......................................................... Appendix L
Rule 91 ...................................................................................................... Appendix M
Motion for Rehearing ............................................................................ Appendix N
Diagnostic Center Report Dated June 15, 1979 ............................... Appendix O

Appendix A

SUPREME COURT OF MISSOURI
en banc

STATE EX REL. ERNEST JOHNSON, )
)
Petitioner,
)
)
v.
)
)
PAUL BLAIR, WARDEN OF POTOSI )
CORRECTIONAL CENTER,
)
)
Respondent.
)

2SLQLRQ LVVXHG $XJXVW  

No. SC99176

ORIGINAL PROCEEDING IN HABEAS CORPUS
PER CURIAM
Facts and Procedural History
In February 1994, Ernest Lee Johnson bought a bottle of beer and a package of
cigarettes at a Columbia convenience store he frequented. 1 Johnson made a second trip
to the convenience store but did not purchase anything. On one of these trips, Johnson
questioned the cashier about who would be working the next shift. The cashier
responded Mabel Scruggs would relieve her at 5:00 p.m. and the store closed at

1

Many of the facts for this section are taken from State v. Johnson, 968 S.W.2d 686 (Mo. banc
1994) (Johnson I); State v. Johnson, 22 S.W.3d 183 (Mo. banc 2000) (Johnson II);

Johnson v. State, 102 S.W.3d 535 (Mo. banc 2003) (Johnson III); State v. Johnson, 244
S.W.3d 144 (Mo. banc 2008) (Johnson IV); and Johnson v. State, 333 S.W.3d 459 (Mo.
banc 2011) (Johnson V).

11:00 p.m. Johnson left but returned a short time later, staying only a few minutes before
leaving again. The cashier noticed Johnson staring at her while she deposited the money
from her shift into the store safe. Johnson again did not purchase anything on this trip.
Johnson went to his then-girlfriend’s house and purchased a $20 rock of crack
cocaine from his girlfriend’s son, Rodriguez Grant. Johnson left but returned to buy two
more rocks and ask Rodriguez to lend him the .25 caliber pistol Johnson gave him a few
weeks prior in exchange for crack cocaine. Rodriguez agreed, and the two test-fired the
pistol in the back yard. Johnson returned the gun a while later, claiming it did not work
but then retrieved the pistol and left again, wearing layers of clothing, a mask over his
face, and black tennis shoes. For around a month, Johnson confided to Rodriguez his
plans to hold up the convenience store, locking all but one employee in the back room
and having the remaining employee open the safe.
The next time Johnson returned to the house, his face and clothes were spattered
with blood. Johnson came in through the back door and went downstairs to Rodriguez’s
room and gave him back the pistol. Johnson then cleaned his tennis shoes, took off his
clothes, put the clothes into a trash bag, and told his girlfriend’s other son, Antwane
Grant, to get rid of the bag. Johnson had a large amount of money sorted by
denomination, and he and Rodriguez counted it. Johnson then hid the money in an air
vent. Rodriguez went back upstairs and soon smelled something burning. When
Rodriguez returned downstairs, he found Johnson burning paper.
At 1:12 a.m., a deputy sheriff responded to a call to check on the convenience
store for the possibility of a disturbance involving weapons. The store lights were still
2

on. Through the windows, the officer saw the cash register was opened and the money
vault was out and in the middle of the floor. He observed blood smears on the front door
lock. City police officers arrived with keys. Upon entering, they discovered two dead
bodies and a .25 caliber shell casing in the bathroom. Another body and another .25
caliber shell casing were found inside the walk-in cooler. The safe was empty.
All three victims were store employees: Mary Bratcher, age 46; Fred Jones, age
58; and Mabel Scruggs, age 57. Each victim died from head injuries consistent with a
bloody hammer found at the scene. In addition, Mary Bratcher suffered at least ten stab
wounds to her left hand consistent with a bloody flat-head screwdriver found in a field
near the store, and Fred Jones suffered a nonfatal, facial gunshot wound. Officers also
found a bloody Phillips screwdriver, a pair of gloves, a pair of jeans, and a brown jacket
in the field next to the store.
Hair on the gloves was consistent with Mabel Scruggs. Blood on the gloves was
consistent with Mabel Scruggs or Fred Jones. Hair on the jacket was consistent with Fred
Jones. Blood on the jacket was consistent with a mixture of the blood of all three
victims.
On the morning the bodies were discovered, Johnson went to a shopping mall and
made over $200 in cash purchases. After he returned to his girlfriend’s house, police
officers arrived asking for any information about the murders. Johnson initially refused
to speak with the officers but eventually agreed to accompany them to the police station.
The interviewing officer did not believe Johnson’s alibi and read him his Miranda rights.
Johnson then gave conflicting versions of his alibi and became depressed whenever the
3

convenience store was mentioned. He stated he did not care if the officers shot him. At
one point Johnson said, “It took more than one man to do that job.”
The police obtained a search warrant for Johnson’s girlfriend’s house and found a
bag containing $443; coin wrappers; partially burned checks, coupons, and a cash register
receipt—all bearing the convenience store’s name; a live .25 caliber round; and a black
pair of tennis shoes with the same company logo as the bloody shoeprints found inside
the store.
Officers arrested Johnson. Upon seeing Rodriguez Grant in a holding cell,
Johnson stated, “That boy didn’t have anything to do with this. None of those boys did.”
When asked how he knew this information, Johnson responded, “I knew they weren’t
there.”
Antwane Grant led police to the park where he hid, at Johnson’s direction, a
.25 caliber semi-automatic pistol, 17 live rounds of .25 caliber ammunition, a sweat shirt,
a pair of sweat pants, a hooded jacket, two stocking caps, and two pairs of socks.
Antwane identified the clothes—and the black tennis shoes found at the house—as those
Johnson wore the evening of the murders.
Blood on the sweat shirt was consistent with Fred Jones. Blood on the hooded
jacket was consistent with Fred Jones or Mabel Scruggs. Hair on one of the stocking
caps was consistent with Fred Jones’ and Johnson’s hair.
A Boone County jury found Johnson guilty of three counts of first-degree murder
and sentenced him to three death sentences. Johnson sought post-conviction relief. This
Court affirmed the guilt-phase but set aside his three death sentences. Johnson I,
4

968 S.W.2d at 702. Following a second penalty-phase proceeding, the new jury returned
three death sentences. This Court affirmed the death sentences on direct appeal in
Johnson II, 22 S.W.3d at 194. This Court later set aside those death sentences during
Johnson’s second post-conviction appeal, remanding the case for a third penalty-phase
proceeding because of incomplete evidence of his mental capacity—specifically, his
alleged intellectual disability. See Johnson III, 102 S.W.3d at 541. Following the third
penalty-phase proceeding, the jury found Johnson is not intellectually disabled and again
imposed three death sentences. This Court affirmed the death sentences on direct appeal.
See Johnson IV, 244 S.W.3d at 165.
Johnson filed a Rule 29.15 pro se motion for post-conviction relief, and appointed
counsel filed an amended motion. Johnson V, 333 S.W.3d at 462. The motion court held
an evidentiary hearing and received testimony from three mental-health professionals,
from Johnson’s third penalty-phase attorneys, and from several other witnesses relating to
guilt-phase testimony. Id. The motion court entered findings and a judgment overruling
Johnson’s motion. Id. This Court affirmed the denial of Johnson’s final
post-conviction relief motion. Id. Johnson then filed for habeas relief in the United
States District Court for the Western District of Missouri. The district court denied
Johnson’s eight claims and denied a certificate of appealability. A panel of the United
States Court of Appeals for the Eighth Circuit also unanimously denied a certificate of
appealability and rehearing.
The Supreme Court denied a petition for writ of certiorari on October 6, 2014.
This Court then issued a warrant of execution and set Johnson's execution date for
5

November 3, 2015. Johnson filed his first petition for writ of habeas corpus in this Court,
which this Court denied. Johnson then filed an as-applied challenge to Missouri’s
method of execution in federal court. The district court dismissed Johnson’s complaint,
and Johnson moved for a stay of execution. Johnson appealed, but the Eighth Circuit
overruled the motion for stay. Johnson v. Lombardi, 809 F.3d 388 (8th Cir. 2015). The
Supreme Court then granted Johnson’s request for a stay of execution. Ultimately,
Johnson amended his petition twice in the federal district court, but both times the district
court found Johnson’s petition failed to state a claim under FRCP 12(b)(6). See Johnson
v. Lombardi, 2:15-CV-4237-DGK (W.D. Mo. May 1, 2017). After the district court
dismissed Johnson’s second amended petition, Johnson appealed, and the Eighth Circuit
concluded Johnson sufficiently stated a claim. The State petitioned the Supreme Court
for a writ of certiorari, which was granted. The Supreme Court subsequently vacated the
Eighth Circuit’s judgment and remanded the case to the Eighth Circuit for further
consideration in light of Bucklew v. Precythe, 139 S. Ct. 1112 (2019). On remand, the
Eighth Circuit determined Johnson had not stated a claim upon which relief could be
granted and rejected his request for leave to file a third amended complaint in order to
propose a firing squad as a new alternate method of execution. Johnson then petitioned
the Supreme Court for writ of certiorari. On May 24, 2021, the Supreme Court denied
certiorari. Johnson v. Precythe, 141 S. Ct. 1622 (2021) (Sotomayor, J., dissenting). The
State then filed a notice of ruling and supplement to the State’s second motion to set
execution date, renewing its request for this Court to set an execution date.

6

This Court issued its order setting Ernest Johnson’s execution date for October 5,
2021. Johnson filed this petition for writ of habeas corpus, alleging (1) he is actually
innocent of the death penalty because he is intellectually disabled; 2 (2) the jury
instructions on intellectual disability violated Johnson’s constitutional rights; and (3) his
execution by lethal injection would be cruel and unusual. This Court finds and concludes
Johnson is not intellectually disabled. Further, this Court concludes Johnson is not
entitled to relief on his remaining claims. 3
Standard of Review
A petition for a writ of habeas corpus is the appropriate avenue to raise claims of
intellectual disability. See State ex rel. Strong v. Griffith, 462 S.W.3d 732, 739 (Mo.
banc 2015). A habeas petitioner bears the burden of proof to show he is entitled to
habeas corpus relief. State ex rel. Lyons v. Lombardi, 303 S.W.3d 523, 526 (Mo. banc
2010). “[H]abeas review does not provide duplicative and unending challenges to the
finality of a judgment, so it is not appropriate to review claims already raised on direct
appeal or during post-conviction proceedings.” Strong, 462 S.W.3d at 733-34 (internal
quotations omitted).

2

As further explained below, although Johnson frames his claim as one of actual innocence, it
rests on the notion he is “actually innocent” of the death penalty because he is intellectually
disabled and so his execution would violate the Eighth Amendment—this is, in essence, an
Atkins claim. In Atkins, the Supreme Court held those who are determined to be mentally
retarded, now more appropriately referred to as intellectually disabled, are categorically
ineligible for a death sentence. Atkins v. Virginia, 536 U.S. 304, 321 (2002).
3
This Court may deny issuance of a writ of habeas corpus without issuing an accompanying
opinion. See Rule 84.24. An opinion is issued in this case, however, because an execution date
is pending and to demonstrate the careful review and consideration of the merits of Johnson’s
intellectual disability claim.
7

However, “[t]here is no absolute procedural bar to . . . seeking habeas relief.
Successive habeas corpus petitions are, as such, not barred. But the opportunities for
such relief are extremely limited. A strong presumption exists . . . against claims that
already have once been litigated.” State ex rel. Nixon v. Jaynes, 63 S.W.3d 210, 217
(Mo. banc 2001).
Analysis
I.

Johnson Is Not Intellectually Disabled
Executing intellectually disabled offenders violates the Eighth Amendment’s

prohibition of cruel and unusual punishment. See Atkins, 536 U.S. at 321. The Supreme
Court leaves to the states “the task of developing appropriate ways to enforce the
constitutional restriction upon [the state’s] execution of sentences.” Id. at 317. “The
legal determination of intellectual disability is distinct from a medical diagnosis, but it is
informed by the medical community’s diagnostic framework.” Hall v. Florida, 572 U.S.
701, 721 (2014).
The Supreme Court has indicated the Diagnostic and Statistical Manual of Mental
Disorders 5th edition (DSM-5) embodies “current medical diagnostic standards” for
determining intellectual disability. Moore v. Texas, 137 S. Ct. 1039, 1045 (2017) (Moore
I). The DSM- 5 refines the long-used three-pronged approach to intellectual disability.
DSM-5 at 37. The three criteria are: (A) deficits in intellectual functions; (B) deficits in
adaptive functioning in comparison to an individual’s age, gender, and socioculturally
matched peers; and (C) onset during the developmental period. Id. This Court likewise

8

recognizes the DSM-5 as the proper framework with which to analyze intellectual
disability.
Congruent with the DSM-5 and prevailing medical standards, § 565.030.6 4 defines
“intellectual disability” as:
[A] condition involving substantial limitations in general functioning
characterized by significantly subaverage intellectual functioning with
continual extensive related deficits and limitations in two or more adaptive
behaviors such as communication, self-care, home living, social skills,
community use, self-direction, health and safety, functional academics,
leisure and work, which conditions are manifested and documented before
eighteen years of age.
This Court already considered Johnson’s intellectual disability claim in his 2015 petition
for habeas corpus and denied relief. Johnson now requests this Court consider his claim
again in light of Moore I and Moore v. Texas, 139 S. Ct. 666 (2019) (Moore II). These
cases do not provide cause for a different outcome as demonstrated by the analysis set out
below.
Because Johnson’s “petition for writ of habeas corpus is an original proceeding in this
Court, pursuant to Rules 84.22 and 91.01, this Court is the factfinder.” 5 State ex rel. Cole
v. Griffith, 460 S.W.3d 349, 358 (Mo. banc 2015). As such, this Court considers
Johnson’s argument and evidence.
A. Intellectual Functioning
Intellectual functioning is typically measured with individually administered and
psychometrically valid tests of intelligence. DSM-5 at 37.
4

All statutory references are to RSMo 2016, unless noted otherwise.
While this Court may appoint a special master pursuant to Rule 8.03, the circumstances of this
case do not require the appointment of a special master.
5

9

Individuals with intellectual disability have scores of approximately two
standard deviations or more below the population mean, including a margin
for measurement error (generally +/- 5 points). On tests with a standard
deviation of 15 and a mean of 100, this involves a score of 65-75 (70 +/- 5).
Clinical training and judgment are required to interpret test results and assess
intellectual performance.
Id. While an IQ score of 65 to 75 may indicate intellectual disability, there is no strict IQ
score cutoff. See Hall, 572 U.S. at 712. Instead, “an individual with an IQ test score
‘between 70 and 75 or lower,’ may show intellectual disability by presenting additional
evidence regarding difficulties in adaptive functioning.” Id. at 722. (internal citation
omitted) (quoting Atkins, 536 U.S. at 309 n.5). Additionally, practice effects and the
“Flynn effect” may affect test scores. 6
“IQ test scores are approximations of conceptual functioning but may be
insufficient to assess reasoning in real-life situations and mastery of practical tasks.”
DSM-5 at 37. For this reason, the DSM-5 emphasizes evaluation of a person’s broader
intellectual functions in determining intelligence, i.e., reasoning, problem solving,
planning, abstract thinking, judgment, academic learning, and learning from experience.
Id. In adults, this presents as impairments in abstract thinking, executive function (i.e.,
planning, strategizing, priority setting, and cognitive flexibility), and short-term memory,
as well as functional use of academic skills (e.g., reading, money management). Id.

6

DSM-5 at 37. The “Flynn effect” results in overly high scores due to out-of-date test norms.
10

Johnson has taken several IQ tests in his life, obtaining the following scores prior
to the murders: 77 in 1968; 7 63 in 1972; 95 in 1979; 8 78 in 1994; and 84 in 1995. Since
the murders, Johnson obtained scores of: 67 in 2003; 67 in 2004; 70 in 2008; 71 in 2009;
and 70 in 2019. Multiple of Johnson’s scores place him above the range of intellectual
disability. This fact alone, however, does not invalidate or dismiss his lower scores.
Before the murders, Johnson obtained only one score (out of four valid scores) that would
indicate significant subaverage intelligence. Dr. Heisler, an expert for the State, believed
Johnson was malingering during his 2004 IQ test, and the fact that Johnson’s scores
decline markedly after the murders supports that conclusion.
Regardless of whether Johnson has been malingering during his recent IQ tests,
his test scores are not dispositive because they, as adjusted for margin of error and the
Flynn effect, are within the range that could be indicative of intellectual disability. The
additional, broader intelligence factors set forth in the DSM-5, however, illustrate
Johnson does not possess such substantial deficits in intellectual functioning to prove
intellectual disability. Most glaring is Johnson’s ability to plan, exemplified by the
details of his murders. During an interview with Dr. Heisler 10 years after the murders,
Johnson was able to recall specific, strategic decisions he made and the reasons for them.
For example, Johnson planned for at least a month to rob the convenience store; decided

7

In his petition for habeas corpus, Johnson states he scored 72 in 1968. This Court has already
considered this discrepancy and stated Johnson obtained a score of 77. See Johnson IV, 244
S.W.3d at 152.
8
The department of corrections administered this test while Johnson was incarcerated. Its results
are likely not valid because it was given in a group setting. See DSM-5 at 37. Accordingly, this
Court does not consider this test result and only lists it for completeness.
11

to rob the Casey’s because he needed more money to purchase cocaine; visited the store
several times the day of the murders to gain information regarding who would be on
duty; wore two layers of clothing so he could remove the top layer after the robbery
because he knew witnesses may give a description of his clothing; wore a mask to
conceal his identity; and, subsequent to the murders, instructed his then-girlfriend’s son
to hide evidence, including a pistol, ammunition, and the clothes Johnson wore the
evening of the murders, which contained physical evidence. Johnson I, 968 S.W.2d at
689.
These facts illustrate Johnson’s ability to plan, strategize, and problem solve—
contrary to a finding of substantial subaverage intelligence. Dr. Keyes, one of Johnson’s
experts, even admitted Johnson took logical, precise, intelligent steps to prepare, execute,
and avoid apprehension for the murders, and these behaviors indicated Johnson was very
goal-oriented in carrying out his plan. Johnson IV, 244 S.W.3d at 154. As the Supreme
Court recognized in Atkins, “There is no evidence that [persons with intellectual
disability] are more likely to engage in criminal conduct than others, but there is
abundant evidence that they often act on impulse rather than pursuant to a premeditated
plan, and that in group settings they are followers rather than leaders.” 536 U.S. at 318.
In sum, Johnson’s IQ scores are not dispositive of intellectual disability, but his
ability to plan, reason, strategize, and set goals prove Johnson does not possess
significantly subaverage intelligence as would indicate intellectual disability. Even so,
this Court will also assess Johnson’s adaptive functioning.

12

B. Adaptive Functioning
“Deficits in adaptive functioning” refers to “how well a person meets community
standards of personal independence and social responsibility, in comparison to others of
similar age and sociocultural background.” DSM-5 at 37. Various adaptive behaviors,
such as communication, functional academics, and self-direction, fall into three domains
of adaptive functioning: conceptual, social, or practical. Id. This criterion is met when
“at least one domain of adaptive functioning—conceptual, social, or practical—is
sufficiently impaired that ongoing support is needed in order for the person to perform
adequately in one or more life settings at school, at work, at home, or in the community.”
Id. Importantly, and critical to Johnson’s claim, “[t]o meet diagnostic criteria for
intellectual disability, the deficits in adaptive functioning must be directly related to the
[person’s] intellectual impairments[.]” Id. In essence, adaptive deficits must be caused
by impaired intellectual functioning. 9
Johnson asserts he possesses continual, extensive deficits in four adaptive
behaviors: functional academics, home living, communication, and self-direction.
Dr. Martell’s report asserts these alleged deficits render Johnson severely impaired in all

9

Actual deficits in adaptive functions are not per se evidence of intellectual disability.
See DSM-5 at 37. There are many aspects of Johnson’s life that could, absent intellectual
disability, account for any alleged deficit in adaptive behaviors; namely his addiction to cocaine,
inconsistent upbringing, poor education, and abusive childhood to name a few. This Court is
sensitive to the fact that these possible alternative explanations are sometimes in and of
themselves effects of intellectual disability, and it is not Johnson’s burden to prove any deficit is
not caused by some other factor. See Moore I, 137 S. Ct. at 1051; see also DSM-5 at 37.
Johnson must, however, provide enough evidence to prove the alleged deficits are related to his
alleged deficits in intellectual functioning. See DSM-5 at 38. On the whole, Johnson fails to do
this.

13

the three diagnostic domains. In analyzing Johnson’s evidence, this Court is cognizant of
the Supreme Court’s instruction in both Moore I and Moore II to not over-emphasize or
over-rely upon adaptive strengths as opposed to adaptive deficits. Johnson’s arguments
regarding his alleged deficits in adaptive behaviors are largely not credible, and suffer
from a lack of causal connection to his alleged impaired intellectual functioning.
This Court finds Johnson’s evidence does not prove he possesses deficits in
adaptive function and, for that reason, Johnson is not sufficiently impaired in any of the
three domains of adaptive functioning outlined in the DSM-5.
i.

Johnson’s Evidence

In support of his intellectual disability claim, Johnson presents several experts’
reports and seven affidavits. Six of the seven affidavits are written by attorneys involved
with Johnson’s defense and regard Johnson’s mental ability at trial and ability to
participate in his defense. The attorneys’ relationship with Johnson raises strong
concerns of bias and are otherwise not persuasive. In the remaining affidavit, a juror from
Johnson’s 2006 penalty-phase trial details his reasoning for finding Johnson not to be
intellectually disabled. Johnson attacks this juror’s reasoning, but nothing in the affidavit
is germane to the determination of whether Johnson is intellectually disabled.
The only expert reports not previously considered by this Court in Johnson’s 2015
petition for a writ of habeas corpus are those of Dr. Martell and Dr. Adler. 10 Dr. Martell
based his report on previous reports of Johnson’s experts and recently performed

10

This Court did consider Dr. Adler’s 2008 report in Johnson’s 2015 petition for habeas corpus.
Dr. Adler’s new report is substantially the same.
14

cognitive tests. This Court has already considered the reports Dr. Martell relied upon and
found them not persuasive. This Court is likewise not persuaded by Dr. Adler’s recent
testing because of Johnson’s incentive to produce results indicating intellectual disability.
Moreover, as § 565.030.6 states, “intellectual disability” is “a condition . . . manifested
and documented before eighteen years of age.” Because Johnson is now over 60 years
old, reports of Johnson’s alleged current mental ability are not given much weight.
Dr. Adler’s report is also not persuasive. Dr. Adler administered Quantitative
Electroencephalograms (“QEEG”) to Johnson in 2008 and in 2020. QEEG measures the
brain’s electrical activity. Dr. Adler determined Johnson’s QEEG is indicative of Fetal
Alcohol Spectrum Disorder (“FASD”). Importantly, though FASD may sometimes cause
intellectual disability, Dr. Adler does not make a finding as to whether Johnson is
intellectually disabled. Dr. Adler’s report is, thus, not persuasive on the question of
whether Johnson is intellectually disabled.
ii.

Adaptive Behaviors
a. Functional Academics

Johnson largely relies on his poor academic performance to prove his alleged
deficit in functional academics. Namely, Johnson states he was in a developmental
reading class in the ninth grade, took special education classes, was placed on the “basic
track” in ninth grade for “slower-ability” children, received poor grades, missed school
often, has between a second and third grade reading level, and had to repeat the ninth
grade before ultimately dropping out of school.

15

As this Court noted in Johnson IV, there is no evidence the “special education”
classes for “slower-ability” children were classes meant for students with intellectual
disability—and Johnson does not assert as much. 244 S.W.3d at 155. Johnson also does
not provide any evidence of a formal evaluation or diagnosis of intellectual disability
during the developmental period. While Johnson’s records do indicate poor grades, they
do not meet the legal definition of intellectual disability.
Even if Johnson were to have proved a deficit in functional academics, he does not
attempt to connect the alleged deficit with diminished intellectual functioning. Instead,
Johnson merely asserts, “there is no evidence that would support any other conclusion
regarding this adaptive function.” But, there are multiple factors present in Johnson’s life
that could, absent intellectual disability, prevent academic achievement. Again, Johnson
is not required to prove his poor academic performance is not caused by some
independent factor, but this Court finds Johnson failed to prove a causal connection
between his poor academic performance and his alleged intellectual impairment.
b. Home Living
Johnson asserts he has lived with women who cared for him like his grandmother
and former girlfriends. Id. at 154. These women state Johnson did not have any duties
around the house and could not cook, drive, or do laundry “the right way.” Johnson has
also had significant trouble maintaining even menial employment. As previously
considered, this testimony was from Johnson’s friends and family members who knew
Johnson would not be sentenced to death if it was determined he was intellectually

16

disabled. Id. Moreover, even taken as accurate, this testimony does not demonstrate
Johnson requires ongoing support to function in daily life.
Contrary to this testimony, Johnson’s probation officer testified he was capable of
working and that he had worked before but did not hold a job very long because he was
not motivated to work. Id. Even Dr. Keyes believed Johnson was not motivated to work.
Id. Thus, this Court is not persuaded the facts demonstrate such extensive deficits—if
any deficiency at all—to indicate intellectual disability. Johnson again does not
demonstrate a causal connection between these facts and his alleged intellectual
impairment.
c. Communication
Johnson asserts his ability to communicate has been “severely compromised since
he was [a] child.” A conclusion, however, that Johnson possesses such significant
deficits in communication to prove intellectual disability is contrary to the evidence. In
support, Johnson notes he “stayed close and ‘up underneath’ his grandmother” as a child;
his grandmother called him “special”; Johnson interacted with younger children; was
placed in special education classes and was “slow” in school; and others teased him and
called him “slow,” “dummy,” “crazy,” and “stupid.”
Johnson also presents the following evidence from his experts: Johnson’s ability to
communicate orally is “fair”; his ability to read and write is “significantly impaired”;
Johnson reads at a third-grade level; Johnson’s spelling is poor and his punctuation and
grammar are very poor”; and Johnson tested at the four-and-a-half-year-old age level on
the Vineland Adaptive Behavior Scale. Notably, Johnson’s own expert, Dr. Smith
17

testified Johnson has a very concrete understanding of verbal communication, but has
difficulty with written communication. Johnson has failed to demonstrate he requires
ongoing support in order to communicate with others in daily life.
In addition, there is reliable, contradictory evidence from several witnesses that
Johnson is able to communicate effectively with others: Johnson wrote back and forth
with his ex-girlfriend frequently while in prison; was able to communicate with the
officers who interviewed him during the initial murder investigation and understood the
officer’s questions; was able to communicate with his probation officer; and had no
problem communicating or making purchases when he came into the Casey’s prior to the
murders.
The most revealing piece of evidence contradicting deficits in communication is
Dr. Heisler’s video-recorded interview with Johnson. In the video, which the State
played at trial, Johnson communicated effectively with Dr. Heisler for over an hour and
was able to relay information regarding his reasoning and strategies for the murders 10
years after the fact. 11
d. Self-Direction
The bulk of Johnson’s evidence regarding self-direction revolves around his
“inability to conform his actions to the law.” There is no doubt Johnson has, even before
the murders, not conformed his actions to the law. Criminal behavior, absent a causal

11

This Court acknowledges strengths in adaptive behaviors such as communication may increase
in controlled environments like prison and notes it is not solely relying on Johnson’s behavior in
prison.
18

connection to intellectual impairment, however, does not support intellectual disability.
In his petition, Johnson himself acknowledges he “has been charged and convicted of
various offenses—most of them property-related and indicative of a drug addiction.” It
is extremely telling that the only cause Johnson mentions for not conforming his actions
to the law is his drug addiction—not intellectual impairment.
Moreover, the fact that Johnson has a lengthy criminal history does not establish a
deficit in self-direction. Johnson’s expert, Dr. Keyes, noted Johnson is goal-oriented—
contrary to a finding that Johnson lacks self-direction. Additionally, the premeditated
and strategic nature of the murders, along with Johnson’s forethought in evading
apprehension indicate Johnson does not have a deficit in self-direction. Johnson’s parole
officer also testified he was able to seek out help for his ongoing substance abuse and
even asked to be placed in protective custody to avoid retaliation for a drug debt he owed
another prisoner. Id. at 155.
II.

No Instructional Error
Johnson further argues (1) the sentencing court erred in instructing the jury

Johnson had the burden to prove he is intellectually disabled, and (2) the jury instructions
misled the jury into believing they must have unanimously found Johnson to be
intellectually disabled before they could individually consider intellectual disability as a
mitigating factor. This Court already considered and rejected Johnson’s first claim in
Johnson IV and need not consider it again. 12 See Strong, 462 S.W.3d at 733-34.

12

In Johnson IV, this Court held:
19

Johnson’s second claim of instructional error is procedurally barred because he did
not raise it at trial, on direct appeal, or during post-conviction relief proceedings.
Strong, 462 S.W.3d at 738-39. Johnson seeks to overcome this procedural bar through
both a freestanding and gateway claim that he is actually innocent of the death penalty
because he is intellectually disabled.
While Johnson could properly raise a claim of actual innocence because he is
sentenced to death, State ex rel. Amrine v. Roper, 102 S.W.3d 541, 547 (Mo. banc 2003),
his specific claim that he is actually innocent because he is intellectually disabled is not
cognizable. In Sawyer v. Whitley, the Supreme Court held a court may reach a
procedurally barred claim when an offender shows, by clear and convincing evidence, no
reasonable juror would have found the petitioner eligible for the death penalty under
applicable state law. 505 U.S. 333, 347-48 (1992). The Supreme Court clarified, and
this Court has reiterated, however, actual innocence of the death penalty only means the
defendant can prove they are either innocent of the actual underlying crime or
aggravating factors. Id. at 340-41; see also Clay v. Dormire, 37 S.W.3d 214, 218 (Mo.

Johnson’s claim is without merit. Under section 565.030.4(1), a finding of
[intellectual disability] is made by the jury and, if such a finding is made, the
potential punishment for a capital defendant is limited to life imprisonment.
Determining a defendant is [intellectually disabled] is not a finding of fact that
increases the potential range of punishment; it is a finding that removes the
defendant from consideration of the death penalty. The Supreme Court’s holding
in Ring requiring a jury to find statutory aggravating circumstances beyond a
reasonable doubt does not apply to the issue of [intellectual disability]. The
instruction the trial court submitted to the jury, MAI–CR 3d 313.38, is not in
conflict with substantive law or Ring. The court did not err in instructing the jury
that Johnson had the burden of proving [intellectual disability] by a preponderance
of the evidence.
Johnson IV, 244 S.W.3d at 151.
20

banc 2000); see also State ex rel. Koster v. McElwain, 340 S.W.3d 221, 258 (Mo. App.
2011).
Intellectual disability is neither an element of the underlying crime nor an
aggravating factor. Rather, intellectual disability concerns whether an offender is eligible
for the death penalty. See Atkins, 536 U.S. at 320. Johnson’s second claim has been
previously litigated and decided against him and, even if that was not the case, it would
be procedurally barred because it could have been previously litigated.
III.

Method of Execution

Johnson also argues Missouri’s lethal injection protocol, as applied to him, would
constitute cruel and unusual punishment in violation of article I, § 21 of the Missouri
Constitution. 13 The basic facts underlying Johnson’s claim are as follows. Doctors
diagnosed Johnson with an atypical parasagittal meningioma brain tumor in 2008.
Doctors performed a craniotomy on Johnson to remove the tumor but were unable to
remove it entirely. As a result of the surgery, Johnson has scarring on his brain and is
missing a portion of his brain matter responsible for the movement of and sensation in the
legs. Johnson alleges these brain defects interrupt his electrical brain activity that

13

The State argues Johnson’s method of execution claim is properly brought in a declaratory
judgment action, not habeas. This Court has recognized that habeas corpus is the proper remedy
when a prisoner seeks to vacate his or her sentence. Hicklin v. Schmitt, 613 S.W.3d 780, 787
(Mo. banc 2020). Of course, Johnson’s method of execution claim, if successful, would not
vacate his death sentence, but would merely change how the state would carry out his sentence.
Therefore, as Hicklin suggests, Johnson’s method of execution claim is more appropriately
brought in a declaratory judgment action. See also Hill v. McDonough, 547 U.S. 573, 579-80
(2006) (holding a method of execution claim must be brought under § 1983, not in habeas).
However, as a practical matter, death-sentenced defendants have raised method of execution
claims along with other habeas corpus claims and been permitted review of such claims.
21

manifests as violent and uncontrollable seizures. Johnson also alleges doctors have
diagnosed him with epilepsy since the craniotomy. In sum, Johnson argues
Pentobarbital, the drug used in Missouri’s lethal injection protocol, when coupled with
his preexisting brain defects, will trigger painful seizures during his execution.
Both the Missouri and United States constitutions prohibit cruel and unusual
punishment. Mo. Const. art. I, § 21; U.S. Const. amend. VIII. In order to succeed on his
method-of-execution claim, Johnson must plead and prove two elements. First, Johnson
must establish the State’s chosen method of execution “presents a risk that is ‘sure or
very likely to cause serious illness and needless suffering,’ and [would] give rise to
sufficiently imminent dangers.” Glossip v. Gross, 576 U.S. 863, 877 (2015) (emphasis
added). “[T]here must be a substantial risk of serious harm, an objectively intolerable
risk of harm that prevents prison officials from pleading that they were subjectively
blameless for purposes of the Eighth Amendment.” Id. (internal quotation marks
omitted).
Second, “a prisoner must show a feasible and readily implemented alternative
method of execution that would significantly reduce a substantial risk of severe pain and
that the State has refused to adopt without a legitimate penological reason.”
Bucklew, 139 S. Ct. at 1125. In showing an alternative method of execution is feasible
and readily implemented, “the inmate’s proposal must be sufficiently detailed to permit a
finding that the State could carry it out relatively easily and reasonably quickly.” Id. at
1129 (internal quotation marks omitted). It is not enough for the prisoner to show the
alternative method of execution is “slightly or marginally safer.” Glossip, 576 U.S. at
22

877. What is more, the Eighth Amendment does not require states to adopt “untried and
untested” methods of execution. Bucklew, 139 S. Ct. at 1130.
a. No Substantial and Unjustifiable Risk
To prove the first element, Johnson argues the administration of Pentobarbital
“creates a substantial and unjustifiable risk that violent and uncontrollable seizures could
be triggered during the execution due to [Pentobarbital’s] interaction with [his] remaining
[tumor], scarring tissue, and brain defect.” In support of his conclusion, Johnson
exclusively relies on Dr. Joel Zivot’s affidavit. The salient portion of Dr. Zivot’s
affidavit is as follows:
As a result of Mr. Johnson’s brain tumor, brain defect, and brain scar, a
substantial risk of serious harm will occur during his execution as a result of
a violent seizure that is induced by Pentobarbital injection. Generalized
seizures, such as the one that would occur in Mr. Johnson, are severely
painful. . . . As seizures are known to be painful and are observed as such by
others, Pentobarbital induced seizures will be more painful than seizures
from other causes including those that would otherwise occur in Mr. Johnson
as a result of his underlying epilepsy. . . . It is erroneous to dismiss the risk
of Pentobarbital induced seizures in the case of Ernest Johnson by claiming
that Mr. Johnson may have a seizure at the time of his execution as a function
of a baseline seizure disorder. The Missouri execution protocol will increase
the likelihood of a seizure with a very high degree of probability. . . . I am of
the opinion that Mr. Johnson faces a significant medical risk for a serious
seizure as the direct result of the combination of the Missouri lethal injection
protocol and Mr. Johnson’s permanent and disabling neurologic disease.
This affidavit concludes Johnson faces an increased risk of seizure during his
execution due to Pentobarbital. However, the analysis underlying Dr. Zivot’s conclusion
does not prove a seizure is “sure or very likely” to occur during Johnson’s execution
because the affidavit does not prove a causal connection between Pentobarbital and an
increased possibility of seizure. Glossip, 576 U.S. at 877. Instead, Dr. Zivot rests his
23

conclusions on an analysis of a different barbiturate—Methohexital. Methohexital,
which is structurally related to Pentobarbital, is used to intensify and prolong seizures
during electroconvulsive therapy (ECT). 14 Dr. Zivot reasons that, because Pentobarbital
is also a barbiturate and is structurally related to Methohexital, it too is a “seizurepromoting compound” that creates a risk Johnson will suffer a painful seizure during his
execution. 15
Notably, the affidavit fails to show how the effects of Pentobarbital and
Methohexital are similar or how Pentobarbital will cause a similar reaction when
administered during Johnson’s execution. This is crucial because, as the affidavit notes,
“Barbiturates are a large group of drugs with a wide spectrum of action . . . [that produce]
differing effects on the central nervous system.” Without an adequate comparison of the
effects of Methohexital with the effects of Pentobarbital, Dr. Zivot’s conclusion
regarding Methohexital cannot be imputed to Pentobarbital. Furthermore, Dr. Zivot does
not note how much Methohexital is used to exacerbate an ECT seizure and how that
unknown amount compares to the 5-10 grams of Pentobarbital used in Missouri’s lethal
execution protocol. This Court finds Dr. Zivot’s affidavit, standing alone, is not

14

ECT is “a form of treatment of mental disorders in which convulsions are produced by the
passage of an electric current through the brain.” Stedman’s Medical Dictionary 913440.
15
It should be noted that Dr. Zivot has been retained by several death-sentenced inmates to
provide expert testimony supporting a method-of-execution claim. Courts have routinely
rejected Dr. Zivot’s opinions. See Bucklew, 139 S. Ct. at 1131-33; Williams v. Kelley, 854 F.3d
998, 1001 (8th Cir. 2017); Johnson v. Lombardi, 809 F.3d 388, 391 (8th Cir. 2015).
24

sufficient proof that Johnson is sure or very likely to suffer a painful seizure during his
execution. 16
b. Feasible and Readily Implementable Alternative
Further, Johnson has not pleaded and proved “a feasible and readily implemented
alternative method of execution that would significantly reduce a substantial risk of
severe pain and that the State has refused to adopt without a legitimate penological
reason.” Bucklew, 139 S.Ct. at 1125. Johnson’s only mention of a feasible and readily
implementable alternative method of execution is the following paragraph near the end of
his writ petition:
Because Missouri does not require Mr. Johnson to plead an alternative
method of execution, the Eighth Circuit’s finding that he had plead [sic] a
plausible claim should also hold true in this court. To the extent this Court
would require Mr. Johnson to plead an alternative method of execution,
Mr. Johnson alleges that execution by firing squad is an acceptable
alternative method. To the extent that requiring an alternative method would
be a new pleading requirement, Mr. Johnson would request an opportunity
to address that issue further.
It is unclear what Johnson suggests by “Missouri does not require [him] to plead
an alternative method of execution[.]” Bucklew and Glossip, among other cases, make
clear that Johnson must show “a feasible and readily implemented alternative method of
execution that would significantly reduce a substantial risk of severe pain” to prevail on
his method-of-execution claim. See Bucklew, 139 S. Ct. at 1125 (stating the two-element

16

In addition to the flaws in Dr. Zivot’s reasoning, this Court is also cognizant of Dr. Zivot’s
similar conclusion that Russell Bucklew was “likely to experience prolonged feelings of
suffocation and excruciating pain” during his execution. Bucklew, 139 S.Ct. at 1131. Further
impugning Dr. Zivot’s credibility, the witnesses present at Bucklew’s eventual execution stated
Bucklew showed no signs of pain or discomfort.
25

test set forth in Glossip “governs all Eighth Amendment method-of-execution claims”
(internal quotation marks omitted)). Although not addressed in his writ petition, it is
possible that Johnson rationalizes, because he is only raising a claim under article I, § 21
of the Missouri Constitution and not the Eighth Amendment, that he is exempt from
pleading and proving what Bucklew and Glossip require. That rationalization has no
basis in precedent. “The Eighth Amendment and article I, § 21 of the Missouri
Constitution provide the same protection against cruel and unusual punishment.” State v.
Wood, 580 S.W.3d 566, 588 (Mo. banc 2019). As such, this Court applies the same
standard no matter if the prisoner alleges his eventual execution will violate the Eighth
Amendment and/or article I, § 21 of the Missouri Constitution. State v. Nathan, 522
S.W.3d 881, 882 n.2 (Mo. banc 2017). Additionally, a petition for a writ of habeas
corpus is a civil action subject to the rules of civil procedure. Nixon, 63 S.W.3d at 216.
Because Missouri is a fact pleading state, Johnson’s petition must set forth facts showing
he is entitled to habeas relief. Id.
Johnson’s mention of a firing squad as an alternative method of execution fails to
provide sufficient detail 17 to permit a finding that the State could carry out an execution

17

In Bucklew, the Supreme Court gave some guidance as to what “sufficient detail” means in
regards to an allegation of nitrogen-induced hypoxia as an alternative method of execution:
Mr. Bucklew’s bare-bones proposal falls well short of that standard. He has
presented no evidence on essential questions like how nitrogen gas should be
administered (using a gas chamber, a tent, a hood, a mask, or some other delivery
device); in what concentration (pure nitrogen or some mixture of gases); how
quickly and for how long it should be introduced; or how the State might ensure
the safety of the execution team, including protecting them against the risk of gas
leaks.
139 S. Ct. at 1129.
26

via firing squad relatively easily and reasonably quickly. Bucklew, 139 S. Ct. at 1125.
Rather than provide the requisite proposal, Johnson, in his Reply to Answer, belatedly
attaches the Utah Department of Corrections’ firing squad protocol as an exhibit. This
Court normally would not consider the exhibit because a Reply to Answer exists only to
“clarify the facts and issues in a habeas corpus proceeding,” not to include matters
omitted from the writ petition. State ex rel. Singh v. Purkett, 824 S.W.2d 911, 912 n.1
(Mo. banc 1992); Rule 91.12. Nevertheless, Johnson neither asks this Court to adopt
Utah’s protocol in full nor identifies the portions of Utah’s protocol he proposes as an
alternative method of execution. This Court determines Johnson’s inclusion of Utah’s
protocol, without more, does not provide the “sufficient detail” required by Bucklew or
this Court’s fact pleading requirements.
In addition, Johnson’s “proposal” does not sufficiently allege death by firing squad
“would significantly reduce a substantial risk of severe pain” 18 or that Missouri “has
refused to adopt [a firing squad] without a legitimate penological reason.” 19 Bucklew,
139 S. Ct. at 1125. The failure to plead and prove either one of these requirements is

18

In his Reply to Answer, Johnson concludes, without any analysis or support, that “a firing
squad will significantly reduce his risk of pain since his seizure condition is obviously not
implicated if he is shot to death[.]” This Court need not consider conclusory allegations made in
a petition for a writ of habeas corpus. Tucker v. Kaiser, 176 S.W.2d 622, 623 (Mo. banc 1944).
19
In its suggestions in opposition to Johnson’s writ petition, the State argues it would have
legitimate penological reasons to refuse to adopt firing squad as an execution method, namely:
(1) Missouri’s lethal injection protocol has a track record of rapid and painless death;
(2) execution by firing squad would jeopardize the safety and the security of the department of
corrections and its personnel; and (3) death by firing squad would tarnish the dignity of
Missouri’s execution procedures.
27

fatal to Johnson’s method of execution claim. Nevertheless, Johnson has failed to plead
and prove both; therefore, his method of execution claim fails. 20
This Court finds and concludes Johnson has failed to prove he is intellectually
disabled; therefore, he is eligible for the death penalty. Additionally, this Court finds and
concludes Johnson is not entitled to relief on any of his remaining claims. This petition
for a writ of habeas corpus is denied. 21

All concur.

20

Even if Johnson could plead and prove his method of execution claim, Missouri would not be
required to adopt firing squad as an alternative method of execution because it is “untried and
untested.” Bucklew, 139 S. Ct. at 1130. Only four states allow firing squad as an alternative
method of execution; Mississippi, Oklahoma, Utah, and South Carolina. See Methods of
Execution, Death Penalty Information Center, https://deathpenaltyinfo.org/executions/methodsof-execution. Furthermore, only three executions have been carried out by firing squad since
1976, and only Utah has used a firing squad since the 1920s. See Facts about the Death Penalty,
Death Penalty Information Center, https://documents.deathpenaltyinfo.org/pdf/FactSheet.pdf; see
also McGehee v. Hutchinson, 854 F.3d 488, 494 (8th Cir. 2017) (explaining a firing squad may
not be a tried and tested alternative because “The firing squad has been used by only one State
since the 1920s. It requires trained marksmen who are willing to participate and is allegedly
painless only if volleys are targeted precisely”). Neither the Eighth Amendment nor article I,
§ 21 of the Missouri Constitution would require the State to implement such a seldom-used and
risky method of execution, especially when Missouri’s lethal injection protocol has proved
successful in achieving rapid and painless death for condemned inmates.
21
On July 12, 2021, Johnson filed a motion for stay of execution with this Court. That motion is
contemporaneously overruled.
28

Appendix B

Supreme Court of Missouri
en banc
SC99176
State ex rel. Ernest Johnson, Petitioner
vs.
Paul Blair, Warden of Potosi Correctional Center, Respondent.

Sustained
Overruled
Denied
Taken with Case
Sustained Until
Other
Order issued: Petitioner's motion for rehearing overruled. Petitioner's request for stay of
execution overruled.

By:

October 1, 2021
Date

Chief Justice

01

02

03

Appendix C

September 14, 2021
Paula Harms, JD
Office of the Federal Public Defender
Kansas City, Missouri
Dear Attorney Harms,

I am a psychiatrist and chair of the Steering Committee of the DSM. In December
2019, the DSM Steering Committee approved the removal of the following sentence from
the DSM-5, which addresses the diagnosis of intellectual disability: “To meet diagnostic
criteria for intellectual disability, the deficits in adaptive functioning must be directly
related to the intellectual impairments described in Criterion A.” DSM-5, at p. 38.
Around the same time, DSM-5 was undergoing review and updating of its entire
text. Because of the extensive effort required to publish the DSM-5-TR, now scheduled
to appear in March 2022, the change described above has not yet been made public in
APA’s publications, but this sentence will not appear in the text of DSM-5-TR.
The change was agreed to by the Steering Committee after much deliberation and
input from diagnostic professionals practicing in the field of Intellectual Disability. The
change was warranted because these professionals informed us of the confusion this
sentence caused in the diagnostic process, appearing to add a diagnostic criterion beyond
the official criteria set. That was not the intent of the sentence and thus, to avoid such
confusion, the sentence was removed. I hope this information is helpful.
Sincerely yours,

Paul S. Appelbaum, MD
Elizabeth K. Dollard Professor of Psychiatry, Medicine and Law
Director, Center for Law, Ethics & Psychiatry
Department of Psychiatry
Columbia University Vagelos College of Physicians and Surgeons
Chair, DSM Steering Committee
American Psychiatric Association

01

Appendix D

support is needed in order for the person to perform adequately in one
or more life settings at school, at work, at home, or in the community.
To meet diagnostic criteria for intellectual disability, the deficits in
adaptive functioning must be directly related to the intellectual
impairments described in Criterion A. Criterion C, onset during the
developmental period, refers to recognition that intellectual and
adaptive deficits are present during childhood or adolescence.

As updated

Criterion B is met when at least one domain of adaptive functioning—
conceptual, social, or practical—is sufficiently impaired that ongoing
support is needed in order for the person to perform adequately across
in multiple environments, such as one or more life settings at home,
school, at work, at home, or in the and community. To meet diagnostic
criteria for intellectual disability, the deficits in adaptive functioning
must be directly related to the intellectual impairments described in
Criterion A. Criterion C, onset during the developmental period, refers
to recognition that intellectual and adaptive deficits are present during
childhood or adolescence. Criterion C, onset during the developmental
period, refers to recognition that intellectual and adaptive deficits are
present during childhood or adolescence.

Reason for update The changes focus on a phrase contained in DSM-5 that appears to
inadvertently change the diagnostic criteria for Intellectual Disability to
add a fourth criterion.

* The name was changed from Intellectual Disability (Intellectual Developmental Disorder)

Copyright © 2021 American Psychiatric Association. All rights reserved. Unless authorized in writing by the American
Psychiatric Association (APA), no part of this supplement may be reproduced or used in a manner inconsistent with
the APA’s copyright. This prohibition applies to unauthorized uses or reproductions in any form, including electronic
applications.
Correspondence regarding copyright permissions should be directed to DSM Permissions, American Psychiatric
Association Publishing, 800 Maine Ave. SW, Suite 900, Washington, DC 20024-2812.

02

Appendix E

PARK DIETZ & ASSOCIATES, INC.
Forensic Consultants

Daniel A. Martell, Ph.D., ABPP
2906 Lafayette
Newport Beach, CA 92663
Ph. 949-230-7321
damartell@aol.com
Administrative Offices
2906 Lafayette
Newport Beach, CA 92663
Tel: 949-723-2211
Fax: 949-723-2212
Email: expert@parkdietzassociates.com
Website: www.parkdietzassociates.com
•
•
•
•
•
•
•
•
•

Forensic Psychiatry
Forensic Psychology
Forensic Pathology
Forensic Neurology
Forensic Social Work
Forensic Science
Child Sexual Abuse
Criminology
Security

June 18, 2021
Jeremy Weis, Esq.
Federal Public Defender’s Office
818 Grand Blvd.
Suite 300
Kansas City, MO 64106
RE: Ernest Johnson v. Lombardi (Warden)
Dear Mr. Weis,
I am writing to share the findings and opinions from my review
of the case materials you have provided, and my collateral
interviews of witnesses in the above captioned matter.
Referral Questions
You have asked that I examine and test Mr. Johnson, and
review the background materials in this case, in order to
address the following referral questions:
(1)

In light of evolving diagnostic standards, does
Mr. Johnson meet criteria for Intellectual Disability
pursuant to Atkins v. Virginia under current
diagnostic guidelines?

Answers to Referral Questions
Based on my examination, testing, and review of the
background materials, I have reached the following opinions to
a reasonable degree of psychological certainty:
(1) Mr. Johnson has significantly subaverage intellectual
functioning based on valid, objective test scores that fall within
the range of Intellectual Disability.
(2) Mr. Johnson exhibits significant deficits or impairments in
all three domains of adaptive functioning (Conceptual, Social
and Practical) at the level of “Mild” to “Moderate” severity.

01

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 2 of 63

(3) Mr. Johnson’s intellectual and adaptive deficits originated in the
developmental period.
(4) Mr. Johnson thus meets all of the current criteria for Intellectual
Disability pursuant to Atkins v. Virginia.
Qualifications of Examiner
I was an expert witness for the Government in Atkins v. Virginia, and I
have since consulted on numerous Atkins-related cases for both
prosecutors and defense attorneys throughout the country.
I received a Bachelor's Degree in psychology with honors from
Washington and Jefferson College (1980), a Master’s Degree in
psychology from the University of Virginia (1985), and a Ph.D. in
clinical psychology from the University of Virginia (1989). I completed
my clinical psychology internship specializing in forensic psychology at
New York University Medical Center, Bellevue Hospital, and Kirby
Forensic Psychiatric Center in New York City (1986-1987), and was
awarded a Post-Doctoral Fellowship in Forensic Psychology, also at
New York University Medical Center, Bellevue Hospital, and Kirby
Forensic Psychiatric Center during which I specialized in forensic
neuropsychology (1987-1988).
I am Board Certified in Forensic Psychology by the American Board of
Forensic Psychology of the American Board of Professional Psychology,
Diplomate Number 5620. I am a Fellow of the American Academy of
Forensic Psychology; a Fellow and Past-President of the American
Academy of Forensic Sciences; and a Fellow of the National Academy
of Neuropsychology. I am licensed as a clinical psychologist by the
State of California, License Number PSY15694. I am also licensed as a
clinical psychologist by the State of New York, License Number
011106.
I am a 2020-2022 Distinguished Fellow at the Center for Psychology
and the Law of the University of California – Irvine. From 1994 until
the Forensic Psychiatry Fellowship program I taught in was ended in
2017, I was an Assistant Clinical Professor of Psychiatry and
Biobehavioral Sciences at the Semel Institute for Neuroscience and
Human Behavior and the Resnick Neuropsychiatric Hospital of the
David Geffen School of Medicine at UCLA. Currently, as the UCLA
Forensic Psychiatry Fellowship has been reinstated, I have a promotion
02

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 3 of 63

pending to Associate Clinical Professor. From 1992 to 1996 I was a
Clinical Assistant Professor in the Department of Psychiatry at New
York University School of Medicine. I was also a forensic research
scientist at the Nathan Kline Institute for Psychiatric Research, and the
founding director of the Forensic Neuropsychology Laboratory at Kirby
Forensic Psychiatric Center in New York City from 1988 to 1994.
I have authored over 100 publications and presentations at
professional meetings, with a research emphasis on forensic issues
involving forensic neuropsychological assessment, mental disorders,
brain damage, intellectual disability, elder capacities, and violent
criminal behavior.
I have been admitted to testify as an expert witness in more than two
hundred cases, including testimony in both criminal and civil matters
in federal and state courts throughout the United States. I have
consulted and testified for both prosecutors and defense attorneys in
criminal cases, as well as plaintiffs and defense attorneys in civil
matters.
Diagnostic Criteria for Intellectual Disability
In their decision in Atkins v. Virginia, the United States Supreme Court
stated:
Clinical definitions of mental retardation require not only
subaverage intellectual functioning, but also significant
limitations in adaptive skills. Mentally retarded persons
frequently know the difference between right and wrong and are
competent to stand trial, but, by definition, they have diminished
capacities to understand and process information, to
communicate, to abstract from mistakes and learn from
experience, to engage in logical reasoning, to control impulses,
and to understand others' reactions. Their deficiencies do not
warrant an exemption from criminal sanctions, but diminish their
personal culpability. 1

1

Atkins v. Virginia, 536 U.S. 304, 317-21 (2002).

03

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 4 of 63

Both the American Association on Intellectual and Developmental
Disabilities (AAIDD) and The Diagnostic and Statistical Manual of
Mental Disorders – 5th edition (DSM-5) define Intellectual Disability
(ID) as a neurodevelopmental disorder that begins in childhood and is
characterized by intellectual difficulties, as well as difficulties in
conceptual, social, and practical areas of living. The DSM-5 diagnosis
of ID requires the satisfaction of three criteria:
A. Deficits and intellectual functions, such as reasoning, problem
solving, planning, abstract thinking, judgment academic learning
and learning from experience, confirmed by both clinical
assessment and individualized, standardized intelligence testing;
B. Deficits in adaptive functioning that result in failure to meet
developmental benchmarks in socio-cultural standards for
personal independence and social responsibility. Without ongoing
support, the adaptive deficits limit functioning in one or more
activities of daily life, such as communication, social
participation, and independent living, across multiple
environments, such as home, school, work, and community.
Adaptive functioning involves adaptive reasoning in three
domains: conceptual, social, and practical; and
C. Onset of intellectual and adaptive deficits during the
developmental period.
Normally-functioning individuals have an average IQ score of 100.
Those with Intellectual Disability have significantly subaverage IQ
scores of approximately 75 or below.
The DSM-5 definition of ID encourages a more comprehensive view of
the individual than was true under the fourth edition, DSM-IV. More
importance is placed on clinical judgment with regard to the presence
of adaptive deficits, and less emphasis is placed on bright-line IQ
cutoff scores. Intellectual Disability Notably, the diagnosis is made on
the basis of evidence of adaptive deficits, and is not ruled-out by the
presence of adaptive strengths. Adaptive deficits are classified on a
scale from “Mild” to “Moderate” to “Severe” to “Profound,” based on
criteria set out in the DMS-5. Notably, even “Mild” deficits represent a
significant impairment in one’s adaptive skills and ability to function.

04

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 5 of 63

Basis for Opinions
Scope of Examination and Informed Consent
I personally examined and tested Ernest Johnson in a quiet, private
visiting room at the Missouri Department of Corrections Potosi
Correctional Center on May 31, 2019 and June 1, 2019. Mr. Johnson
was hands-free, and unrestrained during the examination. Comfort
breaks were taken as needed.
He was advised that I had been retained by your office, of the limits on
confidentiality in this forensic context, and of the lack of any treating
relationship between us. Mr. Johnson was able to provide his informed
consent to participate with this understanding.
Tests Administered
•
•
•
•
•
•
•
•
•
•

Structured Neuropsychological Interview
Mental Status Examination
Wechsler Adult Intelligence Scale-IV
Wide Range Achievement Test-IV
California Verbal Learning Test -II
Trail Making Test, Parts A & B
Wisconsin Card Sort
Tests of Verbal Fluency (F-A-S)
Animal Naming Test
Clinical Adaptive Functioning Interview

Materials Reviewed
I have reviewed several volumes of material regarding Mr. Johnson,
which included the following:
1.
2.
3.
4.
5.

2009-06-09 Neuropsychological Evaluation by Dr. Paul D.
Connor
2005-08-15 Psychological Evaluation by Dr. Natalie Novick
Brown
2006-05-10 and 2006-05-11 Denis Keyes – Third Sentencing
Hearing Testimony
1995-12-13 Evaluation by Dr. Dennis Cowan
2008-08-14 Forensic Psychiatric Examination by Dr. Richard S.
Adler
05

Forensic Neuropsychological Report
June 18, 2021
6.
7.
8.
9.
10.
11.
12.
13.
14.
15.
16.
17.
18.
19.
20.
21.
22.
23.
24.
25.
26.
27.
28.
29.
30.
31.
32.
33.
34.
35.
36.
37.

JOHNSON, Ernest
Page 6 of 63

2004-07-21 WAIS-III Raw Data from Wayne “Sonny” Bradshaw
2005-02-17 Deposition of Wayne “Sonny” Bradshaw
2004 07-21 Evaluation by Dr. Gerald Heisler
2005-02-17 Deposition by Dr. Gerald Heisler
2001-09-07 Deposition of Dr. Carole Bernard
Ernest Johnson’s School Records
Original File of Dr. Dennis Keyes
2004-08-10 Report of Dr. Dennis Keyes
2006-05-09 Dennis Booth – Third Sentencing Hearing Testimony
2006-05-10 Robin Seabaugh – Third Sentencing Hearing
Testimony
1999-03-12 Jerome Peters – Second Sentencing Hearing
Testimony
2006-05-10 Thomas Powell – Third Sentencing Hearing
Testimony
1995-05-17 Jean Ann Patton – Original Trial Testimony
2006-05-09 Gloria “Lisa” Johnson – Third Sentencing Hearing
Testimony
2005-02-10 Memo of Interview of Gloria “Lisa” Johnson and
additional handwritten notes
1995-05-17; 1999-03-11; 2006-05-09 Bobby Johnson – All
Three Sentencing Hearings
1995-11-21; 1995-12-07; 1995-02-11; 1995-12-13;
1996-02-13 Memos of Interviews of Bobby Johnson, Jr.
2001-04-16 Affidavit of Bobby Johnson
1995-05-17; 1999-03-11 Beverly Johnson – All Three
Sentencing Hearings
2001-06-01 Affidavit of Beverly Johnson
2006-05-10 Ricky Frazier – Third Sentencing Hearing Testimony
2006-05-10 Steven Mason -Third Sentencing Hearing Testimony
2006-05-11 CW Dawson – Sentencing Hearing Testimony
1996-05-21 Dr. Carole Bernard – First PCR Testimony
1996-05-21 Dr. Dennis Cowan – First PCR Testimony
1999-03-12 Dr. Dennis Cowan – Second Sentencing Hearing
1994-06-24 Memo of Interviews with Delores Grant and
Margaret Patrick
1996-03-31 Psychological Evaluation by Robert Smith
2000-04-06 Psychological Evaluation at Potosi Correctional
Center
2001-05-23 Affidavit of Fred Johnson
2001-06-06 Affidavit of Patricia Zellars
2001-10-26 Affidavit of Phillip McDuffy
06

Forensic Neuropsychological Report
June 18, 2021
38.
39.
40.
41.
42.
43.
44.
45.
46.
47.
48.
49.
50.
51.
52.

JOHNSON, Ernest
Page 7 of 63

2004-12-09 Memo of Interview with Albert Patton
2001-04-24 Affidavit of Anna “Annie” Lee Taylor
2001-04-20 Affidavit of Bobby Johnson, Sr.
2001-11-09 Affidavit of Catherine Luebbering
Genogram of Ernest Johnson’s Family
James Dempsey’s Social History
Jean Anne Patton’s Mental Health Records
Michael Dennis’s Social History
2001-05-22 Affidavit of Preston Heard [Elementary School
Teacher]
Videotaped Evaluations performed by Wayne “Sonny” Bradshaw
and Dr. Gerald Heisler
Ernest Johnson’s University Medical Records
August and September of 2008 Medical Records
September and October of 2008 Medical Records
2008-09-12 Certified Copies of Potosi Correctional Center
Medical Records
2008-08-14 Certified Copies of Potosi Correctional Medical
Records
Background Information

Mr. Johnson’s case, background, and family history have been
extensively discussed elsewhere in the case materials, and will not be
reiterated in detail here. However, a few important facts will be
discussed to provide context and support for my opinions.
In addition, Mr. Johnson’s history includes several risk factors for
intellectual disability that merit a brief discussion to add context for
understanding his inherent vulnerability to Intellectual Disability.
Family History
Mr. Johnson reported that he was born in Steele, Missouri on
1960. His father, Bobby, died at 78 years of age. Mr. Johnson
was not sure of his precise cause of death, but related that he had
kidney problems and was on dialysis. His father worked as a farmer
and was uneducated and illiterate.
His mother, Jean Ann Patton, has also passed away although he was
unable to tell me how old she was when she died and was unsure of
her cause of death other than to say, “drinking probably.” He said
07

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 8 of 63

that she did not work outside of the home, and when I asked how far
she went to school he replied simply, “not far.”
He stated that he is the youngest of three children. His older brother
Bobby Johnson, Jr. is now, “68 or 70” years old, and his sister Beverly
passed away from leukemia when she was, “62 or 63.”
Mr. Johnson reported that he has never been married but has a son
named Tony who is 37 years old.
Education
Mr. Johnson told me that he completed the 10th grade before stopping
school. He described his grades in school as, “not good.”
He said he was taught in a Special Education, “trailer behind the
school.” He explained that he was placed in this program from
preschool through the 10th grade. This report is supported by his
school records, which reflect his placement in Special Education
classes and Developmental Reading. 2
Employment
Mr. Johnson reported doing farm work, including harvesting
watermelons, beans, and cotton.
He denied military service.
Medical History
Mr. Johnson was unable to provide any information about his mother’s
pregnancy with him or his delivery, although he did report that she
drank alcohol while she was pregnant with him. This report is also
repeatedly supported in Mr. Johnson’s case records. 3
He told me he was slow to achieve developmental milestones including
walking and talking. “Grandma always told me that I was special.”

2

School Records, p. 4, 7, 11.

3

Detailed below at p. 9-11 of this report.

08

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 9 of 63

Brain tumor. Mr. Johnson reported that he had a cancerous brain
tumor removed, “in 2003 or eight.” His medical records indicate that
he had a 10-year history of headaches and began having seizures,
which led to an MRI of his brain that revealed a mass. He was
subsequently diagnosed with brain cancer by Dr. N. Scott Litofsky,
who recommended neurosurgery to remove the tumor:

*

*

*

*

He underwent a bi-frontoparietal craniotomy for resection of a
parasagittal meningioma involving the sagittal sinus on 08/28/2008.
Dr. Litofsky followed-up with Mr. Johnson following the surgery, and
noted the following findings on 09/08/2008:

09

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 10 of 63

Mr. Johnson reported a history of seizures that were attributed to his
brain tumor but which have been managed with medication since his
brain surgery.
Prior history of head injuries. Mr. Johnson also reported
experiencing several head injuries while growing up, including a
concussion with loss of consciousness after falling off a cotton wagon.
According to James Dempsey’s social history:
Earnest's [sic] mother, Jean Ann Patton (taking Albert Patton's
name after marriage) … reports that when Earnest [sic] was
about 8 years old, he fell off a cotton trailer, bumped his head
on concrete and was knocked unconscious. She reports that she
cried and begged him to wake up, promising him Cheerios if he
would wake up. She stated that her husband would not take
Ernest to the hospital after he came to. 4
Jean Ann Patton also testified during the original trial:
Q. Okay. Let me ask you about, do you remember a time when
Ernest fell off a cotton trailer?
A. Yes.
Q. Tell the jury about that. How old was he when he fell
off that cotton trailer?
A. I can't just remember now, but he was a really small
boy. He was about -- he was about seven or eight years
4

James Dempsey social history, p.12.

10

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 11 of 63

old. He was, it was on that thing where you pulled the
trailer up off, to weigh the cotton in the trailer, and
he fell off.
Q. Did he get hurt?
A. His head, it hurt his head, he did. 5
Mr. Johnson also reported being hit in the head with a chair in the
1980’s when he was 18 or 19 years old. He stated that he lost
consciousness during this assault and was treated at the University of
Missouri Hospital in Columbia.
He denied any history of stroke, hypertension, or diabetes.
Psychiatric History
Mr. Johnson denied any history of psychiatric treatment in the
community, although the records indicate that he has been evaluated
while in prison. He also denied any history of suicidal ideation or
suicide attempts.
Current Medications
Mr. Johnson reported that his only medication is for control of seizures,
although he could not tell me the name of the medicine or his dosage.
He did state that he has been taking the medicine since 2009 for
seizure control.
Underlying Risk Factors For Intellectual Disability
Although not required for a diagnosis, Mr. Johnson has a number of
biological and environmental risk factors in his history that predispose
him to Intellectual Disability. The evidence for each of these and some
of the relevant supporting research will be described in the sections
below, including a genetic predisposition, exacerbated by; (1) fetal
alcohol exposure; (2) a history of head injuries; (3) child abuse and
neglect; and (4) poverty and malnutrition during his developmental
period.

5

Original trial testimony transcript, p. 2513.

11

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 12 of 63

Genetic Predisposition
It has been recognized for many years that Intellectual Disability runs
in families. 6 Having a parent or sibling with Intellectual Disability
significantly increases the likelihood of having an intellectual
disability. 7 Genetic causes are estimated to be responsible for
approximately a quarter to one-half of identified cases. 8
Mr. Johnson was born into a family with a documented history of
intellectual impairment. His mother, Jean Ann Patton, was diagnosed
with Moderate Mental Retardation by Maria Lykowski, M.D. at MMMHC
on or about 11/19/1974. Her Full-Scale IQ was formally measured to
be 61 at that time, with concomitant impairments in her adaptive
functioning capabilities. 9
In addition to Mr. Johnson, her son, Ernest’s half-brother Danny Patton
was also born with Profound Intellectual Disability and other
neurological and neurobehavioral birth defects including microcephaly,
cerebellar atrophy, legal blindness, seizure disorder, and PICA
requiring constant care throughout his life. 10
Having a mother and a brother diagnosed with Intellectual Disability
significantly increases the risk that Mr. Johnson would be diagnosed
with ID.
6

Nichols, P.L. (1984). Familial mental retardation. Behavior Genetics, 14: 161.

Heber, R. & Garber, H. (1970). An Experiment in the Prevention of Cultural-Familial
Mental Retardation. Wisconsin Univ., Madison. Regional Rehabilitation
Research and Training Center in Mental Retardation. Paper presented at Second
Congress of International Association for Scientific Study of Mental Deficiency,
Warsaw, Poland.
Elena Bonora, Claudio Graziano, Fiorella Minopoli, et al. (2014). Maternally
inherited genetic variants of CADPS2 are present in Autism Spectrum Disorders and
Intellectual Disability patients. EMBO Molecular Medicine. Vol 6, No 6, p. 795-809.
7

Pietro Chiurazzia & Filomena Pirozzi (2016). Advances in understanding – genetic
basis of intellectual disability. F1000Res; 5: 599.
Srour M, Shevell M. (2014). Genetics and the investigation of developmental
delay/intellectual disability. Arch Dis Child. 2014;99(4):386-389.
8

9

Missouri Department of Mental Health records, MMMHC, bates 12 and 15.
See Danny Patton’s Marshall Rehabilitation Center medical records.

10

12

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 13 of 63

Fetal Alcohol Exposure and Fetal Alcohol Spectrum Disorder
Diagnosis
Dr. Adler, Dr. Smith. and Dr. Novick-Brown have all previously
determined that Mr. Johnson suffers from Fetal Alcohol Exposure. 11
There is a long-established scientific literature linking maternal alcohol
use during pregnancy with birth defects, cognitive impairments, and
intellectual disability. 12 This is a critical fact, because maternal alcohol
use during pregnancy is the leading known risk factor for intellectual
disability. 13
In addition, Fetal Alcohol exposure has been specifically linked to
broad impairments in adaptive functioning that are directly relevant to
diagnosing intellectual disability. For example, in a longitudinal study
of 473 patients sponsored by the Centers for Disease Control and
Prevention, patients with Fetal Alcohol Syndrome received an average
adaptive behavior composite score of 67 on a formal measure of
adaptive behavior and average reading, spelling, and arithmetic scores
of 78, 75, and 70, respectively, on achievement testing. 14 All of these
scores are consistent with diagnostic criteria for Intellectual Disability
as well.

11

Dr. Adler’s 08/14/2008 Report.

National Institute on Alcohol Abuse and Alcoholism (2000, December). Fetal
alcohol exposure and the brain (Alcohol Alert No. 50). Retrieved from
http://www.niaaa.nih.gov/publications/aa50.htm

12

Cornelius, M. D., Day, N. L., Richardson, G. A., & Taylor, P. M. (1999). Epidemiology
of substance abuse during pregnancy. In P. J. Ott & R. E. Tarter (Eds.), Sourcebook
on substance abuse: Etiology, epidemiology, assessment, and treatment (pp. 1–13).
Needham Heights, MA: Allyn & Bacon, Inc.
O’LEARY, C., LEONARD, H., BOURKE, J., D’ANTOINE, H., BARTU, A. and BOWER,
C. (2013), Intellectual disability: population-based estimates of the proportion
attributable to maternal alcohol use disorder during pregnancy. Developmental
Medicine & Child Neurology, 55: 271–277.
13

Ann P. Streissguth, A.P., Barr, H.M., et al. (1996). Understanding the Occurrence
of Secondary Disabilities in Clients with Fetal Alcohol Syndrome (FAS) and Fetal
Alcohol Effects (FAE): Final Report. Atlanta, GA: Centers for Disease Control and
Prevention, Grant No. R04/ CCR008515.
14

13

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 14 of 63

Numerous available interviews and social histories indicate that Mr.
Johnson's mother, Jean Ann Patton, in addition to being diagnosed
with Intellectual Disability had a long-standing history of alcohol
abuse.
Dr. Smith noted the following in his 1996 report regarding Mr.
Johnson’s fetal alcohol exposure:
Ms. Patton indicated that she began using alcohol at
approximately age 10. … She had also been introduced to
marijuana and smoked on a near daily basis. Interviews with
Bobby Johnson, Sr., have indicated that Ms. Patton drank
throughout each of her pregnancies, including her pregnancy
with Ernest Johnson. Ms. Patton also supported this, indicating
that her difficulty with her "nerves" prevented her from being
able to cut back even during her pregnancies. Ms. Patton's
abuse of alcohol continues to the present time. She
acknowledged, with embarrassment, that she is unable to go for
a full day without drinking.
The research has demonstrated that the abuse of substances by
a mother during her pregnancy can have negative effects upon
the unborn child. Ms. Patton reflected upon her pregnancy with
Mr. Johnson and indicated that he was born at home, was
premature, and extremely small in stature and weight. She
noted that early along he was thin and often ill. The school
records indicate that Mr. Johnson had significant difficulties in
school and was placed in special education classes. This history
strongly supports the diagnosis of Fetal Alcohol Effect for Mr.
Johnson.
*
*
*
*
Mr. Johnson's limited intellectual functioning is likely to be the
direct result of his mother's abuse of alcohol and other drugs
during her pregnancy. As an adolescent and young adult, Mr.
Johnson has been greatly limited in his ability to perform in
school and employment situations. 15

03/21/1996 Report of Dr. Robert Smith, p. 3-5. See also Declaration of Bobby
Johnson, Sr.

15

14

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 15 of 63

This is also reflected in an interview with Mr. Johnson’s sister
Beverly:
Beverly also shared that she has a step-brother, Danny Patton,
and that he has been institutionalized because her mother did
not take care of him. Danny was born with severe deficiencies
because of Jean Ann's alcohol and drug abuse when she was
pregnant, according to Beverly. 16
Mr. Johnson’s mother drinking during her pregnancy with him has also
been reported by several family members:
Bobby Sr. reported that Jean Ann was drinking heavily
throughout the pregnancy of both Beverly and Ernest, and she
received no pre-natal care as they could not afford it.
Both Bobby Sr. and Jean Ann were drinking a lot at this point
and the relationship often involved physical abuse of one
another. Bobby Jr. recalls numerous occasions when his parents
would have physical fights. Bobby Jr. recalls living in a shack
that did not have electricity, plumbing, heating or refrigeration. 17
Ernest was born
1960 at home. According to family
members, including Bobby Sr., Ernest was pre-mature, small,
and underweight. It was reported by Ernest’s father that Jean
Ann, Ernest’s mother, drank heavily throughout her pregnancy
with Ernest. 18
Bobby Johnson Jr. also reported that Jean Ann drank while she
was pregnant with Ernest, and described alcoholism as rampant
throughout the extended family. 19
Beverly Johnson testified that she says her mother was always
an alcoholic. 20

11/09/2001 Affidavit of Karen Luebbering, interview with Mr. Johnson’s sister
Beverly Johnson, p. 5.
16

17

Michael Dennis social history, p. 3.

18

Ibid, p. 5.

19

02/07/1996 interview with Loyce Hamilton, bates 1814.

15

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 16 of 63

Dr. Natalie Novick Brown supports her diagnosis of Mr. Johnson
with Fetal Alcohol Spectrum Disorder in elaborate detail in her report21
that is too extensive to be reproduced here, but which the reader is
strongly encouraged to review.
Head Injury
It has long been known that concussions have a cumulative and
adverse effect on brain functioning, 22 and especially on children’s
developing brains in which research has demonstrated particular
vulnerabilities for expressive language deficits. 23 Head injury can be a
direct cause of cognitive impairment, intellectual decline, and IQ loss
due to traumatic brain injury.
Mr. Johnson has a developmental history of at least two significant
head injuries with loss of consciousness, beginning at eight years of
age.

20

Original Trial Testimony, p. 2485.

21

Dr. Novick-Brown’s report, 08/15/2005, p. 14-40.

Gronwall, D., & Wrightson, P. (1975). Cumulative Effect of Concussion. The
Lancet, Volume 306, Issue 7943, pp. 995-997.
22

Ewing-Cobbs, L., Miner, M.E., Fletcher, J.M., & Levin, H.S. (1989). Intellectual,
Motor, and Language Sequelae Following Closed Head Injury in Infants and
Preschoolers. J. PediaPCRA Transcript, Psychol., 14 (4): pp. 531-547.
23

Anderson, V., & Moore, C. (1995). Age at injury as a predictor of outcome following
pediatric head injury: A longitudinal perspective. Child Neuropsychology: A Journal
on Normal and Abnormal Development in Childhood and Adolescence, Volume 1,
Issue 3, pp. 187-202.
Collins, M.W., Lovell, M.R., Iverson, G.L., et al. (2002). Cumulative Effects of
Concussion in High School Athletes. Neurosurgery: Volume 51, Issue 5, pp. 11751181.
Moser, R.S., Schatz, P., & Barry D. (2005). Prolonged Effects of Concussion in High
School Athletes. Neurosurgery: Volume 57, Issue 2, pp. 300-306.

16

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 17 of 63

Child Abuse
Both witnessing the abuse of others, and being the victim of abuse,
increase the risk of intellectual disabilities in children. 24 Mr. Johnson
has experienced both. Several experts and lay witnesses have
described abusive incidents during Mr. Johnson’s childhood that are
summarized below.
Physical abuse and neglect. It is important to note that the
abandonment, neglect, abuse, and depravation that Ernest Johnson
experienced during his early years had a significant impact on his
development: 25
The primary caretaker for Mr. Johnson during his childhood and
adolescence was his paternal grandmother, Clementine Johnson.
Interviews of the family members indicate that she was a caring
but ineffectual surrogate mother. She was unemployed and
provided minimal structure for the children. When she felt the
children had become too unruly, she would whip them with a
switch, leaving welts and cuts upon their bodies. She relied
heavily upon Bobby Johnson, Jr. to assist her with the children
and to serve as a parent. She was unable to protect the children
from their intoxicated father who would feel the need to assert
his authority over the children by beating them. On several
occasions, he is noted to have punched Mr. Johnson in the face
and to continue beating him in spite of the pleadings of the
grandmother. On another occasion, the father chased Mr.
Johnson across a field, firing a shotgun into the air over his head
Mr. Johnson was terrified and refused to return home until his
father left. A similar event occurred when the father chased

Perez, CM, & Widom, CS. (1994). Childhood victimization and long-term
intellectual and academic outcomes. Child Abuse & Neglect, Volume 18, Issue 8, p,
617-633.
24

Carrey, N, Butter, HJ, Persinger, MA, et al. (1995). Physiological and Cognitive
Correlates of Child Abuse, Journal of the American Academy of Child & Adolescent
Psychiatry, Volume 34, Issue 8, p. 1067-1075.
25

03/21/1996 Report of Dr. Robert Smith, p. 3.

17

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 18 of 63

Mr. Johnson across the field to whip him. However, on this
occasion Mr. Johnson had hidden a BB gun and turned and shot
his father. He then ran and hid until the father left. 26
Within Mr. Johnson's family, substance abuse and violence were
directly related to one another. His father, Bobby Johnson, Sr.,
would abuse alcohol and become extremely agitated and violent.
There are multiple reports of his physically abusing the children
and his wife, chasing the family with a gun and shooting at
them. With regard to Ms. Patton, she is also reported to have a
violent temper when intoxicated. She has reported, as well as
others, that she has become physically abusive toward her
children when intoxicated and engaged in physical fights with
her husbands and male partners when under the influence. 27
Bobby Johnson, Jr. reported the following:
Bobby stated that his father’s “whupping's” were always severe.
He believes that if the current child abuse laws were in effect at
the time he and his brother and sister were growing up, both his
father and grandmother would have been jailed. Bobby recalls
having personally experienced such severe beatings that his skin
was full of welps. He compares those injuries to the welps on
Kunta Kinte in the “Roots” movie. He also believes that Ernest
got more beatings from his father than the rest of the children. 28
Beverly Johnson, Ernest Johnson sister, reported to social worker
James Dempsey that:
Beverly Johnson states that she, Ernest, and Bobby, or
physically abused by a friend of their paternal grandfather. She
reports that they called the man Mister Izac, and that he had an
amputated leg. She reports that Mister Izac would force them to
lie across the floor in a row, while he sat in a chair and whipped
them with belts and extension cords. She reports that he
threatened to kill them if they ever told their grandfather. 29
26

03/21/1996 Report of Dr. Robert Smith, p. 8.

27

03/21/1996 Report of Dr. Robert Smith, p. 5-6.

28

Memo to file from interview of Bobby Johnson, junior.

29

James Dempsey's social history, p. 16.

18

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 19 of 63

Sexual abuse and child prostitution. At approximately age 17,
[Mr. Johnson’s sister] Beverly related that she was sexually abused by
her stepfather, Albert Patton. She indicated that he also sexually
molested Mr. Johnson and her brother Bobby Johnson, Jr.:
As Bobby Johnson, Jr. reached late adolescence, his mother,
Jean Ann Patton, began introducing him to older women (e.g.,
ages 30 to 40) for sexual relations. On these occasions, the
women would give Bobby Johnson, Jr. money and/or alcohol and
drugs. He would then share these "gifts" with his mother.
Again, Mr. Johnson was exposed to these behaviors and had no
way to judge them as being inappropriate.
When Mr. Johnson was approximately 16 years of age, his
mother began introducing him to older women for sex. Initially,
he was reluctant and embarrassed. On the first occasion, Ms.
Patton encouraged Mr. Johnson to use alcohol and marijuana to
"put him in the mood" before introducing him to an older
woman. From that time on, it was a weekly event for Mr.
Johnson to be introduced by his mother to an older woman with
whom he was expected to have sex. At the conclusion of each
sexual encounter, he would receive gifts in the form of money
and/or drugs. It was expected that Mr. Johnson would then
share these gifts with his mother. It is important to note that
Jean Ann Patton acknowledged during her interview that she
prostituted each of her children in order to support herself and
her abuse of alcohol and drugs. This prostitution was also
reported by Mr. Johnson's stepbrother, Albert Patton. He related
that his mother also encouraged him to have sex with older
women for "gifts." 30
Poverty and Malnutrition
Mr. Johnson grew up in a highly unstable and impoverished home that
exposed him to significant risks for abnormal brain development.
Declaration and affidavits from numerous witnesses, describe
objectively deplorable, filthy and unsanitary conditions in the family
home, and lack of food and proper nutrition during Mr. Johnson’s
developmental years:

30

03/21/1996 Report of Dr. Robert Smith, p. 7-8..

19

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 20 of 63

Bobby Johnson, Sr. describes being a sharecropper all his life
and how little they had in terms of personal wealth. He also
references Jean Ann’s drinking and about her drinking during
pregnancy. 31
Anna Lee Johnson Taylor has described how poor the families
were growing up. 32
Ernest’s uncle Fred Johnson has described how poor their
families were all throughout life. 33
Ernest’s brother Bobby Johnson, Jr describes in great detail
how poor their family was growing up. 34
Neurodevelopmental consequences of poverty. Entire books
have been written about the negative impact of poverty on brain
development. 35 The combination of poverty and abuse is particularly
toxic in this regard. 36 Children who grow up in low-income families are
exposed to more environmental stressors, such as unsafe
neighborhoods, stressed parents, and less access to healthy food.
Growing up below the poverty line hinders brain development and
leads to poorer performance in school.
Research has demonstrated that gray matter brain volume in the
temporal lobes, frontal lobes and hippocampus—brain areas that are
31

Bobby Johnson, Sr.’s Declaration.

32

Anna Lee Johnson Taylor’s Affidavit.

33

Fred Johnson’s Affidavit.

34

See 02/07/1996 interview with Loyce Hamilton; 12/11/1995 Memo to file.

Lipina, S.J., & Colombo, J.A. (2009). Poverty and brain development during
childhood: An approach from cognitive psychology and neuroscience. Washington,
DC, US: American Psychological Association.
35

Faraha, M.J., Sherab, D.M., Savagea, J.H., et al. (2006). Childhood poverty: Specific
associations with neurocognitive development. Brain Research, Volume 1110, Issue
1, p. 166–174.
Luby, J., Belden, A., Botteron, K., et al. (2013). The Effects of Poverty on
Childhood Brain Development: The Mediating Effect of Caregiving and Stressful Life
Events. JAMA Pediatr.; 167(12),p. 1135-1142.
36

20

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 21 of 63

critical to cognitive processes required for academic and social
success—is particularly vulnerable to a person’s early environment.
Children who grew up in families below the federal poverty line have
gray matter volumes 8 to 10 percent below normal development.
Another consequence of living in poverty is inadequate nutrition, which
in turn increases the risk of cognitive disabilities. 37
Socioeconomic status. Poverty is a key variable in understanding
why some children’s brains develop abnormally. In a seminal study of
this issue, 38 the IQs of children raised in urban versus suburban
Detroit changed significantly from age 6 years to age 11 years:
In this study, the change from age 6 years to age 11 years
increased the percentage of urban children scoring less than 85
on the WISC-R from 22.2 to 33.2. … A negligible change was
observed in suburban children. Maternal IQ, education, and
marital status, and low birth weight predicted IQ at age 6 years
but were unrelated to IQ change. Growing up in a racially
segregated and disadvantaged community, more than individual
and familial factors, may contribute to a decline in IQ score in
the early school years.
Dr. Smith noted in his report:
When Mr. Johnson was approximately 12 years of age, all of the
children became involved in shoplifting food and clothing for
themselves and the family. Mr. Johnson's sister, Beverly, often
skipped school because of the harassment she received from the
other children regarding her shoddy clothing and unkempt
appearance. The impoverished condition of the family continued
and their father provided no relief. Stealing was justified for
survival and was accepted by the adults in the family, 39

Haris, JC. (2006). Intellectual Disability: Understanding Its Development, Causes,
Classification, Evaluation, and Treatment. New York: Oxford University Press.
37

Breslau, N., Chilcoat, HD, Susser, ES, et al. (2001). Stability and Change in
Children’s Intelligence Quotient Scores: A Comparison of Two Socioeconomically
Disparate Communities. American Journal of Epidemiology, Vol. 154, No. 8, 711-17.

38

39

03/21/1996 Report of Dr. Robert Smith, p. 6-7.

21

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 22 of 63

Fred Johnson stated in his 2001 affidavit:
Our family was one of numerous black families living
approximately five miles outside of Iuka, Mississippi, where the
white families lived. We were extremely poor, often unable to
pay our monthly rent of $.50 to $1.00. We ended up moving
into smaller houses that were more affordable. Once our family
lived in a building that had been used to store grain for farm
animals. Cattle were once kept in the front part of this building.
It had a tin roof and tin walls inside, and we could see through
the walls. We were desperate to keep the winter cold and rain
out, and ended up using scrap pieces of wood and cardboard to
cover openings. Winter was the worst, because we had no
adequate heating system. I made a stove out of an old oil drum
by cutting a hole into it and covering the hole with a piece of tin.
This provided the only heat we had, and we burned anything we
could find - sticks, limbs, anything. It was very cramped living
in this building; some of our family slept on pallets of quilts or
small mattresses on the kitchen floor because there was no
bedroom space. 40
Intellectual Disability, Genetic Vulnerabilities,
and Risk for Comorbid Disorders
Mr. Johnson’s record reflects a diagnostic history of depression, and
early-onset alcohol abuse. Each of these disorders has a fundamental
connection to intellectual disability and impaired adaptive functioning.
This is a critical concept, as many individuals with intellectual disability
will also meet diagnostic criteria for a range of comorbid disorders, but
the presence of a co-occurring disorder does not rule-out intellectual
disability. The DSM-5 specifically notes, “The diagnosis of intellectual
disability should be made whenever criteria A, B, and C are met.” 41
Other diagnoses do not have to be excluded as a cause for
impairments in order for the criteria of intellectual disability to be met.
Psychiatric comorbidity. The DSM-5 notes that co-occurring mental
disorders are very frequent in persons with intellectual disability, with
40

05/23/2001 Affidavit of Fred Johnson, p. 2.

41

DSM-5, p. 39

22

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 23 of 63

rates three to four times higher than in the general population.
Among the most common of the comorbid psychiatric disorders are
attention-deficit/hyperactivity disorder; and depressive and bipolar
disorders. 42
Early-onset alcohol abuse. Substance abuse disorders are also
common among persons with intellectual disability, often reflecting a
lack of proper treatment and/or not receiving appropriate services. 43
In addition, there is a strong genetic loading for alcohol abuse in Mr.
Johnson’s family, increasing the risk that he would develop problems
with alcohol. There is a longstanding and well-documented scientific
literature demonstrating the genetic inheritance risk for alcohol and
substance use disorders. 44
Present Examination Findings
Behavioral Observations and Mental Status Examination
Ernest Johnson was at the time a 58-year-old African American
gentleman who arrived for testing using a cane for stability, and
wearing prison-issued scrubs with a white shirt and grey pants. He
wore bifocals. His appearance was remarkable for freckles, missing
teeth, and a skull defect from past brain surgery to remove a
malignant tumor.
He was pleasant, cooperative, and effortful throughout two days of
examination and testing.

42

Ibid., p. 40.

McGillicuddy, N. B. (2006), A review of substance use research among those with
mental retardation. Ment. Retard. Dev. Disabil. Res. Rev., 12: 41–47.

43

Cloninger, C.R. (1999). The genetics of substance abuse. Chapter 7 in The
American Psychiatric Press Textbook of Substance Abuse Treatment, Second Edition.
Washington, DC: APA Press.
44

C. Robert Cloninger, Michael Bohman, & Sören Sigvardsson, (1981). Inheritance of
Alcohol Abuse: Cross-Fostering Analysis of Adopted Men. Arch Gen Psychiatry.
1981;38(8):861-868.
Danielle M. Dick & Laura J. Bieru (2006). The genetics of alcohol dependence. Curr
Psychiatry Rep (2006) 8: 151.

23

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 24 of 63

He was appropriately oriented to the world around him, knowing who
he was, where he was, and the approximate date and time. (He was
off on the date by one day, stating that it was May 30th when it was in
fact May 31st.)
His speech was produced at a slow rate with mumbled articulation at
times, but a normal quantity of output. He was also observed to
stammer occasionally, for example at one point saying, “in the late… in
the… in the… middle.”
His thoughts were expressed in a simple but coherent, goal-directed,
and logical fashion with no evidence of formal thought disorder. His
thought content was free from fixed, false beliefs (i.e., delusions) or
abnormal sensory experiences (e.g., auditory, visual, somatosensory,
gustatory, or olfactory hallucinations). This presentation remained
stable over both days of examination and testing.
His observable affect was blunted in range and intensity and this also
remained unchanged over both days, although his affect was
appropriately related to his mood and to the content of his thoughts.
His underlying mood was inferred to be mildly anxious. His insight
was fair.
He described his appetite as, “alright.” He stated that his weight has
gone up since he stopped smoking approximately 1 year ago. He also
described his sleep as, “alright.” He reported that his social
relationships and activities are, “fine.”
When asked how he has been feeling emotionally he replied tersely,
“sad.”
He denied any recent changes in his thinking or memory. However, he
stated that he has experienced a stutter since his brain tumor surgery
which effects his speech and language.
He also complained of gross motor impairment stating, “they took my
equal liberty” out. By this he meant his equilibrium, but used a
paraphasia which is symptom of expressive language impairment.
This problem with balance again appears to be a consequence of his
brain surgery.

24

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 25 of 63

He explained that he had developed a seizure disorder due to a
cancerous tumor in his brain that was removed, “in 2003 or 8.”
However, he reported that his seizures are moderated by medication
and that he has had no seizures in the past 3 years.
Neurocognitive and IQ Test Findings
In addition to testing his intelligence during this examination, I also
administered a focused battery of neuropsychological tests to assess
his abilities in a number of specific areas of neurocognitive functioning
that have historically been identified as deficit areas for him.
Data Validity
In any forensic context, the reliability and validity of the data obtained
is of paramount importance in order for test interpretation and forensic
opinions to be accurate. For this reason, forensic neuropsychologists
employ measures to detect poor effort or malingering during their
testing.
Mr. Johnson passed all these test validity checks, including: (1)
Reliable Digit Span (RDS); (2) the Wisconsin Card Sort Failure to
Maintain Set score and (3) the Forced-Choice trial of the CVLT-II.
Therefore, his test results can be confidently relied upon as providing
accurate measures of his current level of neurocognitive functioning.
IQ Testing
On formal IQ testing with the Wechsler Adult Intelligence Scale-IV,
Mr. Johnson achieved a Full-Scale IQ score of 70 which falling at the
bottom 2nd percentile, in the range of Intellectual Disability. Adjusting
this score for norm obsolescence (the “Flynn effect”) results in a FullScale IQ score of 66, also in the range of Intellectual Disability. 45
Comparing the underlying Index scores, his broad cognitive ability
areas were evenly developed (i.e., Verbal Comprehension, Perceptual
Reasoning, Working Memory, and Processing Speed) with no areas of
significant strength or weakness.

45

WAIS-IV mid-year norming date = 2007: 2019-2007=12 x .3 = 3.6; 70 – 3.6 =
Flynn-corrected FSIQ = 66.4.

25

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 26 of 63

As will be discussed below, the level of intellectual functioning
observed during this testing is commensurate with his past history of
significantly subaverage IQ test scores.
Academic Achievement
I tested Mr. Johnson’s academic achievement using the Wide Range
Achievement Test-IV. His abilities in all areas were significantly
impaired, generally falling in the bottom 1st percentile (i.e., 99 out of
100 people score higher than he does). Functionally, his abilities fall
at the early elementary school level.
His scaled scores (analogous to IQ scores) are summarized in the table
below:
WRAT-IV Scale
Word Reading
Sentence Comprehension
Reading Composite
Spelling
Math Computation

SS
65
65
64
61
70

Percentile
1
1
1
0.5
2

Language and Communication
Mr. Johnson’s phonemic verbal fluency (i.e., his ability to generate
words that begin with different letters, in this case F, A, and S) was
severely impaired, placing him in the bottom 0.4th percentile when
compared to others of his age, sex, and education (i.e., 99.6% of
others have better verbal fluency than he does).
Similarly, his phonemic verbal fluency (the ability to generate words in
different subject categories, in this case animal names) was also
impaired, placing his ability in the bottom 8th percentile when
compared to others of his sex, age, and education.
His Verbal Comprehension Index on the WAIS-IV placed his capacity
for understanding what he hears in the bottom 2 percent of the
population.

26

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 27 of 63

Problem Solving, Concept Formation, and Perceptual Reasoning
On the Wisconsin Card Sorting Test (WCST), which tests his abstract
problem-solving ability under conditions that require him to adapt to
changing problems over time and his ability to learn from feedback,
Mr. Johnson’s performance was significantly impaired. He was only
able to complete three out of six categories, placing him in the bottom
6th percentile compared to others of his age and education. He also
exhibited a large number of perseverative responses (pathological
repetition of incorrect answers despite feedback), and his Learning-toLearn score (which measures his conceptual efficiency and ability to
learn how the test works and how to solve the changing problems)
was in the bottom 2nd percentile.
His Perceptual Reasoning Index on the WAIS-IV, which measures his
ability to solve various abstract visual puzzles, placed him in the
bottom 5 percent of the population.
Speed of Information Processing
Mr. Johnson’s information processing speed is moderately impaired.
This was observed both on the Processing Speed Index of the WAIS-IV
that placed his ability in the bottom 8th percentile (i.e. 92% of others
score more highly than he did); and on Part A of the Trail Making Test
which placed him in the bottom 6th percentile.
Divided Attention / Multitasking
Mr. Johnson’s capacity for dividing his attention for two competing
stimuli at the same time (i.e. multitasking) was also significantly
impaired based on his performance on Part B of the Trail Making Test.
His score on this measure placed him in the bottom 7th percentile (i.e.,
93 percent of others of his age, sex, and education score higher than
he does.)
Working Memory and Verbal Learning
His Working Memory Index on the WAIS-IV, which captures several
aspects of his ability to remember what he hears, placed his abilities in
the bottom 6th percentile.

27

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 28 of 63

On the California Verbal Learning Test-II, his ability to learn lists of
items and recall them accurately over multiple exposures was mildly
impaired overall, and marked by significant confabulation (i.e., the
pathological intrusion of material into his memory that was not part of
the original stimuli). He confabulated at a rate higher than 99.9
percent of other of his background in the general population.
Evidence Supporting
Opinions Regarding Intellectual Disability
In this section of the report, I will address the evidence in the record
and from my examination that supports my opinions for each prong of
the Intellectual Disability diagnosis. It is important to note that this is
a comprehensive diagnostic process that requires careful investigation.
Counter to popular belief, many individuals with Intellectual Disability
are not immediately identifiable by the way they look or after limited
interactions, and the diagnosis can be missed if it is not the primary
focus of a clinical examination.
Diagnostic Criterion I:
Deficits in Intellectual Functions
IQ test scores of 75 or below are considered to be within the margin of
error in qualifying for a diagnosis of Intellectual Disability.
Mr. Johnson’s IQ has been tested extensively over the years,
beginning in the third grade. His Full-Scale IQ test scores, using
individually-administered, culturally-appropriate intelligence tests
before and after appropriate corrections for norm obsolescence 46 are
summarized in the table below:

All IQ tests are to some extent “rubber rulers,” meaning that their level of
precision is limited by a number of factors. Psychometrically, the two most common
are: (1) measurement error (a margin of error of approximately +/- 5 IQ-points);
and (2) the phenomenon of gradual norm obsolescence known as the Flynn Effect
(reflecting the fact that as humans are slowly becoming more intelligent, small
annual normative adjustments are required in order to keep IQ test scores aligned
with the normal “Bell Curve”).
46

The Flynn Effect is an issue is quite relevant and important in a high-stakes
determination such as in capital punishment, where test scores can mean the
difference between life and death; and an extra degree of precision is both necessary
and expected. Both the current AAIDD and DSM5 criteria note the necessity of
adjusting scores for the Flynn Effect in this context. The adjustment involves

28

Forensic Neuropsychological Report
June 18, 2021
Test
Date
WISC
1968
WISC
1972
WAIS-R
1995
WAIS-R
1995
WAIS-III
2003
WAIS-III
2004
WAIS-III
2008
WAIS-III
2009
WAIS-IV
2019
LIFETIME

Examiner

FSIQ
Obtained

Hufstutter

72

Hufstutter

63

Bernard

78

Cowan

84

Keyes
Bradshaw
/Heisler

67

Connor

70

Connor

71

Martell
AVERAGE

70
71.3

67

JOHNSON, Ernest
Page 29 of 63
Mid-Year 47

Flynn

Norm Date Adjustment
1948
20 years
-6.0
1948
24 years
-7.2
1978
17 years
-5.1
1978
17 years
-5.1
1995
8 years
-2.4
1995
9 years
-2.7
1995
13 years
-3.9
1995
14 years
-4.2
2007
12 years
-3.6

Corrected
FSIQ
66.0
55.8
72.9
78.9
64.6
64.3
66.1
66.8
66.4
66.9

Lifetime Average IQ Score. In the context of Mr. Johnson’s capital
case, this examiner must determine to a reasonable degree of
psychological certainty, the presence or absence of “deficits in general
mental abilities” pursuant to an Atkins determination. How does one
decide if his “true IQ” is in the range or not?
Perhaps the best method for obtaining an optimal indication of
Mr. Johnson’s “true IQ” is to consider the totality of his lifetime of test
scores. Averaging all of his Flynn-adjusted Wechsler IQ scores results
in a mean lifetime Full-Scale IQ of 66.9, which falls clearly within the
range of Intellectual Disability. 48
calculating the number of years since the test was originally normed, and then
subtracting 0.3 points per year from the obtained FSIQ score.
See Edward A. Polloway (2015). The Death Penalty and Intellectual Disability
American Association on Intellectual and Developmental Disabilities, American
Association on Intellectual and Developmental Disabilities, Washington, D.C., p. 126.
47

29

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 30 of 63

Test score validity. During my examination specifically, Mr. Johnson
“passed” on each of several test probes used to detect any deception
or malingering. Over the course of each of his IQ examinations, the
only time poor effort has been raised was by Dr. Heisler, who actually
did not test Mr. Johnson (Mr. Bradshaw did). However, I note that
there are several objective indications that actually show that Mr.
Johnson’s test effort for Mr. Bradshaw was good.
First, Dr. Keyes had tested Mr. Johnson over a year before and
obtained the exact same IQ score as Mr. Bradshaw. Dr. Keyes also
employed specialized tests to detect malingering (the Test of Memory
Malingering), and Mr. Johnson’s scores were valid, indicating that he
was not malingering. Further, it is extremely unlikely that a person
with Mr. Johnson’s history of adaptive deficits could “fake” on two IQ
tests a year apart and be able to obtain the exact same score. In fact,
looking at all of his adjusted IQ scores over time shows that his scores
are remarkably consistent over a 51-year time span. This is a strong
indication of “convergent validity” supporting the accuracy of his
Lifetime Average IQ score as the best estimate of his “true” IQ.
Second, looking specifically at Mr. Bradshaw’s test results, there are
two “embedded” measures of test validity in the WAIS-III he
administered. Reliable Digit Span (RDS) looks at the longest strings of
numbers recalled, both forward and backward. Mr. Johnson’s RDS
score of 9 was valid for Dr. Bradshaw, indicating that he was putting
forth good effort. Further, Mr. Johnson obtained an age-corrected
scaled score (ACSS) of 7 on the Digit Span subtest for Mr. Bradshaw,
which is also a valid score. 49
It is normal for measured IQ scores to change or vary over
time and test version. Intelligence is not fixed at birth, and
contrary to popular belief it is not stable throughout the lifespan. It is
a malleable trait that is subject to change as a result of the interaction
between inherent genetic predispositions and environmental
experiences and events.

Notably, his uncorrected Lifetime Average IQ score of 71.3 would also be in the
range for a diagnosis of Intellectual Disability.
48

Troy A. Webber & Jason R. Soble (2018) Utility of various WAIS-IV Digit Span
indices for identifying noncredible performance validity among cognitively impaired
and unimpaired examinees, The Clinical Neuropsychologist, 32:4, 657-670.

49

30

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 31 of 63

This is particularly true for IQ scores obtained during childhood. In
childhood and adolescence, intelligence is particularly vulnerable to
plasticity and change. The relation between brain size and IQ is lower
in children than in adults, and IQ is related to brain development in
complex ways.
For example, there is persuasive neuroscientific research showing a
direct association between declining IQ scores and abnormal brain
development:
•

In landmark study published in the prestigious journal Nature, 50
scientists at University College London studied 33 healthy,
normal adolescents (aged 12-16), with a wide mix of abilities.
They tested their IQ in 2004, and then again 3-4 years later.
During each test session, each child had their brains scanned
using fMRI. Thirty-three percent of the participants showed a
clear change in their total IQ score, ranging from an increase of
21 points, to a decrease of 18 points; and the IQ changes were
directly related to differences in brain structure:
o “these changes in performance were validated by their
close correlation with changes in local brain structure. …
our results emphasize the possibility that an individual’s
intellectual capacity relative to their peers can decrease or
increase in the teenage years.”

•

Another study involved 188 children and adolescents over a
period of two years. MRIs of the study participants were taken
at six sites across the US. This study was the first to show the
association between cortical thickness and development on full
scale IQ. Children with a significant decrease in IQ had

50
Ramsden, VS, Richardson, FM, Josse, G., et al. (2011). Verbal and non-verbal
intelligence changes in the teenage brain. Nature, 479, p. 113–116.

31

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 32 of 63

exaggerated cortical thinning, implicating the potential impact of
environmental events on IQ and brain development: 51
o Importantly, individuals who showed large decreases in
FSIQ displayed the steepest and most significant
reductions in cortical thickness. Results support the view
that there can be meaningful cognitive ability changes that
impact IQ within relatively short developmental periods
and show that such changes are associated with the
dynamics of cortical thickness development.
We learn from these studies that it is normal for IQ scores to change
during development, even without any underlying hereditary,
biological, environmental, or social situational risk factors.
Children with intellectual limitations can test at IQ levels higher than
the range typically associated with intellectual disability and then
regress to IQ scores within the range for intellectual disability as they
grow older. 52
Additionally, there are risk factors that are associated with changes in
IQ scores over time. A number of the risk factors for intellectual
disability discussed above – genetic predisposition, low socioeconomic
status, history of head trauma in the developmental period, and
exposure to physical abuse - are also risk factors for a decline in
measured IQ.
Uncertainty about Dr. Cowan’s 1995 IQ score. Dr. Novick Brown
reports a 1995 WAIS-R IQ test score of 84 (along with some but not
all associated subscale scores) as coming from Dr. Cowan’s December
1995 report (although her data actually appear to derive from his
testimony at Mr. Johnson’s first Post-Conviction hearing). Dr. Cowan
Miguel Burgaleta, M., Johnson, W., Waberd, DP, et al. (2014). Cognitive ability
changes and dynamics of cortical thickness development in healthy children and
adolescents NeuroImage, Volume 84, 1 January 2014, Pages 810–819.
51

Schnack, HG, van Haren, NEM, Brouwer, RM, et al. (2015). Changes in Thickness
and Surface Area of the Human Cortex and Their Relationship with Intelligence.
Cereb. Cortex, 25 (6): 1608-1617.
52

The Death Penalty and Intellectual Disability, AAIDD (2015), p. 143-144.

32

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 33 of 63

does not report any IQ scores or subscale scores in his report. Rather,
he simply states, as he did in his PCR testimony, that:
There does not appear to be a marked or significant difference
between his present versus his prior intellectual capacities. The
presently obtained IQ score would be generally consistent with
that obtained on prior examinations when taking into account
and utilizing age-corrected normative data. 53
In the interest of transparency and thoroughness, I have included Dr.
Cowan’s scores my analysis. However, I remain concerned about the
validity those scores because the Full-Scale IQ score reported by Dr.
Cowan in his testimony is substantially higher than those obtained by
any other psychologist who has evaluated Mr. Johnson over the years.
It is not possible to review Dr. Cowan’s IQ test data for errors.
It is my understanding that Dr. Cowan has passed away, and that his
data from this examination no longer available, making a definitive
resolution of this concern difficult.
Dr. Cowan reported no IQ score in his report, and the actual test forms
and administration details have been lost to follow-up. This is
problematic to the extent that it is now impossible to check for
possible threats to the validity and accuracy of those scores, given that
the score of 85 reported in his testimony is a significant outlier in the
context of Mr. Johnson’s other scores and his adaptive behavior
history.
•

We can't rule out administrator error (including administration
errors and scoring mistakes), the degree of which varies as a
function of education, training, and experience, and even the
best examiners make mistakes. A recent meta-analysis of the
literature on administrator error concluded: 54
Results indicate that a mean of 99.7% of protocols
contained at least 1 examiner error when studies that

Dr. Cowan’s Neuropsychological report, 12/13/1995, p. 6.
Styck, KM & Walsh SM. (2016). Evaluating the prevalence and impact of
examiner errors on the Wechsler scales of intelligence: A meta-analysis.
Psychological Assessment, 28 (1): 3-17.
53
54

33

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 34 of 63

included a failure to record examinee responses as an
error were combined and a mean of 41.2% of protocols
contained at least 1 examiner error when studies that
ignored errors of omission were combined. Furthermore,
graduate student examiners were significantly more likely
to make at least 1 error on Wechsler intelligence test
protocols than psychologists. However, psychologists made
significantly more errors per protocol than graduate
student examiners regardless of the inclusion or exclusion
of failure to record examinee responses as errors. On
average, 73.1% of Full-Scale IQ (FSIQ) scores changed as
a result of examiner errors.
Group-administered tests cannot be used for determining IQ.
The diagnosis of Intellectual Disability must be made using individually
administered tests of cognitive abilities, such as IQ tests and
neuropsychological tests. This is because group-administered tests
are notoriously inaccurate and unreliable. Mr. Johnson was given a
group test for prison classification purposes called the Beta IQ test that
cannot be used for diagnosing ID. According to a Missouri DOC
psychological evaluation report from 1996:
A Beta I.Q. Test, administered in 1979. reflected an I.Q. score of
95 which is within the low average range. 55
Additional neuropsychological evidence of cognitive
impairment. As specified in the DSM-5, 56 other tests of cognitive
abilities besides IQ testing can be dispositive with regard to
establishing significantly substandard intellectual functioning.
During my examination, I did additional neurocognitive testing to look
at Mr. Johnson’s capacity for reasoning, problem-solving, planning,
abstract thinking, academic achievement, memory, and learning from
experience. The results of that testing revealed clinically significant
and significantly subaverage functioning in the following areas:
06/25/1996 Missouri Department of Corrections Psychological Evaluation Report,
p. 2.
55

“Individual cognitive profiles based on neuropsychological testing are more useful
for understanding intellectual abilities than a single IQ score.” DSM5, p. 37.

56

34

Forensic Neuropsychological Report
June 18, 2021

(1)
(2)
(3)
(4)
(5)
(6)
(7)
(8)

JOHNSON, Ernest
Page 35 of 63

Academic Skills
Verbal Communication
Concept Formation
Problem Solving
Abstract Reasoning
Learning and Memory
Attention
Processing Speed

Prior neuropsychological testing by Dr. Cowan in 1995 and Dr. Connor
in 2008-2009 revealed a similar pattern of neurocognitive deficits.
Dr. Cowan found Mr. Johnson to have severe neurocognitive
impairments in multiple functional areas and to be “brain-damaged,”
concluding:
As based upon this examination, this patient did demonstrate
evidence of neuropsychological impairment and disturbance of
functioning in the areas of memory functioning, abstract
reasoning, attention and concentrational [sic] capacities,
sequential reasoning, speed of mentation, novel learning and
motor dysfunction. ...These impairments will have a significant
effect upon this patient's level of functional capabilities. This
patient tends to think fairly slow. When information is presented
to him too rapidly, he will miss relevant and potentially crucial
information. He is unable to hold his attention and concentration
for an extended period of time which also affects his abilities of
comprehension and understanding. ... his thinking approach is
very simplistic and concrete. 57
Over a decade later, Dr. Connor found the same pattern of
neurocognitive impairments 58:

57

Dr. Cowan’s 1995 report, p. 7.

58

Dr. Connor’s 2009 report, p. 10.

35

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 36 of 63

Conclusion Regarding Mr. Johnson’s Intellectual Functioning
It is my opinion that Mr. Johnson meets Criterion A based on the valid,
objective test scores that place him within the range for a diagnosis of
Intellectual Disability. Mr. Johnson’s impaired performance on the
neuropsychological testing administered during this examination in
conjunction with his prior IQ testing and neuropsychological testing
provides additional strong evidence of substantial impairments in
intellectual functions that involve reasoning, problem solving,
planning, abstract thinking, judgment, learning from instruction and
experience, and practical understanding; as well as critical components
that include verbal comprehension, working memory, perceptual
reasoning, quantitative reasoning, abstract thought, and cognitive
efficiency.
Diagnostic Criterion II:
Significant Deficits or Impairments in Adaptive Functioning
In addition to impaired IQ and age of onset in the developmental
period, significant impairment in at least one of three broad areas
of Adaptive Functioning (Practical, Social, and/or Conceptual) is also
required for the diagnosis of Intellectual Disability. The available data
support a finding that Mr. Johnson has adaptive deficits in all three
diagnostic areas.
The central issue here is identifying deficits, not strengths. Making the
36

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 37 of 63

diagnosis is based on identifying things that the individual cannot do
(or cannot do without external supports) rather than things they can
do. It is not a balancing of strengths vs weaknesses, but rather the
identification of functional impairments alone that satisfies the
diagnostic criteria.
It is also important to consider the context in which the individual is
living. Highly structured custodial settings such as sheltered care
facilities, hospitals, jails, and prisons generally do not allow the degree
of autonomy and freedom necessary to display a full range of adaptive
behaviors, and the structure these settings provide generally helps to
encourage better adaptive functioning through external structure.
Thus, as in Mr. Johnson’s case, while prison records may be helpful in
documenting certain deficit areas, evidence of strengths in this
environment would not be reliable indicators of adaptive functioning
for the identification of impairments. Similarly, evidence of functional
strengths in the course of committing a crime are not evidence that
can be to contradict a diagnosis on Intellectual Disability, as the
diagnosis is based on evidence of adaptive behavior impairments, not
strengths.
THE CONCEPTUAL DOMAIN
The conceptual domain involves skills in language, reading, writing,
math, reasoning, knowledge, memory, judgment, and self-direction.
In this domain, there is both empirical and anecdotal evidence that Mr.
Johnson has significant impairments that cluster in three broad areas,
including:
(1) functional academic skills:
(2) language skills; and
(3) concept formation and self-direction.
Mr. Johnson’s records reflect that he was developmentally delayed
since birth. Dr. Robert Smith testified that Mr. Johnson was:
“… delayed in terms of some of the normal things that we look
for in child development. Things that I was most interested in
were things like walking, talking, responding to external stimuli,
interacting with the environment... For all of those areas, the
family reported that Ernest was delayed.”

37

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 38 of 63

James Dempsey’s social history notes that:
Ernest's mother, Jean Ann Patton (taking Albert Patton's name
after marriage), reports that Ernest was a nice kid, but always
played by himself, and with his dogs and chickens. She reports
that Ernest was born slow, and learned to talk late. She states
that he was a mama's boy, and constantly used to cling onto
her. Jean Ann reports that she tried to get help for Ernest, but
down South, unless you had lots of money, you could not get
help. 59
James Dempsey also noted that:
Bobby Jr. recalls that everyone in the family knew there was
something wrong with Ernest. It seemed like he was slow in
learning to walk and talk, and after he entered school he had an
extremely hard time understanding what was being taught.
Bobby remembers trying to help Ernest read, but it was
impossible. 60
In notes from an interview with Gloria Johnson, 61 she reported that:

Beverly Johnson, Ernest’s sister, told social worker James Dempsey
that:
Ernest was very slow, intellectually, while growing up. She
reports that when he was about 5 or 6 years old, he pulled a
skillet full of hot grease off the stove and onto his head, severely
burning the right side of his head and face. 62

59
60
61

1.
62

James Dempsey social history, p.12.
Ibid at p. 5
Memorandum of interview by Michael Dennis to Mr. Johnson’s file, 02/10/2005, p.
James Dempsey social history, p. 17.

38

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 39 of 63

Some of the clearest indications that he is impaired in conceptual skills
are reflected in his being held back twice, being placed in Special
Education classes, and having documented deficits on standardized
academic achievement testing from the time he started in school.
During his early elementary school years, he repeated the second
grade, and after being promoted to fourth grade he was identified for
placement in Special Education where he then had to repeated the
third grade. Subsequently he repeated the ninth grade as well.
His early schoolwork was repeatedly reported as “ungraded.”
His academic history is accurately summarized in the following chart
prepared by Dr. Novick Brown 63:

Bobby Johnson, Sr., Mr. Johnson’s father, noted in his affidavit:
Ernest had some rough times in school; it seemed he was always
behind the other children, not understanding the things they
could understand. 64
Mr. Johnson’s brother, Bobby Johnson, Jr. stated in his affidavit
that:

63
64

08/15/2005 report of Dr. Natalie Novick Brown, p. 29.
Affidavit of Bobby Johnson, Sr., 07/20/2002, p. 6.

39

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 40 of 63

Ernest went to a country school outside Charleston; it was for
black children only. He caught a bus to go to Washington
Elementary School and then to Lincoln School in Charleston
before attending Hearnes Elementary in 1969. I believe it was
1969 before he went to school with white children. Ernest had
some rough times in school; it seemed he was always behind the
other children, not understanding the things they could
understand. 65
Mr. Johnson's brother, Bobby Jr., told social worker James Dempsey
that:
However, Bobby Jr. reports that Ernest Johnson was very slow in
school while growing up in Charleston MO. He reports that
Ernest could not pick up his lessons taught in school. He reports
that Ernest was picked on a lot in school, because he was quiet
and kept to himself. He reports that Ernest was easily
influenced by others. 66
Dr. Robert Smith notes in his report that:
The interviews and social history indicate that Mr. Johnson
struggled to adapt both at school and at home. As a teenager,
he experienced significant difficulties in school placed in special
education classes. His grades declined significantly at
approximately age 15. He was no longer involved in
extracurricular activities or sports and his behavior in school
became disruptive. 67
Steven Mason, who was Mr. Johnson’s teacher the year he repeated
the ninth grade, testified:
Q. All right. How was Ernest as an art student?
A. He really wasn't good at all. He struggled in
class. He didn't really understand the instructions and he
pretty much had a hard time doing everything he tried to do in
class.

65
66
67

04/20/2001 Affidavit of Bobby Johnson, Jr., p. 5-6.
James Dempsey social history, p. 18.
03/21/1996 Report of Dr. Robert Smith, p. 9.

40

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 41 of 63

Q. Well, you said he had difficulty with instructions.
How so?
A. Well, for example, I remember distinctly there's a
Beginning Art I project we call the quanting method of clay,
where you're supposed to take your clay, a ball of clay, and
pat in your hand, and roll it on the table gently, and spread
your hand make some coil. And you stack these coils and you
join them together. Most, 90 percent of my students, do that
the first time. And he struggled with that every time. He never
did, couldn't get It. He'd rub it and mash it too hard and it
would flop and, you know, you couldn't complete the project
doing that.
Q. So that was an example of him having a hard time
with instructions. Could he follow instructions?
A. The way the class was set up, I gave the
instructions, I let them know what we're going to do, and I
showed them an example, and I passed out a sheet. Then I
demonstrated it a little bit. And then if you had any
questions, you would hold up your hand and ask.
Of course, he never did hold up his hand and ask
any questions. So I had to come around and ask him why he
couldn't do this. And I'd just talk to him, and he'd just
have this, just like, "I don't know what you're talking about"
look; you know what I'm saying?
Q. Okay.
A. You know, a blank look.
Q. This was a mainstream class? It wasn't a learning
disabled class?
A. No, it wasn't. The arts were designed so that you
got academic kids, you got basic kids, you got all of them.
It was called mainstreaming.
Q. Okay. Could he read his assignments?
A. No. Not in my opinion, no, he couldn't. He
41

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 42 of 63

couldn't, because whenever he read them, he didn't do the
project.
Q. Did he have, in your opinion, the basic educational
or the basics to be able to do the things in your class?
A. No. 68
*
*
*
*
Q. Was he, for example, able to use a ruler in class?
A. No. You know, you're supposed to have a -- be able
to use a compass and a ruler and, you know, a protractor. And
you're basically, when you have your ruler, if you're
left-handed or right-handed, you have the ruler in the
opposite hand that you're writing with. So if I'm right-handed, l
will hold down the ruler and use it. Well, whenever he tried to
use a ruler, he would just, whenever he drew on the paper, the
whole ruler would move. He didn't just put enough pressure to
do something simple like that.
Q. And he couldn't use, you said, a protractor or a
compass?
A. Yes. For example, on a compass, you would -- It's
made like a V and it has one end where you stick the pencil
in. And there's a point, and you place the point on your
paper after you got the pencil in and twirl it, depending on
how many -- how big you want your circle, a five-inch circle,
a three-inch circle. And his would slide all around or it
would flop and the circle would be uneven. And you know, I
just tried to help him and he just couldn't do it. 69
According to a Missouri DOC psychological evaluation report from
1996:
Previous file information shows that Inmate Johnson was
evaluated while he was in school and I.Q. testing resulted in an

68
69

Third sentencing testimony transcript, p. 1240-1241
Third Sentencing testimony transcript, p. 1243.

42

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 43 of 63

I.Q. of 70. … It was stated that "he was barely able to read the
S.O.S.P. at the 6th grade level during the interview." 70
Donna Kay Brown, a corrections case worker who prepared a
presentence investigation report about Mr. Johnson told social worker
James Dempsey that:
The PSI indicates that Mr. Johnson did poorly in school and had
no vocational skills or substantial work experience. Donna Kay
Brown notes that Mr. Johnson's interview behavior represented
him to be “very childlike and unintelligent.” 71
His academic achievement testing record, summarized below, also
shows that he has functioned in the very bottom percentiles across all
academic areas compared to other children on standardized tests: 72

06/25/1996 Missouri Department of Corrections Psychological Evaluation Report,
p. 2.
71
James Dempsey social history, p. 40-41.
72
Ibid, p. 29-30.
70

43

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 44 of 63

With regard to Mr. Johnson’s functional concept formation skills, Ricky
Frazier, who grew up next door to Mr. Johnson, testified that:
A. He tried, he did. He wanted to play.
Q. How was he on understanding the rules of the game
back in school?
A. Well, that was the reason that they wouldn't let
him play because he didn't understand basically what, how we
was playing and what we was doing at the time. So kids then
thought that if you wasn't strong enough to participate, they
didn't want, you know, you to be on their team. So he was
basically eliminated from a lot of the, you know, kids stuff. 73
During my examination, Mr. Johnson told me that he was late learning
to walk and talk. With regard to his school experience he said, “All I
wanted to do was play basketball, so they let me go through. They
called me dummy. I was always a loner and didn’t have many friends.
Nobody wanted to be bothered with me, because I was a dummy. So I
just wanted to be by myself.”
With regard to expressive speech and language skills, Mr. Johnson
reported that he had trouble walking and talking sometimes as a child.
He also said, “I can’t understand words that people use, especially big
words. My brother and sister helped me out.”
I asked him what kind of things he liked to read as a kid and he
replied, “The Cat in the Hat. Mostly I like to play tic-tac-toe.”
Conclusion Regarding Adaptive Impairment in the Conceptual
Domain
The Diagnostic and Statistical Manual of Mental Disorders-5th Edition
characterizes the various severity levels for adaptive impairments as
defined by the second criterion of intellectual disability. Based on the
evidence summarized above, Mr. Johnson’s level of functioning is best
captured by the DSM-5 description of “moderate” severity in the
conceptual domain:
All through development, the individual's conceptual skills lag
markedly behind those of peers. For preschoolers, language and
pre-academic skills developed slowly. For school-age children,
73

Third sentencing testimony transcript, p. 1263.

44

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 45 of 63

progress in reading, writing, mathematics, and understanding of
time and money occurs slowly across the school years and is
markedly limited compared with that of peers. For adults,
academic skill development is typically at an elementary level,
and support is required for all use of academic skills in work and
personal life. Ongoing assistance on a daily basis is needed to
complete conceptual tasks of day-to-day life, and others may
take over these responsibilities fully for the individual. 74
THE SOCIAL DOMAIN
The social domain refers to empathy, social judgment, interpersonal
communication skills, the ability to make and retain friendships, and
similar capacities.
Mr. Johnson’s impairments in this area primarily revolve around:
(1) deficits in expressive and receptive language skills needed
for basic communication,
(2) deficits in social relationship formation, and
(3) vulnerability to manipulation and being taken advantage of
by others.
Mr. Johnson's social deficits began early in childhood, with delayed
talking and ongoing social delays in communication.
His IQ testing over the years has consistently shown impairment in
verbal skills, with his Verbal IQ functioning at a lower level than his
Performance IQ. Similarly, neuropsychological testing has identified
deficits in his expressive and receptive language skills, placing him in
the bottom 2nd percent of the population for verbal comprehension,
and below the bottom 1st percentile for verbal fluency.
Dr. Dennis Keyes testified during the third penalty phase proceedings
about his findings from interviewing Mr. Johnson siblings:
“In conversation, he would keep talking on and on and on, or he
would just be quiet. There was no give and take of normal
conversation.”
74

DSM-5, p. 34.

45

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 46 of 63

“… both his brother and sister said his (socialization) behaviors
were severely deficient... He had tantrums when he was
younger. He'd forget to keep a secret. If he was denied his own
way, he'd go into tantrums. He didn't know how to use a fork
and a spoon. He used his fingers... when he was young, he
didn't have a best friend or a friend of the opposite sex.”
In addition to communication deficits, Mr. Johnson’s fundamental
interpersonal social skills were also impaired. According to Dr. Robert
Smith:
Mr. Johnson has had very limited relationships. He had no close
male friends, growing up. … This information was substantiated
by Mr. Johnson's brother, sister, stepbrother and stepsister. Mr.
Johnson's experience with women was also limited. 75
Dr. Cowan reported from his interview of Mr. Johnson’s brother,
sister, stepbrother, and stepsister he had no close friends during
childhood, and that those he associated with in his teens and young
adult years, “were individuals who used alcohol and other drugs.” His
experience with women, “was also limited.” 76
Bobby Johnson, Jr. reported that his younger brother was frequently
taunted in school because he was quiet, kept to himself, and tended to
be “easily influenced by others.” 77
Gloria Lisa Johnson, who lived with Mr. Johnson for approximately
six months in the mid-1980’s, testified:
Q. Okay. So you got to know Ernest fairly well?
A. Yes.
Q. What was Ernest like?
A. Quiet.
Q. Talk much?
A. No.
75
76
77

03/21/1996 Report of Dr. Robert Smith, p. 9.
Dr. Cowan’s report, 03/21/1996.
James Dempsey social history, p. 18; Report of Dr. Novick Brown.

46

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 47 of 63

Q. Were you able to carry on a conversation with him?
A. No. He asked how I was doing and I asked him how
he was doing, but as far as sitting and conversating, no, we
never did have a conversation together. 78
Ricky Frazier, who grew up next door to Mr. Johnson testified that:
Q. How were the other kids towards Ernest?
A. They was very bad towards him. A lot of kids like
to run and play and they didn't like to accept him being a
part of a lot of the things that we did because he was
uncoordinated, puny, you know, and couldn't understand. He
was always in the wrong place when they tried to organize
something.
Q. He couldn't understand?
A. No, he couldn't. 79
In his social history, James Dempsey noted is vulnerability to
manipulation and sexual abuse during Mr. Johnson’s time at Algoa:
While at Algoa, Mr. Johnson received a protective custody
hearing during his stay in housing unit #1, and was confined in
protective custody, due to being emotionally and sexually
assaulted. Mr. Johnson was forced into oral and anal sodomy by
4 fellow inmates. Mr. Johnson reports that one of these 4
inmates, who worked in the dining room threatened him as he
went to one of his meals.
*
*
*
*
Lawrence Wilson also reported that Mr. Johnson was a weak
inmate who had been very cooperative and honest during the
period of time incarcerated at Algoa. 80
During my examination, Mr. Johnson told me that he was late learning
to walk and talk. With regard to his school experience he said, “They
78

Third sentencing testimony transcript, p. 1116.

79

Third sentencing testimony transcript, p. 1264.
James Dempsey social history, p. 41.

80

47

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 48 of 63

called me dummy. I was always a loner and didn’t have many friends.
Nobody wanted to be bothered with me, because I was a dummy. So I
just wanted to be by myself.”
During my examination, I asked Mr. Johnson if he was ever taken
advantage of as a child or adolescent and he replied that he was,
“always with grandmother, my brother, or sister.” I then asked about
when he was older and he replied, “everybody knew I had a weakness.
I didn’t know what I was doing. They would steal money from me, say
things cost more than they really did, got me to pay for things for
everybody.” He went on to explain that he was only included because
of his older brother. He described himself as a “hanger on” who was
“there because of my brother.“ He said he was easily tricked or fooled
by others. And gave the example above.
Conclusion Regarding Adaptive Impairment in the Social
Domain
The Diagnostic and Statistical Manual of Mental Disorders - 5th Edition
(DSM-5) characterizes the various severity levels for adaptive
impairments seen in Intellectual Disability. Based on the evidence
summarized above, Mr. Johnson’s level of functioning is captured by
the DSM-5 descriptions for “Mild to Moderate” severity in the social
domain.
Mild impairment in the social domain is described as follows:
Compared with typically developing age–mates, the individual is
immature in social interactions. For example, there may be
difficulty in accurately perceiving peers’ social cues.
Communication, conversation, and language or more concrete or
immature than expected for age. There may be difficulties
regulating emotion and behavior in an age–appropriate fashion;
these difficulties are noticed by peers in social situations. There
is limited understanding of risk in social situations; social
judgment is immature for their age, and the person is at risk of
being manipulated by others (gullibility).
Moderate impairment in the social domain is described as follows:
The individual shows marked differences from peers in social and
communicative behavior across development. Spoken language
is typically a primary tool for social communication but is much
less complex than that of peers. Capacity for relationships is
evident in ties to family and friends, and the individual may have
48

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 49 of 63

successful friendships across life and sometimes romantic
relations in adulthood. However, individuals may not perceive or
interpret social cues accurately. Social judgment and decisionmaking abilities are limited, and caretakers must assist the
person with life decisions. Friendships with typically developing
peers are often affected by communication or social limitations.
Significant social and communicative support is needed in work
settings for success. 81
THE PRACTICAL DOMAIN
The practical domain centers on self-management in areas such as
personal care, job responsibilities, money management, recreation,
and organizing school and work tasks. Mr. Johnson’s record reveals
significant impairments requiring external supports in all areas, but
particularly in: (1) self-care, (2) work skills, and (3) personal safety.
Self-Care
Beverly Johnson, Ernest’s sister, told social worker James Dempsey
that:
Ernest was very slow, intellectually, while growing up. She
reports that when he was about 5 or 6 years old, he pulled a
skillet full of hot grease off the stove and onto his head, severely
burning the right side of his head and face. She reports that
some of the hot grease got into his ear canal, and that Ernest
has lost partial loss of hearing in his right ear. Beverly Johnson
reports that Ernest was not able to get medical attention until
that evening when their father came home. She reports that
Ernest was hospitalized for some time, and had to receive
several skin grafts. 82
James Dempsey notes in his social history that:
He reports that he does not remember many things about his
childhood, before age 10, because things were really poor when
he was living with his mom, because of her abuse. Ernest
remembers that at age 10, a kid pushed him off the sliding
board and he fell and broke his arm. He also remembers that
81
82

DSM-5, p. 35.
James Dempsey social history, p. 17.

49

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 50 of 63

his grandma was frying fish and he pulled the skillet full of hot
grease onto him, receiving severe burns to his head and ears.
He reports that he has hearing damage in his right ear as a
consequence of the hot grease.
*
*
*
*
Ernest reports that he did not have many friends and that the
school kids used to tease him in grade school. 83
Mr. Johnson’s step-father, Albert Patton, also reported during an
interview in 2004 that Mr. Johnson was unable to care for himself
without external supports for his daily needs:
Albert believes Ernest had a difficult time taking care of his
everyday needs. Ernest never fixed a meal for himself, he would
always ask someone to do it for him. Whenever Ernest would
break something he would throw it away, never attempting to fix
it. Ernest could not wash his clothes by himself. Albert believes if
Georgia was not around Ernest could not really have taken care
of himself. 84
Albert Patton also related during an interview in 2004 that:
Albert believes Ernest had a difficult time taking care of his
everyday needs. Ernest never fixed a meal for himself, he would
always ask someone to do it for him. Whenever Ernest would
break something he would throw it away, never attempting to fix
it. Ernest could not wash his clothes by himself. Albert believes
if Georgia was not around Ernest could not really have taken
care of himself. During his time in Chicago Ernest generally
stayed to himself. He would spend a lot of time in his room or
sitting out on the porch. 85
During an interview with Gloria Johnson, a former girlfriend of
Ernest, investigator Michael Dennis documented that:
During the five years she knew him she does not recall Ernest
having a job. He may occasionally have an odd job, but nothing
that would last more than a week or so. Most of the time
Beverly would help him out financially.
83
84
85

James Dempsey social history, p. 5-6.
12/09/04 Memo to the file of Interview with Albert Patton.
12/09/2004 Memo of interview with Mr. Johnson’s step-father Albert Patton, p. 1.

50

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 51 of 63

Lisa recalls that Ernest could not do much on his own. On one
occasion that she is sure of Ernest brought her a job application
for a fast food restaurant, she thinks it was Hardee's. Ernest
asked her to fill it out for him. She did not think much about it
at the time. Ernest seemed to never do anything for himself.
He would often comment that Beverly would take care of him.
She does not recall Ernest ever fixing anything for dinner, and
on one occasion when he attempted to do the laundry at her
house he had no clue. Ernest just started pouring way too much
detergent into the machine and was trying to turn the
machine on but did not know how. Lisa was thankful he did not
know how to operate the washer, since when she checked the
clothes she discovered that they had not been sorted, the whites
and darks were together. Ernest told her Beverly always washed
his clothes. 86
Notes from that interview also include:
Ernest was not real talkative but she felt he liked her. He had a
hard time carrying on a conversation of any substance. …
She would write to Ernest. He would write back. Ernest's letters
were very difficult to understand. Words would be missing, and
many were misspelled. She would have to try and figure out
what Ernest was trying to write. …
He lived with her 6-8 months. She knew him for about 5 years.
During that time Ernest never had a job. There were a few
occasions when Ernest might get a day job but nothing ever
lasted.
She recalls at least one occasion when Ernest brought a job
application home and she filled it out for him.
*
*
*
*
When she first new Ernest he was living with Beverly. Bev took
care of him financially. She had not known Ernest to have a
regular job during the 5 years she knew him. While Ernest could
dress and wash himself, he could not do much else. She did not
observe him ever cook. One occasion he attempted to do laundry
he had no clue what to do. He poured a whole bunch of
detergent into the machine. She was thankful she was there and
86

12/10/2005 interview memo..

51

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 52 of 63

saw Ernest doing this. When she checked the clothes they had
not been sorted, colors and whites were together. When she
asked why he had done this he said Bev always did his
laundry. 87
In notes from an interview with Mr. Johnson's brother, Bobby, Jr., the
following observations were provided:
He described Ernest as never being a violent person. He also
described Ernest as being very slow. He remembers that when
they were kids, Ernest would always hang out with younger kids
because he felt more comfortable with them. Bobby stated that
none of the children in his family were geniuses. He explained
that although he had graduated from junior college, his
education was always a struggle. He advised that when he
began school, he was placed in special education classes and had
to work hard to get placed in regular classes. He advised that
Ernest and Beverly were even slower. He explained that Ernest
and Beverly found it difficult to do even basic things like spelling
simple words. Despite their difficulties, he believes that Beverly
would have graduated from high school if she had not gotten
pregnant. … Ernest quit high school before his junior year.
Bobby relates that he believes that he and his other siblings
were passed through school although they had not quite
acquired the skills they needed. He stated that although he has
graduated from junior college, when he was tested upon
entrance to the Department of Corrections, his skills or below
the 8th grade level.
Bobby remembers trying to help Ernest with his schoolwork. He
related that he spent hours trying to teach Ernest the really
small stuff like spelling four letter words. Bobby also recalls that
Ernest’s schoolmates called him “dummy.” Consequently, Ernest
became the class clown because it got him positive attention
when the other children laughed at him. Bobby believes that
Ernest started school at the Washington Elementary School in
Wyatt, Missouri, about (5) miles east of Charleston. … He stated
that he knows that the schools just passed Ernest and Beverly
along because to this day neither one of them has even the basic
spelling skills.
87

Ibid.

52

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 53 of 63

Bobby explained that Ernest began stealing because he could not
get or hold a job. Because he had no basic skills, he was forced
to steal to survive. He never obtained a driver’s license and
spent much of his adult life when he was not incarcerated
homeless, staying wherever he could. 88
Dr. Natalie Novick Brown noted in her report89 that:

Gloria Lisa Johnson, who lived with Mr. Johnson for approximately
six months in the mid-1980’s, testified that:
Q. Okay. When you all lived together, what duties or
responsibilities around the house did he have?
A. He didn't have any.
Q. Why not?
A. He didn't know how to do them. I didn't trust him
to do them.
Q. Could he cook?
A. No.
Q. Was he able to drive anybody anywhere?
A. No.
Q. Did he have a driver's license?
A. No.
Q. Was he able to do the laundry?

88
89

Memorandum to file, November 21, 1995 interview with Bobby Johnson junior.
Dr. Novick Brown’s report, p. 40.

53

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 54 of 63

A. No.
Q. Why not?
A. He overloaded the laundry one time and put too much
detergent in it.
Q. Okay. Anybody ever teach him how to do it?
A. No.
Q. When you were living with him, who took care of
him?
A. I did.
Q. Okay. Was his sister Beverly ever involved,
helping, with you?
A. Oh, yeah.
Q. Okay. Where did Ernest work?
A. No. He might have went and did little odd jobs
here and there maybe, but no.
Q. Was he able to write very well?
A. No.
Q. Did you ever receive a letter from him?
A. Oh, yeah.
Q. What were they like?
A. You had to blend in. You had to, like, make in
your own words to understand what he was saying.
Q. They weren't complete sentences?
A. No, they weren't.
Q. Did you ever have an opportunity to work with
54

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 55 of 63

Ernest on a job application?
A. Yes.
Q. What did you do?
A. I had to fill it out.
Q. Okay. Did that happen more than one time?
A. Maybe. Now that I know of, maybe once. And then
if it was any more, I didn't do it. His sister might have did
it. 90
Work Skills
Thomas Powell, who was Mr. Johnson’s probation officer, testified
that:
Q. Okay. How was Ernest then?
A. This time Ernest had some difficulty with the employment
situation. He had two or three placements with temporary
services. As I recall, from refreshing my mind with the
transcripts, there was one placement where there were
difficulties with labels, and so that position -- he lost that
job.
Q. He couldn't put labels on boxes?
A. That was my understanding. And also he was
extended in our program for approximately 20 days because of
the employment issue. 91
Mr. Johnson’s counsellor at Positive Motivation, Dennis Booth,
testified at the third sentencing hearing that he had trouble reading
and writing and only held menial jobs:
Q:

Okay. Did he work?

90

Third Sentencing testimony transcript, p. 1116-1118.

91

Third Sentencing testimony transcript, p. 1200.

55

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 56 of 63

A:

He held menial jobs, usually didn't last too long.

Q:

Did he have, to your knowledge, any trouble reading
and writing?

A:

Yes. 92

Dr. Dennis Keyes testified at the third penalty phse hearing that
because Mr. Johnmson’s language skills were imnp[aired, this also
affected his ability to hold jobs:
“He was unable to read and write at any level that could have
suggested he could have gotten a job.”
Mr. Johnson’s DOC records indicate that he has no history of
successful employment. Tom Powell, the treatment coordinator at a
DOC halfway house (PMI), testified in the penalty phase of the 1994
trial that Mr. Johnson had trouble holding on to menial jobs. “…There
was a problem with some boxes, the labels were all wrong.” 93
In notes from an interview with Gloria Johnson, she reported that:
During the five years she knew him she does not recall Ernest
having a job. He may occasionally have an odd job, but nothing
that would last more than a week or so. Most of the time Beverly
would help him out financially.
Lisa recalls that Ernest could not do much on his own. On one
occasion that she is sure of Ernest brought her a job application
for a fast food restaurant, she thinks it was Hardee's, Ernest ask
her to fill it out for him. She did not think much about it at the
time.
Ernest seemed to never do anything for himself. He would often
comment that Beverly would take care of him. She does not
recall Ernest ever fixing anything for dinner, and I one occasion
when he attempt to do the laundry at her house he had no clue.
Ernest just started pouring way too much detergent into the
machine and was trying to turn the machine on but did not know
how. Lisa was thankful he did not know how to operate the
92
93

Third Sentencing testimony transcript, p. 1177.
DOC records, p. 2567.

56

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 57 of 63

washer, since when she checked the clothes she discovered that
they had not been sorted, the whites and darks were together.
Ernest told her Beverly always washed his clothes. 94
Notes from a witness interview with Mary Delores Grant indicate
that:
When Ernest first got out, he seriously looked for work with
Delores driving him around town picking up job applications and
helping him fill them out. She could not say what type of followup Ernest did but she could say what she helped him do. 95
Personal Safety
With regard to Mr. Johnson’s ability to manage his personal safety,
Ricky Frazier, who grew up next door to Mr. Johnson, testified that:
Q. How about how was Ernest -- This is an odd
question. How was Ernest at crossing the street? Do you have
any memories of that?
A. Oh, yeah, a lot.
Q. Tell me about these, please?
A. He'd get whoopings for trying to get across the
street.
Q. He would get whoopings for trying to cross the street?
A. Trying to cross the street.
Q. Tell us why.
A. He would be with us, a group of guys, maybe kids, and they'll
get to the edge of the four-lane road and they'll try to cross. We
would take off across, after we was standing there, we would
take off across, and we'd get across and we'd look back and
Ernest hadn't come across. He would look both ways, he'd try to
94

1.
95

Memorandum of interview by Michael Dennis to Mr. Johnson’s file, 02/10/2005, p.
Mary Delores Grant witness interview memo, 06/24/1994.

57

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 58 of 63

get across. He'd run out there and maybe a car would blow at
him. And he'd run to the middle of the road and go back instead
of continue on across. Which that would have been, you know,
better for him to go on across than to turn around and go back
after you made it halfway. 96
During my clinical examination of Mr. Johnson, we talked about his
personal care growing up and specifically dressing. He told me, “I
couldn’t do it. My grandmother did it for me. I thought she was my
mom. She called me her baby.“
I asked if he was able to manage getting his shoes on the right feet
and tying his laces. He replied that, “my sister and brother taught me
how to do it.”
With regard to personal hygiene he reported that his grandmother
bathed him until he was 12 years old because he needed help. He was
unable to keep his fingernails and toenails clipped but, “somebody
would do it,” for him.
We also discussed use of utensils at the dinner table and he explained
to me, “I would use my hands. Felt more comfortable at the time.
Everyone else would use a knife and fork. Grandma would cut up food
for me.” He reported that he did not know how to cook and could not
use the oven microwave, dishwasher, or other kitchen appliances.
He stated that he did have chores but described them as, “The easiest
ones. Clear the table. Straighten the chairs. I always got the easiest
that there was.” I asked him why and he replied, “people told me I
was slow to do things.”
I asked him if he knew how to use the washer and dryer and he
replied, “Grandma did. I watched. I almost got my hand caught in
the roller, so she wouldn’t let me do that no more.” He reported that
he did not know how to fold clean clothes.
He also told me that he did not take out the garbage stating that,
“somebody else did that.” He did describe having a chore in the
pigpen and said, “Daddy would bring me watermelons and I would
throw it over the fence into the pigpen.”
96

Third Sentencing testimony transcript, p. 1265-1266.

58

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 59 of 63

I asked him about how he would get around town or if he ever got
lost. He denied getting lost saying, “my brothers and sisters were
always with me.”
With regard to use of public services I asked if he ever went to the
bank and he replied, “No. Never in my life.“ I asked if he ever went
to the post office and he replied, “only when I was older, about 19.”
I asked me if he ever went to the DMV and he replied, “Never in my
life.”
I asked if he is ever had a budget and if he was able to stick to it. He
replied, “I always lived with the girl and the woman would do that.”
I asked him about money management and he explained, “somebody
was always with me. I couldn’t do it alone.” He said he never carried
a credit card and did not know how to be sure his change was correct.
I asked him if he ever engaged in any dangerous or reckless behavior
when he was growing up and he told the story where he, “picked up a
copperhead snake not knowing it was dangerous.” I asked if he would
go to the doctor or ask for help if he was hurt or sick and he replied
that they had no money for doctors.
I asked if he was able to keep score during games and he replied, “No.
That wasn’t my thing.“
I asked if he would measure using a ruler or in the kitchen and he
replied no to both. “I just throw the stuff together. It would turn out
how it turned out.” He said that he only made pancakes on a radiator,
and otherwise did not know how to cook.
He stated that he has never used a dictionary. He stated that he never
wrote letters or used email when he was young and as an adult, “not
that much. I have to use the littlest words to make a sentence. I have
a dictionary for 7 to 12-year-olds. Mom got it for me from Amazon.”
With regard to work he described working as a janitor but said, “I was
always late because I had to ride my bike from the halfway house.”
Despite having this job, he reported that he was unable to save any
money for future needs. He described his responsibilities as, “sweep
the floor.” He said he was able to use a broom, mop, and a dustpan.

59

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 60 of 63

With regard to self-direction I asked him who made the key decisions
in his life and he replied, “whoever the girl I was with. When I made
them I ended up in the penitentiary.“
He reported that he has worked on farms, as a janitor, and at Hardee’s
where he made biscuits. He said he also worked for “Sam Walton’s
daughter” setting up tents for parties, and had a few temporary temp
jobs.
Conclusion Regarding Adaptive Impairment in the Practical
Domain
The Diagnostic and Statistical Manual of Mental Disorders - 5th Edition
(DSM-5) characterizes the various severity levels for adaptive
impairments seen in Intellectual Disability. Based on the evidence
summarized above, Mr. Johnson’s level of functioning is best captured
by the DSM-5 descriptions of “Moderate” severity in the practical
domain.
Moderate impairment in the practical domain is described as follows:
The individual can care for personal needs involving eating,
dressing, elimination, and hygiene as an adult, although an
extended period of teaching and time is needed for the individual
to become independent in these areas, and reminders may be
needed. Similarly, participation in all household tasks can be
achieved by adulthood, although an extended period of teaching
is needed, and ongoing support will typically occur for adult level
performance. Independent employment in jobs that require
limited conceptual and communication skills can be achieved,
but considerable support from coworkers, supervisors, and
others as needed to manage social expectations, job
complexities, and ancillary responsibilities such as scheduling,
transportation, health benefits, and money management. A
variety of recreational skills can be developed. This typically
requires additional supports and learning opportunities over an
extended period of time. Maladaptive behavior is present in a
significant minority and causes social problems. 97

97

Ibid.

60

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 61 of 63

Standardized testing of adaptive functioning by Dr. Keyes. Dr.
Keyes administered standardized tests of adaptive functioning to Mr.
Johnson, his relatives, and a former teacher during his evaluation in
2003. Personally, I am not a proponent of such testing in capital
litigation because the tests were not developed or normed for
retrospective use, making such applications unreliable.
However, in the interest of transparency and completeness, I note that
Dr. Keyes identified impairments in all areas of adaptive abilities,
which is consistent with the records outlined above. Dr. Keyes
reported the following test findings:

Summary of Forensic Opinions
In the time since Mr. Johnson’s last hearings, standards for the
determination of intellectual disability in Atkins cases have evolved,
both clinically and legally. The United States Supreme Court rulings in
Hall v. Florida (finding the use of a bright-line IQ-score cutoff
unconstitutional) and sequential decisions in Moore v. Texas (finding
the use of outdated and non-medical definitions of intellectual
disability unconstitutional) have acknowledged that: (1) IQ test scores
are subject to systematic errors (e.g., psychometric issues such as the
margin of error and the Flynn effect) that must be taken into account,
and (2) recognizing the critical role of clinical judgement in applying
current standards for the diagnosis of Intellectual Disability.
Clinical standards have also evolved with the latest iterations of both
61

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 62 of 63

the Diagnostic and Statistical Manual of Mental Disorder and the
Manual of the American Association on Intellectual and Developmental
Disabilities that have significantly changed with way doctors make this
diagnosis. There has been a major step away from using IQ scores to
determine the degree of Intellectual Disability in favor of classifying
the degree of ID based on impairment in adaptive functioning. There
has also been an acknowledgement that IQ scores are not the only
indicators of impairment in intellectual functions, and that
neuropsychological test scores also provide critical evidence of
cognitive impairment.
In this matter, following the latest advances legally and clinically, I
have reached the following opinions in this matter to a reasonable
degree of neuropsychological certainty:
Opinion With Regard to Deficits in Intellectual Functions
As discussed in detail above, it is my opinion that the evidence
supports a finding that Mr. Johnson has significantly subaverage
intellectual functioning based on valid, objective IQ and neurocognitive
test scores that fall within the range of Intellectual Disability.
Opinion with Regard to Impairments in Adaptive Functioning
Mr. Johnson exhibits evidence of significant deficits and impairments in
all three domains of adaptive functioning (Conceptual, Social and
Practical), at the level of “Mild” to “Moderate” severity. Impairment in
only one area is all that would be required to meet this diagnostic
prong, but Mr. Johnson shows impairment in all three.
There is substantial “convergent validity” from anecdotal,
contemporaneous, and empirical data sources supporting the
conclusion that Mr. Johnson functions adaptively in the range of
Intellectual Disability, which meets the second diagnostic prong.
Opinion with Regard to Age of Onset
It is my opinion that Mr. Johnson’s intellectual and adaptive deficits
find their origin in the developmental period. The data discussed
above clearly show that he was exhibiting intellectual deficits and
impairments in conceptual, social, and practical adaptive abilities
during his development prior to age 18. The presence of FASD and
62

Forensic Neuropsychological Report
June 18, 2021

JOHNSON, Ernest
Page 63 of 63

other risk factors for intellectual disability in the developmental period
further support the onset of these deficits in the developmental period.
Thank you for the opportunity to evaluate this interesting case. If you
have any questions, please feel free to contact me directly any time at
(949) 230-7321.
Sincerely,

Daniel A. Martell, Ph.D., A.B.P.P.
Fellow, American Academy of Forensic Psychology
Fellow, National Academy of Neuropsychology
Fellow and Past President, American Academy of Forensic Sciences

63

Appendix F

1

2

3

4

Appendix G

02

03

04

05

06

07

08

09

10

11

12

13

14

15

16

17

18

19

20

21

22

23

24

25

26

27

29

30

31

Appendix H

I
I
I
I
I
I
I

INSTRUCTION NO.

-L

Those who participate in a jury trial must do so in accordance with established mles. This
is true of the paiiies, the witnesses, the lawyers, and the judge. It is equally tme of jurors. It is the
Comi's duty to enforce these rules and to instmct you upon the law applicable to the case. It is
your duty to follow the law as the Comi gives it to you.
However, no statement, ruling or remark that I may make during the trial is intended to
indicate my opinion of what the facts are. It is your duty to detennine the facts and to determine
them only from the evidence and the reasonable inferences to be drawn from the evidence. Your
decision must be based only on the evidence presented to you in the proceedings in this
courtroom; and you may not conduct your own research or investigation into any of the issues in
this case. In this detem1ination of the facts, you alone must decide upon the believability of the
witnesses and the weight and value of the evidence.
In dete1111ining the believability of a witness and the weight to be given to testimony of the
witness, you may take into consideration the witness' maimer while testifying; the ability and
opportunity of the ,vitness to observe and remember any matter about which testimony is given;
any interest, bias, or prejudice the witness may have; the reasonableness of the witness' testimony
considered in the light of all of the evidence in the case; and any other matter that has a tendency
in reason to prove or disprove the tmthfulness of the testimony of the witness.
Faithful performance by you of your duties as jurors is vital to the administration of
justice. You should perform your duties without prejudice or fear, and solely from a fair and
impartial consideration of the whole case.

MAI-CR 3d 302.01
Tendered by Court �

-l

Y}v-- ?

l( { 0 �

2-Sl
01

02

03

04

05

06

08

09

10

11

12

13

14

15

17

18

20

21

22

23

24

26

27

28

29

30

31

32

34

35

36

38

39

40

Appendix I

01

02

03

04

05

06

07

08

09

10

11

12

13

Appendix J

06

07

14

17

18

19

21

22

24

32

34

35

39

40

44

50

51

52

53

55

56

59

60

61

65

66

67

68

70

71

72

75

Appendix K

01

05

07

08

10

11

12

Appendix L

05

10

11

12

13

14

15

Appendix M

IN THE SUPREME COURT OF MISSOURI
ERNEST JOHNSON,

)
)
Petitioner,
)
)
v.
)
)
ANNE PRECYTHE, Director,
)
Missouri Dept. of Corrections, )
)
Respondent.
)

Case No.

PETITIONER ERNEST JOHNSON’S PETITION FOR WRIT OF HABEAS
CORPUS PURSUANT TO MISSOURI SUPREME COURT RULE 91 AND
SUGGESTIONS IN SUPPORT
INTRODUCTORY STATEMENT
• “On November 5, 2015 around 9 am, Ernest called me again asking
me if he could go to sleep now. He did not understand that the execution was
called off.”
Affidavit of Cindy Malone (Attachment C, p. 2).
• [I]ntellectual disability must be determined under clinical standards
such as the DSM. Atkins v. Virginia, 536 U.S. 304, 318, 122 S. Ct. 2242, 153
L. Ed. 2d 335 (2002). The United States Supreme Court has twice reversed
a death penalty conviction when a court based its determination of lack of
intellectual disability on the court’s personal observations of the defendant
rather than on scientific and medical criteria. Moore v. Texas, --U.S. --, 137

1

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

SC99176

U.S. --, 139 S.Ct. 666, 671, --L.Ed.2d -- (2019) (“Moore II”).”
Johnson v. State, 580 S.W.3d 895, 909 (Mo. Banc 2019) (Stith, J.,
dissenting, joined by Draper, C.J. & Breckinridge, J.).
Mr. Johnson would unquestionably be found ineligible to be executed if clinical
criteria are applied in an adversarial process uncorrupted by error. Instead, Mr. Johnson is
a 60-year-old, intellectually disabled man again facing imminent execution. Mr. Johnson’s
petition to this Court seeks a simple and straightforward request: that he be afforded an
opportunity to present his evidence in support of his intellectual disability to a forum
applying the Supreme Court’s mandate that the law be guided by proper clinical standards.
Mr. Johnson also has not had an opportunity to a fair and reliable determination of his
intellectual disability because the jury received flawed instructions.
The Supreme Court clarified the legal and the clinical standards defining intellectual
disability since its decision in Atkins. In particular, the Supreme Court has emphasized its
reliance on the clinical approach to determining who is (and is not) intellectually disabled.
As noted above, Chief Judge Draper and Judge Breckinridge recently made such astute
observations. The added importance on clinical standards serve to highlight the problems
in Mr. Johnson’s trial as the jury received unconstitutional instructions and heard evidence
regarding Mr. Johnson’s intellectual disability that deviated significantly from the clinical
approach mandated by the Supreme Court.

2

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

S.Ct. 1039, 1059, 197 L.Ed.2d 416 (2017) (“Moore I”); Moore v. Texas, --

Johnson has developed additional evidence supporting his intellectual disability diagnosis
utilizing the Supreme Court’s most recent decisions as well as the clinical standards for
determining intellectual disability. Mr. Johnson’s evidence includes additional testing and
analysis by Dr. Daniel Martell (Attachment H) and Dr. Richard Adler. (Attachment I).
Dr. Martell administered the Weschler Adult Intelligence Scale, 4th Version [WAISIV] in May of 2019. (Attachment H, p. 25). Mr. Johnson’s Full-Scale IQ was measured as
70. Id. p. 25. This score, and the historical record of Mr. Johnson’s Full-Scale IQ scores,
establishes that he suffers from significantly subaverage intellectual functioning. Id. p. 29.
Dr. Martell also assessed Mr. Johnson’s adaptive functioning. Id. pp. 36-61. Dr. Martell
opined that Mr. Johnson has adaptive deficits in practical, social, and conceptual skills. Id.
p. 61. Finally, recognizing Mr. Johnson has received prior accusations of malingering and
lack of effort, Dr. Martell administer three tests that measure effort. Id. p. 25. Mr. Johnson
passed all three and Dr. Martell found that all scores developed during his evaluation were
valid. Id. p. 25.
Mr. Johnson was administered a Quantitative Electroencephalogram [QEEG] in
2020. Dr. Adler evaluated those results. (Attachment I). Dr. Adler concluded that Mr.
Johnson has highly abnormal brain functioning. Id. p. 1. Dr. Adler found the results of the
testing provide additional support for Mr. Johnson’s claim he suffers in Fetal Alcohol
Spectrum Disorder [FASD]. Id. FASD is the greatest risk factor for developing an
intellectual disability. (Attachment H, p. 14).
3

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Not only is the approach previously taken flawed under Moore I and Moore II, Mr.

where Mr. Johnson presented evidence that he was ineligible for the death penalty due to
his intellectual disability. (Record on Appeal, State v. Johnson, SC87825 (Mo. 2008)).
Likewise, the Court’s competency expert, Dr. Jeffrey Kline, did not testify. Id. Neither
experts’ opinion has been subjected to adversarial testing before a finder of fact.
Mr. Johnson petitions this Court to exercise its power to grant habeas relief, or refer
to a special master, on the basis of his intellectual disability pursuant to Atkins, 563 U.S.
304; Moore I, 137 S.Ct. 1039; Moore II, 139 S.Ct. 666. The constitutional issues raised in
this petition have never been considered by this Court – nor any state or federal court –
applying the Supreme Court’s Atkins and Moore jurisprudence.
This Court previously unanimously remanded for a determination of Atkins.
Johnson v. State, 102 S.W.3d 535, 537 (Mo. Banc 2003). After the Atkins remand, this
Court only addressed what appellate counsel presented to it: a sufficiency challenge related
to Mr. Johnson’s intellectual disability. 1 Assessing the record evidence and the new
evidence before this Court, there can be no question that Mr. Johnson is intellectually

1

Mr. Johnson does not allege ineffectiveness herein for counsel raising the

sufficiency claim on direct appeal; he simply notes that the manner a claim is raised has a
substantial impact upon what this Court considers and the manner of its consideration.
4

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

The State’s expert, Dr. Gerald Heisler, did not testify at the third penalty phase

to the contrary.
This petition further raises substantial constitutional issues relating to the evidence
presented and considered by the jury as it evaluated Mr. Johnson’s intellectual abilities as
well as a challenge to the jury instructions submitted to the jury. These issues are a matter
of first impression with this Court and address the manner in which Missouri courts apply
Atkins and its progeny in this and future cases.
Finally, Mr. Johnson brings a challenge to his execution based upon his unique
medical condition. Mr. Johnson previously had brain surgery in order to partially remove
a tumor from his brain. This surgery has left him vulnerable to seizures. The drug used to
execute Mr. Johnson substantially increases the likelihood that he will experience a seizure
and render the process cruel and unusual under the Missouri Constitution.
I.

ERNEST JOHNSON IS INELIGIBLE FOR THE DEATH PENALTY BECAUSE HE
IS INTELLECTUALLY

DISABLED AS DEFINED BY CLINICAL STANDARDS

RELIED ON BY THE SUPREME COURT IN ATKINS V. VIRGINIA, AND ITS
PROGENY.
a. The Execution of the Intellectually Disabled Is Cruel and Unusual
Punishment.
In Atkins, the Supreme Court prohibited the execution of intellectual disabled
individuals under the Eighth Amendment’s prohibition against cruel and unusual
punishment. Atkins, 536 U.S. at 321. Underlying the prohibition of executing the
5

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

disabled. Mr. Johnson seeks an opportunity to present evidence and challenge any evidence

purposes of capital punishment: retribution and deterrence. Unless the death penalty
“measurably contributes to one or both of these goals, it is nothing more than the
purposeless and needless imposition of pain and suffering, and hence an unconstitutional
punishment.” Atkins, 536 U.S. at 318 (internal quotations omitted). In Atkins, the Supreme
Court prohibited executing the intellectually disabled because doing so would not further
either of these goals. According to the Supreme Court, the death penalty does not apply to
the intellectually disabled with the force it does for the able-minded offender:
The theory of deterrence in capital sentencing is predicated upon the notion
that the increased severity of the punishment will inhibit criminal actors from
carrying out murderous conduct. Yet it is the same cognitive and behavioral
impairments that make these defendants less morally culpable—for example,
the diminished ability to understand and process information, to learn from
experience, to engage in logical reasoning, or to control impulses—that also
make it less likely that they can process the information of the possibility of
execution as a penalty and, as a result, control their conduct based upon that
information.
Atkins, 536 U.S. at 320.
In setting forth the ban, the Court referred to two definitions of intellectual disability
from the American Association on Intellectual and Developmental Disabilities (AAIDD)
and the American Psychiatric Association (APA). Id. at 309, n. 3. The Court noted that:
6

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

intellectually disabled is the recognition that doing so would serve neither of the recognized

intellectual functioning, but also significant limitations in adaptive skills
such as communication, self-care, and self-direction that became manifest
before age 18.
Atkins, 536 U.S. at 318.
b. The Supreme Court Recognizes the Critical Role Clinical Standards
Play in Properly Defining Intellectual Disability.
The Supreme Court has taken up three cases since 2002 dealing directly with the
issues raised in Atkins and the appropriate way to handle intellectual disability claims, and
in each case the Court relied upon scientific and medical texts and emphasized the
importance of relying on experts in the field of intellectual disability to guide the ultimate
outcome. See Hall v. Florida, 572 U.S. 701 (2014); see also, Brumfield v. Cain, 576 U.S.
305 (2015); see also, Moore I; Moore II.
In Hall, the Supreme Court highlighted the importance of the clinical definitions of
intellectual disability in addressing the mandates of Atkins. The Court repeatedly cited
relevant medical authorities in addressing the proper manner in which to evaluate claims
of intellectual disability. Hall, 572 U.S. at 709. Hall presented the question of “how
intellectual disability must be defined in order to implement these principles and the
holding of Atkins.” Id. Hall reinforced the three traditional criteria for the medical
community’s definition of “mental retardation” originally expressed in Atkins:

7

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

[C]linical definitions of mental retardation require not only subaverage

criteria: significantly subaverage intellectual functioning, deficits in adaptive
functioning (the inability to learn basic skills and adjust behavior to changing
circumstances), and onset of these deficits during the developmental period.
Id. at 710.
Hall further noted that it is unsurprising that “this Court, state courts, and state
legislatures consult and are informed by the work of medical experts in determining
intellectual disability.” Id. In Hall, the Supreme Court repeatedly referred to the medical
journals to guide the Court’s analysis of the appropriate way in which to evaluate the use
of IQ scores. See generally, Hall, supra. In doing so, the Court ultimately invalidated the
manner in which the Florida Supreme Court interpreted and enforced the intellectual
disability statute and the manner in which it had been applied as inconsistent with medical
evidence and the Eighth and Fourteenth Amendments.
The Supreme Court again had an opportunity to review a case involving an
intellectually disabled capital defendant and the procedural and factual roadblocks set up
in Brumfield, 576 U.S. 305. In Brumfield, the Court considered whether an IQ score of 75
was inconsistent with a finding that the defendant was intellectually disabled. The Court
held that a score of 75 was “entirely consistent with intellectual disability.” Id. at 314. In
reaching this conclusion, the Court relied on expert opinions and third-party sources such
as the AAMR as well as the DSM-IV. The Court in Brumfield thus continued the Court’s

8

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

the medical community defines intellectual disability according to three

on this difficult subject.
The Supreme Court most recently addressed the scope of Atkins in Moore v. Texas,
--- U.S. ---, 137 S.Ct. 1039 (2017). In Moore, the Supreme Court evaluated the Texas state
court’s reliance on the Briseno factors for evaluating intellectual disability. Id. at 1048. The
Court held the state court’s reliance on the Briseno factors were invalid because the factors
were based on outdated medical standards resulting in the “unacceptable risk that persons
with intellectual disability will be executed.” Moore, 137 S.Ct. at 1044 (quoting Hall, 572
U.S. at 704).
The Court in Moore re-affirmed the Hall opinion noting the use of strict IQ cutoffs 2
were unacceptable in evaluating whether a defendant is intellectually disabled. Moore, 137
S.Ct. at 1050. Similarly, the Court noted the IQ is not definitive of intellectual disability
and courts must “consider other evidence of intellectual disability where an individual’s

2

The use of strict IQ cut-offs in the intellectual disability realm is a dangerous

practice as the vast majority (75-89%) of the intellectually disabled fall in the upper range
of IQ scores for the diagnosis. See Mental Retardation: Definition, Classification, and
Systems of Supports, 32 (10th ed. 2002). Because this group of individuals can and will
score around 70 or just above, their 95% confidence level range scores on IQ tests are going
to include numbers above 70. Id. at 59.
9

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

reliance on experts in the field of intellectual disability to guide the Court’s jurisprudence

for intellectual-functioning deficits.” Id. While the state court in Moore considered
adaptive functioning, it did so in a manner inconsistent with the clinical community’s
standards.
The state court relied on Mr. Moore’s adaptive strengths to determine Moore did
not meet the requirements for intellectual disability even though the medical community
relies on an individual’s adaptive deficits. Id. at 1050. The state court relied on Moore’s
life on the streets, that he was able to mow lawns, and his playing pool for money as
evidence he was not intellectually disabled. Id. The state court also relied on his relative
improvement once he was imprisoned. Id. The Supreme Court, though, rejected the
approach the state court took in Moore and again relied on the medical community’s
standards and noted the medical community cautions against “reliance on adaptive
strengths developed “in a controlled setting,’” such as a prison. Id. (quoting DSM-5, at 38);
see also State v. Lambert, 126 P.3d 646, 652 (Okla. Crim. App. 2005) (the expert witnesses
agreed that “mentally retarded persons adapt very well to institutional settings such as
prison, and are unlikely to exhibit problems with impulse control in those settings.”). The
Court ultimately held the state court’s reliance on the outdated Briseno factors hindered the
proper evaluation of Mr. Moore, resulting in a significant risk an intellectually disabled
person will be put to death.
The development of intellectual disability jurisprudence since Atkins serves only to
strengthen the evidence of Mr. Johnson’s intellectual disability diagnosis. Reliance on the
10

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

IQ score, adjusted for the test’s standard error, falls within the clinically established range

diagnosis of intellectual disability to be correct and undercuts any argument to the contrary.
Indeed, as set forth more fully below, the limited evidence casting doubt on Mr. Johnson’s
intellectual disability diagnosis represents a rejection of medical and clinical standards
essential to the Supreme Court’s repeated mandates.
c. Ernest Johnson Has a Demonstrated History of Subaverage
Intellectual Functioning.
Determining the intellectual functioning of an individual involves the use of
standardized instruments that assess the individual’s level of intellectual functioning within
a confidence interval that represents the range within the individual’s true score falls. See
AAID, p. 35. A full-scale IQ test should be used to determine the individual’s level of
intellectual functioning. Id. at p. 28. There are numerous data points from Mr. Johnson’s
history supporting a demonstrated history of subaverage intellectual functioning.
Mr. Johnson’s IQ. has been tested on numerous occasions throughout his life
beginning when he was only 8 years old. His IQ scores have been remarkably consistent
throughout his life with eight of the nine full-scale IQ tests within the subaverage
intellectual functioning range. Mr. Johnson’s lifetime test scores break down as follows:

11

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

clinical evaluations and accepted medical standards demonstrates Mr. Johnson’s clinical

Examiner

FSIQ
Obtained

WISC
1968
Hufstutter
72
WISC
1972
Hufstutter
63
WAIS-R
1995
Bernard
78
WAIS-R
1995
Cowan
84
WAIS-III
2003
Keyes
67
WAIS-III
Bradshaw
2004
/Heisler
67
WAIS-III
2008
Connor
70
WAIS-III
2009
Connor
71
WAIS-IV
2019
Martell
70
LIFETIME AVERAGE 71.3

Mid-Year
Norm Date
1948
20 years
1948
24 years
1978
17 years
1978
17 years
1995
8 years
1995
9 years
1995
13 years
1995
14 years
2007
12 years

Flynn
Corrected
Adjustment 3 FSIQ
-6.0

66.0

-7.2

55.8

-5.1

72.9

-5.1

78.9

-2.4

64.6

-2.7

64.3

-3.9

66.1

-4.2

66.8

-3.6
66.9

66.4

See (Attachment H, p. 30). These numbers reflect an accurate assessment of Mr. Johnson’s
intellectual functioning and place him well-within the subaverage intellectual functioning
necessary for finding him to be intellectually disabled.

3

Researchers have established that due to the “Flynn Effect” average IQ scores

increase by three points every decade. See TASSE, MARC J. AND BLUME, JOHN H.,
Intellectual Disability and the Death Penalty: Current Issues and Controversies, p. 28-29,
2018.
12

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Test Date

a lifetime IQ score of 71.3, and applying aging norms to Mr. Johnson’s a lifetime average
IQ score of 66.9. Both well within the range of sub average intellectual functioning
required for determining that Mr. Johnson is intellectually disabled.
d. Ernest Johnson Has a Demonstrated History of Significant
Deficiencies in More than Two Adaptive Functions as defined by
Missouri Law.
Under Missouri Law, the question was whether Mr. Johnson demonstrated
“continual extensive related deficits and limitations in two or more adaptive behaviors such
as communication, self-care, home living, social skills, community use, self-direction,
health and safety, functional academics, leisure and work.” Mo. Rev. Stat. § 565.030.6.
The evidence supporting Mr. Johnson’s adaptive deficits is overwhelming and undisputed
by evidence that would be relied on by clinicians in making a determination of an
individual’s adaptive functioning.
Clinical experts rely on standardized adaptive behavior testing instruments to
determine whether an individual is approximately two standard deviations or more below
the mean in any of the adaptive domains. See AAIDD, p. 31. Mr. Johnson’s trial expert,
Dr. Denis Keyes, relied on several standardized tests for adaptive functioning. (Record on
Appeal, Vol. III, p. 1610, State v. Johnson, SC87825 (Mo. 2008); Attachment L, p. 1).
Additional defense experts, Dr. Paul Connor and Dr. Martell also relied on a battery of
standardized tests to reach their conclusions regarding Mr. Johnson’s deficits. (See
13

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

The average of the scores – taken over a period of 51 years – show Mr. Johnson has

relied on by the State, administered any standardized tests for determining Mr. Johnson’s
adaptive functioning. Their conclusions, as a consequence, have to be evaluated in light of
their rejection of standard clinical practice in making their assessments. The Supreme
Court’s jurisprudence in this area relies on the clinical approach to assessing intellectual
disability and mandates courts assess intellectual disability by relying on sound clinical
practices. With this understanding, the overwhelming evidence available to this Court
establishes Mr. Johnson’s deficits in two or more adaptive functions.

i. Functional Academics
The results of Dr. Keyes testing established that Mr. Johnson functioned at a thirdgrade level. (Record on Appeal, Vol. III, p. 1610, State v. Johnson, SC87825 (Mo. 2008)).
Dr. Connor tested Mr. Johnson’s academic performance in 2008 and again in 2009
determined Mr. Johnson tested at the 4th grade level on most subjects. (Attachment K, p.
7). Mr. Johnson showed strengths in arithmetic calculation, but even in this subject he
performed only at the 5th grade level. (Id.). These results were consistent with Mr.
Johnson’s functioning throughout his time in school. (Attachment Q).
Mr. Johnson attended Washington School, a segregated all-black school. (Record
on Appeal, Vol. I, p. 4, State v. Johnson, SC87825 (Mo. 2008)). Deborah Turner, who
worked at Washington when Mr. Johnson was in first or second grade, described the school
14

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Attachments H and K). Notably, neither Drs. Kline nor Heisler, non-testifying experts

slow, and withdrawn child. Id. p. 5. Turner indicated that he could not grasp things quickly.
Id. p. 18.
Robin Seabaugh taught Mr. Johnson in a developmental reading class in the ninth
grade. (Record on Appeal, Vol. II, p. 1219, State v. Johnson, SC87825 (Mo. 2008)). She
recalled Mr. Johnson being in special education classes from the fourth through the eighth
grades. (Id. at pp. 1219-20). In the ninth grade, Mr. Johnson was placed in the “basic track”
for slower-ability kids, and he did not perform well. (Id. at p. 1223). He missed a lot of
school and received poor grades. (Id. at p. 1225). His reading level was very low, between
the second and third grade level. Id. He flunked ninth grade and had to repeat it. Id.
Seabaugh characterized his intelligence as extremely low. Id. p. 1226.
The chart below corroborates the above testimony and illustrates the poor academic
progress throughout Mr. Johnson’s childhood.
Academic Year
1966/67
1967/68
1968/69
1969/70
1970/71
1971/72
1972/73
1973/74
1974/75
1975/76
12/10/76

Age
6
7
8
9
10
11
12
13
14
15
16

Grade Level
1
2
2 (Year #2)
3
4
3 (Year #2)
5
7
8
9
9

(Attachment M, p. 29).
15

Category/Result
Ungraded
Ungraded
Ungraded
Ungraded
Ungraded
Special Education
Special Education
Special Education
Special Education
Failed 9th Grade
Dropped Out

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

conditions as very poor. Id. Turner knew Mr. Johnson and described him as a very shy,

grades in the seventh grade, he was in a special education class where his grades were
individualized and calibrated to his own achievement level. Id. pp. 1230-31. For instance,
an eighth-grade special education student may be taught and measured at a second-grade
level. Id. p. 1237. Seabaugh confirmed that Mr. Johnson had IQ scores of 77 in the third
grade and of 63 in the sixth grade. Id. pp. 1231-32.
Steven Mason taught Mr. Johnson in an art class when he repeated the ninth grade.
Id. p. 1239. Mr. Johnson did not do well and struggled in class. Id. p. 1240. He did not
understand the instructions and had a hard time doing everything in class. Id. Mr. Johnson
could not perform simple tasks, such as using a ruler, a compass, and a protractor. Id. p.
1243. He could not complete any of the projects and received an F grade. Id. p. 1244.
According to Mason, the art class was basic and a student would almost have to try to fail
the class. Id. p. 1247. Mason recommended that Mr. Johnson be placed in special education
classes, but was told that the school could not do anything about that. Id. Mr. Johnson
dropped out of school midway through his second attempt at the ninth grade. Id. p. 1257.
Mr. Johnson’s achievement test scores throughout his schooling indicated his
inability to grasp the schoolwork or to operate at grade level. His scores throughout his
schooling were as follows:
Achievement Test Scores: Percentiles (Grade Equivalent)
Grade

Date

Reading
16

Math

Language Arts

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Although the school records indicated Mr. Johnson received some satisfactory

April 1969
April 1970
April 1971
April 1972
April 1973
April 1974
October 1975

1% (1.0)
2%(1-5)
1% (1-6)
29% (3-1)
2% (2-8)
7%
2%

*
4% (2-4)
*
*
2% (3-4)
8%
21%

*
9% (2-4)
2% (2-4)
13% (2-5)
2% (2-9)
2%
6%

(Attachment M, p. 29) (“*” designates untested subjects).
Mr. Johnson’s poor academic achievement was noted on several occasions by the
Missouri Department of Corrections (MDOC) well before the present offense. On April
24, 1979, Sherry Aslin from Missouri Probation and Parole completed an investigative
report requested by the court. In the report she notes Mr. Johnson (18 at the time) was
“ranked 204 in a class of 206” at the end of his freshman year. (Attachment V, p. 3). She
went on to note, “The possibility of Johnson ever being able to attain a high school
education is questionable.” Id. In a separate diagnostic report authored on June 15, 1979,
the MDOC case worker noted, “He was barely able to read the SORP at the sixth grade
level during the interview.” (Attachment R, p. 1). This case worker noted Mr. Johnson was
“very childlike and unintelligent” during the interview process. Id., p. 2.
The observations and testing data confirmed over a period of more than 40 years
demonstrate Mr. Johnson’s significant deficiencies in academic performance. Indeed, there
is no evidence that would support any other conclusion regarding this adaptive function.

4

First year where his transcript is designated as “Special Education.”
17

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Grade 2
Grade 3
Grade 4
Grade 3 4
Grade 5
Grade 7
Grade 9

Mr. Johnson relied on others in his life to take care of virtually every need. Mr.
Johnson was incapable of operating in the community on his own. He lived with women
that largely cared for him. Lisa Johnson was a former girlfriend to Mr. Johnson in the mid1980s who testified he was quiet and did not talk too much. (Record on Appeal, Vol. II, p.
1116, State v. Johnson, SC87825 (Mo. 2008)). He did not have any duties around the house
as he could not cook, drive, or do laundry the right way. Id. at p. 1117. He could not write
very well. Id., pp. 1117-18. He could not maintain steady employment and had no source
of income. Id., pp. 1117, 1127.
Even Mr. Johnson’s probation officer at the time of the instant offense had concerns
regarding Mr. Johnson’s ability to operate successfully in the community. Officer Dennis
Booth described Mr. Johnson as compliant, quiet, non-violent, and “below-average”
intelligence. Id., pp. 1176-77. Mr. Johnson only worked menial jobs that did not last too
long. Id., p. 1177. He had trouble reading and writing. Id.
Thomas Powell, a halfway house worker, observed Mr. Johnson and noted that he
had severe difficulties with employment. Id., p. 1200. He had trouble at one job because
he was unable to successfully place labels on boxes. Id. And while in prison, Mr. Johnson
was only assigned menial jobs, such as hauling trash or stacking food trays. Id., p. 1145.
Mr. Johnson’s difficulties in an unstructured environment were not surprising. His
corrections case worker from the MDOC noted about Mr. Johnson, “A successful social
adjustment on Johnson’s part could not be accomplished without the use of a controlled
18

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

ii. Home Living.

R, p. 2).
Mr. Johnson’s challenges were also documented using objective, scientific testing
measures. The testing administered by Dr. Keyes established that Mr. Johnson performed
at the equivalent age of 4 years and 8 months for his daily living skills. (Attachment L, pp.
1-2). He also used the Scale of Independent Behavior test and determined Mr. Johnson’s
overall level of independence equated to a 12-year-old boy. (Attachment L, p. 1).
Mr. Johnson’s performance in the community is the question, not his purported
performance in the highly structured environment of a prison. As noted by Tasse and
Blume (Tasse, M., p. 117) and as explained in Moore I, it would be inappropriate to “rel[y]
on adaptive strengths developed “in a controlled setting,’” such as a prison. Id., at 1050,
(quoting DSM-5, at 38). Rather, evidence from individuals who knew Mr. Johnson in his
own community are essential to conveying his significant challenges in his adaptive
behavior.
iii. Communication.
Mr. Johnson’s ability to communicate has been severely compromised since he was
child. He began showing signs that he was slower than other kids from a very early age.
When Mr. Johnson was young, he mainly stayed close and “up underneath” his
grandmother. ((Record on Appeal, Vol. II, pp. 1042, 1080-81, State v. Johnson, SC87825
(Mo. 2008)). The grandmother protected Mr. Johnson and called him “special.” Id., pp.
1080-81, 1107-08. Mr. Johnson was slow in school and suffered difficulties grasping
19

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

environment, strong guidance and community support following his release.” (Attachment

teased about being slow and was called names like “dummy,” “crazy,” and “stupid.” Id.,
pp. 1040, 1265. He was placed in slow learning and/or special education classes. Id., p.
1041. His teacher, Mrs. Seabaugh, testified Mr. Johnson could only read at the second or
third grade level. Id., p. 1225. These challenges were supported by the academic testing as
well.
Mr. Johnson’s standardized testing demonstrated significant deficiencies in reading
and language up through October 1975 when he withdrew from school. (Attachment M, p.
29). Dr. Smith testified that Mr. Johnson’s ability to orally communicate was “fair” and
noted that “mentally retarded people can communicate.” (Record on Appeal, Vol. II, p.
1458, State v. Johnson, SC87825 (Mo. 2008)). Dr. Smith emphasized, though, that he
tested Mr. Johnson’s reading and writing skills and found them to be “significantly
impaired.” Id., p. 1459. While he was capable of reading and writing, he could read only
at a third-grade level, his spelling was “poor” and his “punctuation and grammar were very
poor.” Id.
Dr. Keyes concurred with Dr. Smith’s opinion. Id., Vol. III, p. 1621. Dr. Keyes
testified that Mr. Johnson’s oral communication skills are “probably somewhat better than
his receptive communication, which is to say that he’s able to talk in a way that makes
himself understood better than he can understand the information that is coming into him.”
Id., Dr. Keyes premised his testimony upon objective evidence.

20

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

things. Id., p. 1039. He liked to hang around younger kids. Id. 1080-81. Mr. Johnson was

Johnson received scores at the 4 ½-year-old age equivalent level. (Attachment L). These
tests demonstrated that his communication skills, while comparatively high to his other
adaptive functions, were significantly deficient to the average adult. (Attachment L, pp. 12). In addition, Mr. Johnson’s school records show he was placed in developmental reading
and received either failing grades or the equivalent of a ‘D-’ on his report card. Id. All of
this evidence supports the finding of significant deficiency in the communication adaptive
function.
iv. Self-Direction
Mr. Johnson has significant deficits in self-direction as evidenced by his inability to
conform his actions to the law. Throughout his history, Mr. Johnson has been charged and
convicted of various offenses – most of them property-related and indicative of a drug
addiction. This behavior manifested itself in repeated criminal convictions throughout his
life. His caseworker in prison even recognized the need for substantial supports in the
community when he would be released from prison as far back as 1979. In that report, the
caseworker prophetically recognizes: “Although [Johnson] has serious feelings of regret
about his present incarceration, it does not appear likely that he is capable of the judgment
necessary to prevent him from engaging in criminal behaviors in the future.” (Attachment
R, p. 2). This report was issued during the developmental phase of Mr. Johnson’s life and
clearly identifies significant deficiencies in Mr. Johnson’s adaptive functioning.

21

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Dr. Keyes administered the Vineland Adaptive Behavior Scales to Mr. Johnson. Mr.

offense, but the crime itself does not establish – from a clinical perspective – whether Mr.
Johnson is intellectually disabled. This Court based its finding in large measure on the
amount of planning and preparation by Mr. Johnson noting, “Dr. Keyes later admitted that
Johnson took logical, precise, intelligent steps to prepare, execute, and avoid apprehension
for the murders.” Johnson, 244 S.W.3d at 154. Setting aside that the State apprehended Mr.
Johnson quite easily and he is facing execution, these types of facts, as noted in Atkins, do
not support an accurate finding of intellectual disability absent other clinical data
supporting such.
As Atkins recognized, those with intellectual disability do commit crimes for which
they must be punished – but the fact of committing a crime cannot be boot-strapped to
permit the execution of an otherwise intellectually disabled person applying proper clinical
criteria. The fact that Mr. Johnson planned to commit the crimes does not, standing alone,
undermine the evidence that he was significantly deficient in self-direction. See Black v.
Bell, 664 F.3d 81 (6th Cir. 2011) (Intellectually disabled defendant convicted of triple
homicide; hid the firearm to avoid detection); see also Hughes v. Epps, 694 F.Supp.2d 533,
536-37 (N.D. Miss. 2010) (Intellectually disabled defendant sought to hide the body of his
victim and the clothing worn during the murder). Rather, the crime is in fact a “maladaptive
behavior” to be considered in the broader context of his life history. (Record on Appeal,
Vol. III, p. 1705, State v. Johnson, SC87825 (Mo. 2008)).

22

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

The State’s sole response was to focus on the circumstances of the instant criminal

determining whether an individual is intellectually disabled – subaverage intellectual
functioning, deficiencies in two or more adaptive functions, and onset of intellectual
disability prior to age 18. All of the evidence available to this Court establishes Mr. Johnson
has met or exceeded each of the necessary elements.
e. The process employed to determine Mr. Johnson’s intellectual
functioning was fatally flawed in light of the United States Supreme
Court Precedent.
With the context of the Supreme Court’s Atkins jurisprudence in mind it is important
to understand the process by which the courts in this state determined that Mr. Johnson, a
man with an IQ of 67, was not intellectually disabled. Mr. Johnson has been denied even
the most basic protections necessary to a capital defendant and has been placed through
fact-finding processes that cannot reasonably be expected to produce reliable results,
casting significant doubt on the decision to sentence him to death.

f. The State’s intellectual functioning testing is inherently unreliable
and cannot be used to determine intellectual functioning.
Prior to the third sentencing hearing Mr. Johnson was evaluated by several
psychologists regarding the issue of competency and intellectual disability. The exams
were conducted by Dr. Denis Keyes (defense expert on intellectual disability), Dr. Jeffrey
Kline (court expert on competency - not asked to determine intellectual disability), and Dr.
23

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

In conclusion, the Missouri Legislature established three particular criteria for

intellectually disabled, Dr. Heisler did not. While experts offering differing opinions is not
unusual, what is unusual is that the State’s expert did not testify and has never been
subjected to an adversarial proceeding.
Dr. Heisler did not personally administer an IQ test to Mr. Johnson. The test was
administered by Mr. Sonny Bradshaw, yielding a full-scale score of 67. Dr. Heisler
discounted the 67 on the basis of Bradshaw’s belief Mr. Johnson was malingering, which
Bradshaw did not verify through the use of clinical testing instrument. Indeed, Bradshaw’s
unverified opinion is rebutted by sound clinical practices. Dr. Keyes IQ testing yielded an
identical score. Consistency among IQ scores actually rebuts any finding of malingering.
See United States v. Nelson, 419 F.Supp.2d 891, 903 (E.D. La. 2006) (“It is simply
impossible for the Court to conclude that Nelson has been malingering since age 11 and
has been able to manufacture the identical testing pattern for all those years.”). Further, Dr.
Martell notes validity sub-tests within the IQ test administered by Bradshaw actually
demonstrated appropriate effort by Mr. Johnson and no malingering. See Attachment H, p.
31. In short, Mr. Johnson was not malingering.
Thus, Dr. Heisler cannot be seriously or credibly relied upon to determine Mr.
Johnson’s intellectual disability because he violated settled clinical practices regarding
how to diagnose intellectual disability. Indeed, the State prosecutor had such little
confidence in Dr. Heisler that he chose not to call him as a witness after he was thoroughly
cross-examined during a pretrial deposition.
24

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Gerald Heisler (state expert on intellectual disability). Dr. Keyes found Mr. Johnson to be

they steadfastly avoid using clinically accepted practices to determine intellectual
disability. Evaluations which fall outside accepted clinical practice should not be
considered, or at the very least, should not be used to support a finding of no intellectual
disability. See Atkins v. Virginia (Atkins II), 631 S.E.2d 93, 94-99 (Va. 2006) (on remand
from Supreme Court, it was reversible error for the trial court to admit the testimony of an
unqualified expert); see also United States v. Nelson, 419 F.Supp.2d 891, 903 (E.D. La.
2006) (nothing that state’s expert opinion was deserving of less weight than other experts
because he “does not have any special expertise in mental retardation.”).
i. Dr. Jeffrey Kline.
Dr. Kline has never testified at an adversarial proceeding before a fact finder. Dr.
Kline was appointed by the trial court to conduct a mental competency examination
pursuant to §552.020.1 RSMo. The purpose of the exam, according to the statutes and the
trial court’s order was to determine whether Mr. Johnson “lacks capacity to understand the
proceedings against him or to assist in his own defense.” Id. Dr. Kline was not asked by
the trial court to opine regarding Mr. Johnson’s intellectual disability claim. However, the
state prosecutor used Dr. Kline’s unsolicited opinion as a basis to argue Mr. Johnson did
not meet the definition for intellectual disability.
Dr. Kline’s post hoc opinion of Mr. Johnson’s intellectual abilities cannot be relied
upon to reach an accurate assessment of Mr. Johnson’s intellectual disability claim. First,
Dr. Kline did not conduct any independent testing to evaluate Mr. Johnson’s intellectual
25

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

The reports and conclusions from Dr. Heisler are scientifically unreliable in that

the data without a scientific basis for doing so. For instance, Dr. Kline rejected Mr.
Johnson’s IQ scores of 67 reported by Drs. Heisler and Keyes solely on the basis Mr.
Johnson might have had an incentive to artificially lower his score.
Setting aside that recent testing confirms the consistencies of scores over time, even
then, Dr. Kline failed to assess how previous testing was also consistent with those scores.
It is non-sensical and absurd to suggest that from Dr. Kline’s perspective a borderlineintellectually disabled person could trick two other clinically trained professionals and the
test. He offers no proof that occurred nor does he address the scoring data itself that
supports the accuracy of the testing data. 5
Second, Dr. Kline’s opinion focuses almost exclusively on Mr. Johnson’s IQ scores
as a basis for determining his intellectual abilities. IQ scores are not determinative of
whether someone is intellectually disabled or not for purposes of eligibility for the death

5

Neither Kline nor the State of Missouri can support their speculation that someone

who is at best borderline ID (under their theory) could get an identical score on an IQ test
within a year of each other. The correct clinical and scientific answer is that Mr. Johnson’s
IQ consistently hits 67 because that is the level of his functioning. Recent testing (now a
decade later) again yielded a 67. (Attachment H, p. 25). Science should always trump
baseless supposition.
26

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

abilities. Dr. Kline instead relied on prior testing data and then chose to disregard some of

duplicative full-scale IQ scores of 67, demonstrate a satisfaction of one of the three clinical
and legal criteria for intellectual disability, and undermines Kline’s unscientific opinion.
Third, Dr. Kline also emphasizes that there was no determination of intellectual
disability prior to the age of 18. Dr. Kline misstates the statutory requirements for
determination of intellectual disability. Id. Onset of intellectual disability is the
determination and not whether the diagnosis was made prior to 18. Id. While Mr. Johnson
was not diagnosed as intellectually disabled prior to 18, he was placed in special education
classes for much of his time in school and his state testing assessments showed him to be
at or near the bottom of every academic area tested. 6
Finally, Dr. Kline does not address adaptive functioning in his report. Dr. Kline
addresses Mr. Johnson’s intellectual abilities but simply ignores a necessary element
relevant to Missouri’s statutory scheme. Id. This determination is essential clinically and,
importantly to Mr. Johnson, legally necessary to determine whether an individual is
intellectually disabled for purposes of the death penalty. It is similar to, if not identical to,

6

Mr. Johnson cannot be faulted for the paucity of resources available at his racially

segregated school in rural Missouri 50 years ago. That there was no such intellectual
disability determination is more an indictment of a segregated and underfunded school
system, as opposed to a lack of evidence of intellectual disability.
27

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

penalty. § 565.030.6 RSMo. Regardless, the consistency of the IQ scores over time, the

Brumfield, and Moore. The failure to address this issue renders Dr. Kline’s opinion invalid
for purposes of the jury relying on his opinion of Mr. Johnson’s intellectual disability.
ii. Dr. Gerald Heisler.
Dr. Heisler has never testified at an adversarial proceeding before a fact finder. Dr.
Heisler was retained by the State prosecutor for the purpose of determining whether Mr.
Johnson was intellectually disabled. To find Mr. Johnson was not intellectually disabled,
Dr. Heisler ignored virtually every accepted practice utilized by experts in the field of
intellectual disability.
Dr. Heisler did not conduct the intelligence testing himself. Instead, he relied on the
work of an untrained, unqualified test administrator, Wayne “Sonny” Bradshaw. Mr.
Bradshaw was a bachelor’s level technician who had never taken a course on administering
or interpreting the WAIS or any other IQ test he administers. (Attachment U, p. 14). Mr.
Bradshaw gained experienced “on the job” as well as administering the tests on students
and nurse’s aide “or whoever I can get to sit still for me.” Id. p. 16. According to Mr.
Bradshaw, he was provided with a test to administer and did not have any authority or
training to provide any additional testing to Mr. Johnson. (See Attachment U p. 6-7). He
had never administered assessments of adaptive deficits, which his department does not
normally use. Id. p. 7. He also had never administered the Test of Memory Malingering
[TOMM]. Id. p. 8. He testified that, as an employee of the mental health facility, “we don’t
normally see mentally retarded people.” Id.
28

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

the clinical missteps that formed the basis of the Supreme Court’s reversals in Hall,

malingering. He made a note of this but performed no tests to confirm his suspicion even
though this was and is the accepted practice in the medical community. See Anne L.
Shandera, et. al., Detection of Malingered Mental Retardation, PSYCHOLOGICAL
ASSESSMENT, Vol. 22, No. 1, 50 (2010) (“Psychologists conducting evaluations in forensic
settings must address the possibility of malingered symptoms using objective procedures.”)
Further, he did not explain how he arrived at his conclusions given his limited on-the-job
training or how he would be qualified to make such a clinical interpretation, especially
given that his facility did not see many intellectually disabled people. (Attachment U, p.
8). When asked to explain why he thought Mr. Johnson was not giving good effort, Mr.
Bradshaw has explained that “he just knew.” (Attachment E, ¶ 8). The test administered by
Mr. Bradshaw indicated that Mr. Johnson had a full-scale IQ of 67.
Dr. Heisler was not present for Mr. Bradshaw’s testing, and only conducted an
interview with Mr. Johnson prior to reaching his conclusions. Dr. Heisler ultimately
ignored the full-scale IQ test of 67 based on Mr. Bradshaw’s belief that Mr. Johnson was
malingering. Dr. Heisler did not take any clinical steps to confirm the suspicion of
malingering and instead relied solely on the assumptions of his untrained and unqualified
technician, even though this goes against accepted medical practices. Christopher L. Ray,
Chalmers P. Wylie, Assessment of Feigned Cognitive Impairment: A Cautious Approach
to the Use of the Test of Memory Malingering for Individuals with Intellectual Disability,
Open Access Journal of Forensic Psychology, Vol. 4, p. 39 (2012) (“One way to reduce
29

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

During the course of the testing by Mr. Bradshaw, he believed that Mr. Johnson was

is to regularly administer effort tests such as the TOMM. Such tests are important tools that
forensic examiners should consider administering given the aforementioned prevalence
rates of feigned cognitive impairment among individuals evaluated in forensic settings.”)
7

. Dr. Heisler has now admitted that Mr. Bradshaw was not qualified to determine whether

Mr. Johnson was malingering. (Attachment E, ¶ 12).
Even more troubling was the conclusions reached by Dr. Heisler, without
conducting any testing, regarding adaptive functioning. Medical experts make clear that
“[s]ignificant limitations in adaptive behavior are established through the use of
standardized measures . . .” INTELLECTUAL DISABILITY, DEFINITION, CLASSIFICATION AND
SYSTEMS OF SUPPORT, supra, at p. 47. Dr. Heisler used no objective measurements in
reaching his conclusions. In addition, the medical practice is to “obtain[] information
regarding the individual’s adaptive behavior from a person or persons who knew the
individual well.” Id. Dr. Heisler, though, chose not to speak to any individual that could
provide any insight whatsoever regarding Mr. Johnson’s abilities prior to writing his report.
Thus, he did not have to account for the evidence establishing that Mr. Johnson’s

7

As discussed, infra, Dr. Keyes did administer the TOMM to Mr. Johnson and

concluded, based upon a of 48/50, the Mr. Johnson was not malingering.
30

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

inaccuracies in the identification of feigned cognitive impairment in forensic evaluations

influenced by others.
Finally, Dr. Heisler focused on petitioner Johnson’s perceived maximum
performance rather than on the typical performance in evaluating his adaptive behaviors.
See The AAIDD Ad Hoc Committee on Technology and Classification, INTELLECTUAL
DISABILITY, DEFINITION, CLASSIFICATION AND SYSTEMS OF SUPPORT, at p. 47 (11th Ed.
2010) (“The assessment of adaptive behavior focuses on the individual’s typical
performance and not their best or assumed ability or maximum performance.”) In Mr.
Johnson’s case, Dr. Heisler noted that petitioner was capable of obtaining employment in
assessing the leisure and work adaptive function. However, the skills possessed by
individuals with intellectual disability vary considerably, and that they have one or more
skills (that might be thought by some laypersons as inconsistent with the diagnosis, such
as holding a menial job) cannot be taken as disqualifying. An intellectual disability expert
expects to see strengths because persons in the upper range of IQ scores for the diagnosis,
which are the vast majority of the intellectually disabled, “are generally able to fulfill all
expected adult roles.” See American Psychological Association, Manual of Diagnosis and
Professional Practice in Mental Retardation 18 (John W. Jacobson and James A. Mulick
eds.), (1996).
Dr. Heisler’s work lead to an unreliable result when he steadfastly rejected nearly
every accepted medical practice for evaluation of intellectual disability. And recognizing
that his results were unreliable and unscientific, the prosecutor chose not to subject Dr.
31

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

development was delayed, he was isolated, alone and bullied as a child, and he was easily

to the jury through cross-examination of the defense expert, Dr. Keyes.

g. Mr. Johnson’s jury was misled by the State’s encouragement to
ignore the science and clinical standards.
In closing argument, the State encouraged the jury to ignore the only expert to testify
specifically on intellectual disability, Dr. Keyes, and instead “use their own common
sense.” (Record on Appeal, Vol. III, p. 1796, State v. Johnson, SC87825 (Mo. 2008)). The
prosecutor further argued that Mr. Johnson could not be intellectually disabled because
“he’s got street smarts.” Id. p. 1798. The prosecutor also told the jury to ignore clinical
practice and consider his functioning in prison as evidence that he was not intellectually
disabled, even though Dr. Keyes had cautioned against relying on prison behavior. Id. The
prosecutor argued Mr. Johnson was not intellectually disabled because in prison “[h]e does
fine. He’s got a TV in his room, he’s got cable TV, plays cards, plays basketball, rec four
or five times a day, gets to shower whenever he wants . . . .” Id. He also argued that because
Mr. Johnson was not diagnosed during the developmental period, the diagnosis was just
“something they’re using to get him out of appropriate punishment.” Id. p. 1800. It is this
kind of pandering to lay stereotypes about what the intellectually disabled can and cannot
do that lead to the erroneous verdict that Mr. Johnson was not intellectually disabled, in
spite of the fact that not a single state expert took the stand to testify to that opinion.
32

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Heisler to cross-examination. Instead, the prosecutor introduced the unsupported findings

was from the actual science of intellectual disability. The juror held the mistaken belief
that in order to show that Mr. Johnson was intellectually disabled, the defense somehow
had to prove that Mr. Johnson “did not know right from wrong.” (Attachment F, p. 1 ¶ 2).
The juror stated that if the defense had “proved he didn’t know what he was doing, I would
have believed it, but the defense didn’t. They didn’t show that he did not know right from
wrong.” Id. Of course, this is not the question put to the jury on intellectual disability
because guilt phase culpability was no longer at issue. See Atkins, 536 U.S. at 318
(“Mentally retarded persons frequently know the difference between right and wrong and
are competent to stand trial.”)
The juror also found that Mr. Johnson was not intellectually disabled based upon
courtroom demeanor: “I observed Mr. Johnson in court. He sat motionless during the trial.
I thought he understood what was going on. A lot of people with mental retardation would
have had a hard time sitting there and paying attention. There was level of comprehension
on his face.” Id. In Atkins, the Supreme Court noted a concern about lay stereotypes about
the intellectually disabled, including “unwarranted impressions” regarding a defendant’s
“demeanor.” 536 U.S. at 321.
Despite the fact that this juror found that Mr. Johnson’s face showed a “level of
comprehension,” affidavits from multiple defense team members belie this assertion.
Elizabeth Carlyle served as counsel for Mr. Johnson at his final resentencing. During the
trial, contrary to the juror’s impression, Mr. Johnson’s level of comprehension and
33

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

One juror recently signed an affidavit which illustrates just how far the jury’s verdict

Mr. Johnson was interested in looking at her computer at counsel table, that was simply
due to the fact that he was unfamiliar with computers and he was noticing photos on her
computer that were unrelated to trial. (Attachment B, ¶ 5-6). Mr. Johnson’s participation
at trial was “consistent with my impression of his lack of general knowledge . . . . Most of
my clients are able to understand at least basic legal information about their case much
better than Mr. Johnson.” Id. at ¶ 7. Mr. Johnson “did not make any suggestions about the
conduct of the trial.” Id. at ¶ 6.
Cindy Malone served as Mr. Johnson’s mitigation specialist in post-conviction
proceedings and she noted from the outset of her involvement that it was “abundantly clear
. . . that Ernest was born with an intellectual disability.” (Attachment C, p. 1). Fellow
inmates informed her that even when tasked with simple chores such as mopping and
sweeping the kitchen, “Ernest would continuously mop himself into a corner,” and that he
would repeatedly burn the food he tried to cook in the microwave because he just could
not manage to work the buttons. Id. At a legal visit in which the attorney noted she shared
the same birth year as Mr. Johnson – 1960 – the attorney and Ms. Malone waited several
minutes for Mr. Johnson to attempt to do the math to figure out how old that would
currently make both Mr. Johnson and the attorney. Id. Eventually, they gave up waiting
and simply told him the answer. Id. p.2
Ms. Malone was on the case when Mr. Johnson had a golf ball sized tumor partially
removed from his brain. Id. p. 2. Mr. Johnson could not grasp the doctors’ explanation of
34

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

attention were not at odds with his intellectual disability. Ms. Carlyle explains that while

which Mr. Johnson had told her that they wanted “to cut his head open again.” Id. Mr.
Johnson could not understand that the doctors simply wanted to perform follow-up MRIs
to gauge his progress. Id.
Ms. Malone also occasionally received calls from Mr. Johnson after she was no
longer on the case. Mr. Johnson was previously set to be executed in November 2015. Ms.
Malone had received several calls from Mr. Johnson that day and evening. At around 6
p.m., Mr. Johnson’s execution was stayed by the United States Supreme Court. When Ms.
Malone spoke to Mr. Johnson the next day around 9 a.m., Mr. Johnson asked her if it was
okay to go to sleep, as he did not comprehend that his execution had been called off the
evening before. Id. p. 2.
Nancy McKerrow represented Mr. Johnson during his first trial and sentencing and
her observations are in line with those of Ms. Malone and Ms. Carlyle. (Attachment A).
Mr. Johnson was easy to deal with as a client, but he also “could not provide us with the
type of feedback about the legal issues or the facts of the case to be very helpful.” Id. at ¶
4. Although provided with a copy of discovery, he did not appear to read it and his
“inability to participate in the legal process against him carried through the trial.” Id. Mr.
Johnson’s level of comprehension and participation contrasted with that of other
defendants and “Ernest stood out to me for his overall deferential nature and inability to
help his trial team.” Id. at ¶ 5.

35

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

his after-care plan and Ms. Malone received a frantic call from Mr. Johnson’s sister in

(Attachment G at ¶ 4). As with other defense team members, Ms. Leftwich was left with
the impression that because of his intellectual limitation, Mr. Johnson “was not able to
meaningfully assist us with this case.” Id. He could not provide feedback after being
provided written material and he could not provide any helpful information about
witnesses. Id. at ¶ 5. Ms. Leftwich had to cover the same ground over and over again in
attempting to explain things to Mr. Johnson, but he was simply unable to grasp the
information. Id. Like Ms. McKerrow, Ms. Leftwich negatively contrasted Mr. Johnson’s
level of participation with that of other criminal defendants. Id. at ¶ 7.
Bill Swift represented Mr. Johnson during two of his appeals to this Court.
(Attachment D, ¶ 4). His interactions with Mr. Johnson contrasted with his experience with
other clients, as Mr. Johnson simply could not engage at any level in regard to his legal
issues. Id. at ¶ 5. Mr. Johnson was simply “a passive recipient of information.” Id. at ¶ 6.
The prosecutor urged the jury to ignore science and be led by “common sense.” As
a result, an intellectually disabled man now faces imminent execution unless this Court
steps in and makes good on the promise of Atkins and Moore – that the intellectual
disability decision must be guided by clinical practice and not by lay stereotypes.
h. Dr. Martell’s report
Dr. Daniel Martell recently tested and evaluated Mr. Johnson and found that he
“meets all of the current criteria for Intellectual Disability pursuant to Atkins v. Virginia.”
(Attachment H, p. 2). Dr. Martell is a clinical psychologist who is board certified in forensic
36

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Valerie Leftwich represented Mr. Johnson during his post-conviction proceedings.

Sciences. Id. p. 2. Dr. Martell has consulted on Atkins cases throughout the country, both
for the defense and the prosecution. Notably, Dr. Martell served as the expert witness for
the State in the case against Daryl Atkins, the defendant in the Supreme Court case of the
same name. Id. Dr. Martell explains why many of the intellectual disabled go undiagnosed,
even by mental health experts: “[c]ounter to popular belief, many individuals with
Intellectual Disability are not immediately identifiable by the way they look or after limited
interactions, and the diagnosis can be missed if it is not the primary focus of a clinical
examination.” Id. p. 28.
Dr. Martell gave Mr. Johnson both IQ and neuropsychological tests. Id. p. 26. In
order to ensure that Mr. Johnson gave good effort, Dr. Martell gave him three validity tests,
all of which Mr. Johnson passed. Id. On the IQ test, the WAIS-IV, Mr. Johnson received a
full-scale IQ of 66, after adjustment for measurement error. Id. This score is consistent with
his other IQ testing, which squarely places him in the significantly subaverage category.
Id. From 1968 to 2019, Mr. Johnson has been given nine IQ tests that are considered
diagnostic for intellectual disability. Id. p. 30. Mr. Johnson’s scores on eight of these nine
tests all qualify him for the diagnosis of intellectual disability, including the testing of the
State’s own expert. Id. The sole outlier test, a test for which the raw data no longer exists,
still has Mr. Johnson achieving only a 78.9 on the full-scale IQ, with adjustment for
measurement error. Id. pp. 28, 34. On tests of academic achievement, Mr. Johnson scored
in the bottom 1%, with his abilities commensurate with an early elementary school level.
37

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

psychology and has served as the President of the American Academy of Forensic

99.6% of the population. Id.
Dr. Martell notes that contrary to science and clinical standards, the expert who
accused Mr. Johnson of poor effort at testing, Dr. Heisler, did not actually examine Mr.
Johnson himself and the IQ testing he relies on actually shows that Mr. Johnson gave good
effort on the test given to him. Id. p. 31. Embedded into the WAIS-III that Bradshaw gave
Mr. Johnson are two tests of validity, both of which Mr. Johnson passed on his
administration with Bradshaw. Id. In addition, Mr. Johnson’s score on the test given by his
own expert was exactly the same as the test given by Bradshaw: a 67. Id. Mr. Johnson also
passed the objective tests of effort given by his expert. Id. “[I]t is extremely unlikely that a
person with Mr. Johnson’s history of adaptive deficits could ‘fake’ on two IQ tests a year
apart and be able to obtain the exact same score.” Id. In fact, the 51-year IQ test history of
Mr. Johnson shows “remarkably consistent” results, illustrating a case of “convergent
validity” on the question of IQ score. Id.
Dr. Martell also determined that Mr. Johnson has adaptive deficits in all three
diagnostic categories of practical, social, and conceptual skills. Id. p. 38. Mr. Johnson was
delayed in walking and talking and it was acknowledged among those who knew him that
Mr. Johnson was always slow, struggling significantly in school. Id. p. 40. A clear
indication that Mr. Johnson has deficits in conceptual skills is that he was held back in
school twice, placed in special education, and had “documented deficits on standardized
academic achievement testing from the time he started in school.” Id. pp. 40, 45. His art
38

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Id. p. 27. On tests of language, Mr. Johnson was severely impaired, scoring in the bottom

subject, “Mr. Johnson pretty much had a hard time doing everything.” Id. at 43. He could
not even accomplish such basic tasks as using a ruler to draw a straight line. Id. at 44. A
report from the Missouri Department of Corrections notes that on their own testing, Mr.
Johnson was “barely able” to read the sixth-grade reading level material provided and the
report notes the childhood IQ score of 70. Id. A corrections case worker described Mr.
Johnson as “very childlike and unintelligent.” Id.
In the social domain of adaptive behavior, Mr. Johnson shows marked impairments
in his language skills and in his relationships, he is likely to be manipulated and taken
advantage of by others. Id. at 47. On neuropsychological tests, Mr. Johnson scores in the
bottom 1% for verbal fluency and in the bottom 2% for expressive and receptive language
skills. Id. These objective test results are supported by anecdotal evidence from peers that
Mr. Johnson had a hard time making friends and expressing himself and as a result, was
vulnerable to being misled by others. Id. at 48-49.
In the domain of practical adaptive skills, Mr. Johnson shows significant impairment
in self-care, work skills, and personal safety. Id. at 51. Mr. Johnson had a hard time taking
care of his own basic needs and he was described as fairly incompetent in most areas -save for the most basic ability to dress and wash himself. Id. at 54. In sum, Mr. Johnson
has never been able to live independently but has had to rely on others to support him. Id.
at 55. When he was placed for employment, his probation officer testified that he could not
even handle the simplest of tasks, losing one job because he could not even put labels on
39

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

teacher during the year he repeated ninth grade, Mr. Mason, testified that even in that

and struggled to read and write. Id. at 59. When he applied for a job at Hardee’s, he asked
a friend to fill out the job application for him. Id.
Although not necessary for diagnosis, Dr. Martell also identified several risk factors
in Mr. Johnson’s background that made him especially vulnerable to intellectual disability:
1) genetic predisposition, 2) fetal alcohol exposure, 3) a history of head injuries, 4) child
abuse and neglect, and 5) poverty and malnutrition during the developmental period. Id. at
12.
In terms of genetic predisposition, it has long been recognized that intellectual
disability runs in families and having a parent or a sibling with the disorder “significantly
increases the likelihood of having an intellectual disability.” Id. In Mr. Johnson’s case, both
his mother and his brother are intellectually disabled. Id. His mother was tested in 1974
and her full-scale IQ was 61, accompanied by impairments in adaptive functioning. Id. His
brother, Danny, was born with profound intellectual disability and other birth defects that
required him to be institutionalized throughout most of his life. Id. at 12, 15. These simple
genetic facts significantly increase the risk that Mr. Johnson also has intellectually
disability. Id.
In addition, no less than three experts have agreed that Mr. Johnson also suffers
from Fetal Alcohol Exposure. Id. at 14. Well-established science links maternal alcohol
use with intellectual disability and it is the “leading known risk factor for intellectual
disability.” Id. It is undisputed and was well-established that Mr. Johnson’s mother, Jean
40

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

boxes in the correct manner. Id at 58. Mr. Johnson only ever held the most menial of jobs

quell her addictions during her pregnancy with Mr. Johnson. Id. Mr. Johnson was born at
home, was premature, and “extremely small in stature and weight.” Id. Dr. Martell notes
that Mr. Johnson’s intellectual disability, as well as his brother Danny’s, “is likely to be
the direct result of his mother’s abuse of alcohol and other drugs during her pregnancy.”
Id. at 15.
Another risk factor for intellectual disability is a history of head injuries during the
developmental period. Id. at 16. Mr. Johnson’s history reveals at least two significant head
injuries, injuries that include a loss of consciousness. Id. Being the victim of child abuse
also increases the risk for intellectual disability and “the abandonment, neglect, abuse, and
deprivation that Ernest Johnson experienced during his early years had a significant impact
on his development.” Id. at 17. This abuse was severe in nature and included parents and
caregivers who were physically violent. Id. at 18-19. As just one small example of the
severity of this abuse, Mr. Johnson’s father would chase and shoot at his own children with
a gun. Id. Mr. Johnson’s mother was similarly violent, especially when intoxicated, and
even his grandmother, the bright spot in his young life, would beat the children to the point
that they had welts and cuts upon their bodies. Id. Mr. Johnson, in particular, received more
than his fair share of physical abuse and was singled out by the father as deserving of
additional physical violence. Id. at 19. Another caretaker would force the three children to
lie across the floor in a row and he would then whip all of them “with belts and extension
cords.” Id. The children were told they would be killed if they told. Id.
41

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Ann Patton, had a long-standing history of alcohol and drug abuse and she was unable to

child abuse - sexual abuse. Id. at 19. His own mother would prostitute out Mr. Johnson to
older women (ages 30-40) in exchange for money or alcohol. Id. In order to ensure his
compliance, his mother would encourage Mr. Johnson to drink alcohol or smoke marijuana
so that he would be “‘in the mood’ before introducing him to an older woman.” Id.
Mr. Johnson also grew up in abject poverty and experienced malnutrition as a child
which “exposed him to significant risks for abnormal brain development.” Id. p. 20. As an
illiterate sharecropper, Mr. Johnson’s father struggled to support the family and the
combination of abuse and poverty experienced by Mr. Johnson, was “particularly toxic.”
Id. at 21. The family was so poor that the children had to resort to shoplifting to provide
for their own basic needs and this survival behavior was deemed acceptable by Mr.
Johnson’s caregivers. Id. at 22.
In summary, Dr. Martell has opined, without hesitation, that Mr. Johnson meets all
the criteria for the diagnosis of intellectual disability. This opinion is supported by
“substantial ‘convergent validity’ from anecdotal, contemporaneous, and empirical data
sources.” Id. at 65. Only one area of the three adaptive domains need to be deficient in
order to meet the diagnosis. Mr. Johnson has deficits in all three areas. Id. His intelligence
testing, with nine IQ scores over the span of 50 years, is remarkably consistent. Id. at 31,
65. Both his intellectual and adaptive deficits “find their origin in the developmental
period.” Id. at 65. Mr. Johnson’s intellectual disability is not a close case – it is a convincing
and overwhelming one.
42

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Mr. Johnson also suffered from one of the most insidious and damaging forms of

Dr. Adler is a board-certified psychiatrist with over two decades of experience in
forensic psychiatry and expertise in Fetal Alcohol Spectrum Disorders (FASDs).
(Attachment I, p. 1). Dr. Adler recently evaluated Mr. Johnson using the Quantitative
Electroencephalogram (QEEG), an objective test designed to provide data about brain
functioning. Id. at 1-2. One of the benefits of the QEEG is there is no opportunity for
malingering because the test measures electrical activity in the brain. Id. at 3.
The results of the QEEG show that Mr. Johnson has a “highly abnormal functioning
brain.” Id. at 1. The electrical abnormalities in his brain are widespread, occurring in “all
brain areas, that is – frontal, parietal, temporal, occipital and limbic, and on the right and
left side.” Id. at 5. The results are also consistent with the underlying presence of FASD.
Id. at 7. As noted by Dr. Martell, maternal drinking during pregnancy is the number one
risk factor for the development of intellectual disability. (Attachment H, p. 14). The results
were also consistent with Mr. Johnson’s history of head trauma. Id.
Importantly, some of Mr. Johnson’s most glaring abnormalities occur in the limbic
lobe of the brain, an area “critically important to the ability to understand, integrate and
manage strong impulses (including violence).” Id. at 17. Dr. Adler’s report shows that Mr.
Johnson’s intellectual disability is supported by objective evidence of globally significant
brain impairment that is indicative of both head trauma and maternal drinking during
pregnancy.

43

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

i. Dr. Richard Adler’s Report

remanded for further factual development on the intellectual
disability question.
Given the developments in Supreme Court jurisprudence since the resentencing, it
has become clear that Mr. Johnson did not receive a determination of intellectual disability
that was guided by the dictates of science or clinical standards. Habeas relief should be
granted. Alternatively, this Court should remand this case for further factual proceedings,
in front of a Special Master. At this proceeding, Mr. Johnson can finally confront on the
stand any expert witness from the State who attempts to opine that he is not intellectually
disabled.
II.

THE JURY INSTRUCTIONS ON INTELLECTUAL DISABILITY VIOLATED MR.
JOHNSON’S CONSTITUTIONAL RIGHTS.

Mr. Johnson’s resentencing jury was unconstitutionally instructed that he must
prove to them, unanimously, that he is intellectually disabled. However, because Hurst v.
Florida, 577 U.S. 92 (2016), Ring v. Arizona, 536 U.S. 584 (2002) and Atkins, 536 U.S.
304, make it clear that the lack of intellectual disability is a finding that renders him
ineligible for death, the Sixth Amendment requires that the State prove that Mr. Johnson is
not intellectually disabled. In addition, the jury instructions did not clarify that intellectual
disability should also be considered as an independent mitigating factor, for which
unanimity is constitutionally forbidden under Maryland v. Mills, 486 U.S. 367, 384 (1988)
44

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

j. Habeas relief should be granted or alternatively this case should be

violated both of these constitutional directives, resulting in a death sentence for an
intellectually disabled man and creating the possibility that a lone holdout juror prevented
Mr. Johnson from receiving the protection of Atkins.
Mr. Johnson’s jury was instructed that before he could qualify for a life sentence
under the protection of Atkins, they must “unanimously find” that he had proven that he
was intellectually disabled by a preponderance of the evidence. (Attachment S, p. 6). This
requirement of unanimity was again reiterated in Jury Instructions #7, 11, 12, 16, 17 and
21: “[i]f you did not unanimously find by a preponderance that the defendant is mentally
retarded. . . .” (Attachment S, p. 7, 12, 14, 19, 21, 25).
The verdict forms again reiterated that the jury must find unanimously that Mr.
Johnson had proven intellectual disability. (Attachment S, pp. 31, 35, 39). Jury instructions
submitted by the defense, which would have instructed the jury that the State had the
burden of proving that Johnson was not intellectually disabled, beyond a reasonable doubt,
were rejected. (Attachment X, pp. 1-2, 4, 6, 8-9, 10-13). The signed verdict forms reflecting
the findings of the resentencing jury only lay out their findings in aggravation. (Attachment
T, pp. 1-3). There is no signed verdict form directly addressing their finding on the
intellectual disability question or on mitigation. The instructions require an automatic
progression to the capital weighing process if a single juror did not believe Mr. Johnson
was intellectually disabled.

45

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

and McKoy v. North Carolina, 494 U.S. 433, 435 (1990). The jury instructions in this case

on aggravating factors, and then on mitigating factors. The jury received no clarification
as to how they, as an individual juror, could consider intellectual disability as an
independent mitigating circumstance. Thus, there was no guidance regarding the burdens
of proof and lack of unanimity that are attendant to mitigating circumstances - after
receiving multiple instructions requiring unanimity as to intellectual disability. See Mills,
486 U.S. at 384 (striking down jury instructions on mitigating circumstances that could be
interpreted as requiring unanimity because the “the sentencer must be permitted to consider
all mitigating evidence. The possibility that a single juror could block such consideration,
and consequently require the jury to impose the death penalty, is one we dare not risk.”);
McKoy, 494 U.S. at 435 (holding that in regard to mitigating circumstances “North
Carolina’s unanimity requirement violates the Constitution by preventing the sentencer
from considering all mitigating evidence.”).
The post-Atkins jury instructions actually made it more difficult for Mr. Johnson to
have a jury spare him because of his intellectual disability. Prior to Atkins, Mr. Johnson
could at least present his intellectual disability as a mitigating circumstance that any single
juror could find supported a life sentence, without a requirement of unanimity. In a cruel
twist of fate, these instructions actually provided him less protection due to his disability,
something surely not contemplated by the Supreme Court when it rendered its decision in
Atkins and this Court’s unanimous remand for a consideration of Atkins in this case.

46

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

To complicate matters, the jury was first instructed on intellectual disability, then

is not intellectually disabled. It was unconstitutional to require Mr.
Johnson to prove his intellectual disability unanimously.
In Atkins, the Supreme Court concluded that the Constitution “places a substantive
restriction on the state’s power to take the life of a mentally retarded offender.” Atkins, 536
U.S. at 321 (quoting Ford v. Wainwright, 477 U.S. 399, 405 (1986)). In Ring v. Arizona,
536 U.S. 584 (2002), decided the same year as Atkins, the Supreme Court further held that
death penalty eligibility factors must be proven to a jury. Blakely v. Washington reiterated
that “every defendant has the right to insist that the prosecutor prove to a jury all facts
essential to the punishment.” 542 U.S. 296, 313 (2004). Ring made it clear that “[i]f a State
makes an increase in a defendant’s authorized punishment contingent upon the finding of
a fact, that fact – no matter how the State labels it – must be found by a jury.” 536 U.S. at
602.
Ring established that for purposes of the Sixth Amendment, there is no difference
between an element of the offense of capital murder and an aggravating circumstances
finding that makes a capital-murder defendant eligible for a death sentence. “[T]he
characterization of a fact or circumstance as an ‘element’ [of a crime] or a ‘sentencing
factor’ is not determinative of the question ‘who decides,’ judge or jury.” 536 U.S. at 605.
A capitally charged defendant may demand a jury trial of any fact that is a prerequisite to
either the entry of a capital conviction or the actual imposition of a sentence of death. Id.
at 609. More recently, in Hurst, the Supreme Court overruled prior decisions which had
47

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

a. Hurst, Ring and Atkins require the state to prove that Mr. Johnson

the death sentence because those decisions “were irreconcilable with Apprendi.” Hurst,
577 U.S. at 101.
It is also important to view the June 2002 decisions of the Supreme Court in Atkins
and Ring against the backdrop of constitutional rules for capital sentencing that these cases
did not disturb. The most important of these rules is Lockett v. Ohio, 438 U.S. 586 (1978),
which holds that a capital defendant has an Eighth Amendment right to have his or her
sentencer consider “any aspect of the defendant’s character and record or any
circumstances of his or her offense as an independently mitigating factor.” Id. at 607.
In Penry v. Lynaugh, 492 U.S. 302 (1989), the Supreme Court specifically held that
this rule gives a capital defendant the right to present evidence of mental deficiencies –
including deficiencies that can support the diagnosis of intellectual disability – to juries
sitting at the sentencing phase a capital case, as bearing on the jury’s “reasoned moral
response . . . in rendering its sentencing decision.” 492 U.S. at 328. The Supreme Court in
Atkins did not overrule this aspect of Penry. The Court held only that a capital defendant’s
right to submit evidence of intellectual disability to a sentencing jury in mitigation was
insufficient to satisfy the Eighth Amendment’s prohibition against excessive punishment,
and that the Eighth Amendment therefore required announcement of an additional rule that
“the mentally retarded should be categorically excluded from executions.” Atkins, 536 U.S.
at 318.

48

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

held that Sixth Amendment did not require a jury to find the specific findings underlying

precondition for the imposition of a capital sentence that “operates as the functional
equivalent of an element of a greater offense” exposing the defendant to a capital sentence.
Ring, 536 U.S. at 609 (quoting Apprendi v. New Jersey, 530 U.S. 466, 494, n. 19 (2000)).
Read together, the cases very clearly say that the Sixth Amendment jury trial right attached
to elements that are required to narrow the scope of the criminal offense. Atkins adds just
such an element. There the court stated: “Thus, pursuant to our narrowing jurisprudence,
which seeks to ensure that only the most deserving of execution are put to death, an
exclusion for the mentally retarded is appropriate.” Atkins, 536 U.S. at 319 (emphasis
added).
The Supreme Court in Atkins made it clear that allowing evidence of intellectual
disability in the mitigation phase was not sufficient to protect the rights of the intellectually
disabled. The Court found such due to the “risks” involved of a more severe penalty
because “defendants may be less able to give meaningful assistance to their counsel and
are typically poor witnesses, and their demeanor may create an unwarranted impression of
lack of remorse for their crimes,” as well as it being “a two-edged sword that may enhance
the likelihood that the aggravating factor of future dangerousness will be found by the
jury...a special risk of wrongful execution.” 536 U.S. at 320-21 (internal citations omitted).
The instructions in this case allowed a single holdout juror on the Atkins question to
prevent Mr. Johnson from receiving a life sentence, in spite of his intellectual disability.
The jury was repeatedly told they must be unanimous on the intellectual disability question,
49

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Thus, after Atkins and Ring, the absence of intellectual disability is a constitutional

then be considered without the requirement of unanimity. In addition, because the Eighth
Amendment no longer allows the intellectually disabled to be executed, the protection of
mitigation is insufficient, especially when the jury was repeatedly told that intellectual
disability must be found unanimously, which is not how mitigating circumstances are
found and actually require Mr. Johnson to meet a higher burden. See Penry, 492 U.S. at
346-47, overruled by Atkins, (Steven, J., dissenting) (“The consideration of mental
retardation as a mitigating factor is inadequate to guarantee, as the Constitution requires,
than individual who is not fully blameworthy for his or her crime because of a mental
disability does not receive the death penalty). Their very disability “jeopardize[s] the
reliability and fairness of capital proceeding.” Atkins, 536 U.S. at 306-07.
In State v. Jimenez, 924 A.2d 513 (N.J. 2007), the court examined the intersection
of the non-unanimity requirement for mitigating evidence and the Atkins decision. Id. at
515-16. The court held that the jury could not be required to find intellectual disability
unanimously:
We conclude that because mental retardation is a conclusive mitigating
factor, and because mitigating factors do not have to be found unanimously,
a unanimous jury finding of mental retardation is not required to preclude a
death sentence. Stated differently, if a single juror finds that a defendant has
met the burden of proof for mental retardation, the defendant shall not be
subject to a death sentence.
50

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

and it was never clarified in the instructions on mitigation that intellectual disability could

and Eighth Amendment jurisprudence which protects the individuality of jurors in regard
to their determination of mitigating factors. See also, Marla Sandys, Adam Trahan, &
Heather Pruss, Taking Account of the “Diminished Capacities of the Retarded”: Are
Capital Jurors up to the Task, 57 DePaul Law Review 679, 687 (2008) (noting that in
interviews done by the Capital Jury Project regarding the question of intellectual disability,
it was “abundantly clear” there was a “difficulty in convincing an entire jury that a
defendant is mentally retarded,” and that to the extent “the defendant’s mental retardation
was the reason to vote for life,” that decision was made by individual jurors, not the jury
as a whole).
By requiring Mr. Johnson to prove to the jury unanimously that he is intellectually
disabled, the jury instructions in this case allow the state to execute him even though it is
more likely than not that he is intellectually disabled. The instructions allow a single juror
to prevent Mr. Johnson from receiving the protection of Atkins, even if eleven jurors find
by a preponderance of the evidence that he is intellectually disabled. Given the categorical
ban placed upon the execution of the intellectually disabled in Atkins, these instructions
cannot withstand constitutional scrutiny.

51

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Id. at 515. This holds true to Atkins by protecting the intellectually disabled from execution

disability must be found unanimously before it could constitute
mitigation. This This approach violates long-standing Supreme
Court precedent.
The instructions in this case also mislead the jury into believing that if they did not
find that Mr. Johnson had proven his intellectually disability unanimously, they could not
individually use intellectually disability as an independent mitigating circumstance that
could also justify a life sentence. “[M]ental retardation for purposes of Atkins, and mental
retardation as one mitigator to be weighed against aggravators, are discrete issues.” Bobby
v. Bies, 556 U.S. 825, 829 (2009); see also Allen v. Buss, 558 F.3d 657, 662 (7th Cir. 2009)
(“[T]here is a difference between using mental retardation as a mitigating factor and
categorically excluding mentally retarded persons from the death penalty altogether. One
is a balancing test and the other is a ban.”) (citing Atkins, 536 U.S. at 320–21). The jury
was instructed that they must first make the intellectually disability decision, then the
aggravating factor decision, and then determine mitigating circumstances. There was no
clarification that intellectual disability could also be an independent mitigating
circumstance, that each juror, individually, could find proven and thus, support a life
sentence. See id. In fact, in instructing the jury on the specific mitigating circumstances
that they should consider, they were not instructed on intellectually disability, only that
they should consider whether Johnson was under “extreme mental or emotional
disturbance,” or that his capacity to conform his conduct to the law was “substantially
52

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

b. The jury instructions misled the jury into believing that intellectual

“any other facts and circumstances” they found mitigating, this came after they were
instructed multiple times that they must first determine unanimously whether Mr. Johnson
had proven his intellectual disability. This violates long-established rules about nonunanimity and the consideration of mitigating evidence.
In McKoy, the jury was instructed they could return a life sentence even if they did
not unanimously find any mitigating circumstance, but they were also instructed that a
mitigating circumstance did not exist unless it was found unanimously. 494 U.S. at 439.
The Supreme Court held these instructions violated the Constitution because “[t]he
unanimity requirement thus allows one holdout juror to prevent the others from giving
effect to evidence that they believe calls for a ‘sentence less than death.’” Id. Similarly,
Mr. Johnson’s jury was instructed that intellectual disability must be found unanimously
and the later instructions on mitigation did nothing to clarify that it could still be considered
as a mitigating circumstance that did not require unanimity. Thus, the instructions allowed
a lone juror to prevent Mr. Johnson’ intellectual disability from being given effect to as
mitigating evidence, something forbidden under McKoy.
Because established Supreme Court law requires the jury to be able to give effect to
mitigating circumstances that are not unanimously found, the instructions cannot allow a
fact to “become ‘irrelevant’ to mitigation merely because one or more jurors either did not
believe that the circumstance had been proved as a factual matter or did not think that the

53

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

impaired.” (Attachment S, p. 10). Although they were instructed that they could consider

instructions had that precise effect on the question of Mr. Johnson’s intellectual disability.
McKoy flowed from the Supreme Court’s prior decision in Mills, 486 U.S. 367,
which involved the interpretation of capital jury instructions on mitigation. The Mills Court
noted that “[i]n reviewing death sentences, the Court has demanded even greater certainty
that the jury’s conclusions rested on proper grounds.” Id. at 376. Although it was plausible
that the jury interpreted the instructions so as not to require unanimity in regard to
mitigating circumstances, “there [was] at least a substantial risk that the jury was
misinformed.” Id. at 381. Because the instructions may have led the jury to believe that
they could not give effect to a mitigating circumstance unless it was unanimously found,
the instructions could not survive constitutional scrutiny:
We conclude that there is a substantial probability that reasonable jurors,
upon receiving the judge's instructions in this case, and in attempting to
complete the verdict form as instructed, well may have thought they were
precluded from considering any mitigating evidence unless all 12 jurors
agreed on the existence of a particular such circumstance. Under our cases,
the sentencer must be permitted to consider all mitigating evidence. The
possibility that a single juror could block such consideration, and
consequently require the jury to impose the death penalty, is one we dare not
risk.

54

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

circumstance, though proved, mitigated the offense.” McKoy, 494 U.S. at 440-41. These

find intellectual disability before it could justify a life sentence for Mr. Johnson. Later
instructions did nothing to clarify that this was not the case.
A similar conclusion was reached in State v. Blackwell, 801 S.E.2d 713 (S.C. 2017).
There the court held that even though the jury had found that the defendant was not
intellectually disabled under Atkins, they still needed to determine whether the evidence
qualified as an independent mitigating circumstance:
the question remains how the jury should review evidence of mental
retardation in the event it finds the defendant is not mentally retarded. While
such a finding eliminates the absolute bar on the imposition of the death
penalty under Atkins, it does not negate the existence of evidence that may
establish a mitigating circumstance.
Id. at 734. The court went on to find that even though the defendant’s intellectual
functioning may not meet the diagnostic criteria for protection under Atkins, it still could
qualify as a mitigating circumstance. Id.
Although the jury was instructed that they could consider “any other facts and
circumstances” they found mitigating, this came after they were instructed multiple times
that they must first determine unanimously whether Mr. Johnson had proven his intellectual
disability. They received no instructions remedying this unanimity requirement as to the
existence of intellectual disability as a mitigating fact. This violates long-established rules

55

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Id. at 384. In this case, the instructions clearly told the jury that they had to unanimously

mitigating evidence.
c. Mr. Johnson’s claims regarding his intellectual disability are
appropriate for Rule 91 relief.
In Clay v. Dormire, 37 S.W.3d 214 (2000), this Court noted that Rule 91 relief is
allowed under the “manifest injustice” standard in capital cases for claims involving errors
committed during the sentencing process. Id. at 218. In doing so, the Court noted that they
were following the lead of the United States Supreme Court, which had more expansively
interpreted the term “actual innocence” in the context of the death penalty. Id. at 218 n.1.,
citing Sawyer v. Whitley, 505 U.S. 333, 345-47 (1992). Clay contrasted the relief available
to capital defendants in habeas corpus with the more limited nature of sentencing relief
available for non-capital defendants. Id. at 218.
In State ex rel. Koster v. McElwain, 340 S.W.3d 221 (Mo. Ct. App. W.D. 2011),
involving a Rule 91 petition, the lower court first held a hearing and determined that the
defendant, who had been convicted of murder, had established a gateway claim of
innocence, allowing procedurally defaulted claims to be reviewed and the writ of habeas
corpus to be granted. Id. at 229. On appellate review of that decision, the court noted that
“[a] writ of habeas corpus does not declare or determine the guilt or innocence of a
defendant. A writ of habeas corpus merely operates to vacate a conviction where principals
of justice and fundamental fairness require.” Id. at 232. The court rejected the State’s
argument as “erroneous” that a habeas court has no authority to address constitutional
56

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

from McCoy and Mills requiring non-unanimity and the unfettered consideration of

243.
The court noted that Missouri had chosen to follow the Supreme Court’s
jurisprudence in the federal habeas context, which allows habeas review when there has
been a miscarriage of justice. Id. at 243-44, citing Clay v. Dormire, 37 S.W.3d 214, 217
(Mo. banc 2000). Under that standard, the petitioner must show a constitutional violation
that has “probably resulted” in the conviction of someone who is innocent. Id. at 244, citing
Murray v. Carrier, 477 U.S. 478, 496 (1986). The court held that “[t]here is, therefore, a
procedural path which can permit a habeas court to consider procedurally defaulted
constitutional claims. . . . If a habeas record establishes a showing of the gateway of
innocence, then the habeas court is entitled to review the merits of all procedurally
defaulted claims of constitutional infirmity.” Id. at 245 (emphasis added).
The Supreme Court has held that in the context of the death penalty, actual
innocence encompasses death eligibility. Sawyer v. Whitley, 505 U.S. 333, 336 (1992). In
this realm, a large body of Eighth Amendment law had developed which aims to adopt
procedural safeguards which narrow the “class of offenders upon which the sentence is
authorized to impose the death penalty.” Id. at 341-42. The Supreme Court’s decision in
Atkins represents just such a narrowing safeguard. See Atkins, 536 U.S. at 319 (noting that
their decision to exempt the intellectually disabled from execution was “pursuant to our
narrowing jurisprudence.”). Sawyer specifically held that innocence of the death penalty
does not just encompass aggravating factors, but “that some other condition of eligibility
57

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

errors if the claims could have been raised at trial, direct appeal, or post-conviction. Id. at

him from the class of offenders that can be put to death, it renders him innocent of the death
penalty, allowing this Court to consider 1) the substantive question of his ineligibility for
the death penalty given his intellectual disability and 2) whether the jury was improperly
instructed that they had to unanimously find that Johnson was intellectually disabled.
In a similar procedural posture, where the capital petitioner was found not
intellectually disabled by a jury and had been denied relief on that claim in his first postconviction proceeding, the Texas Supreme Court nevertheless allowed a successive postconviction claim to proceed based upon intellectual disability and stayed the execution. Ex
parte Milam, No. WR-79,322-04 (Tex. Crim App. Jan. 15, 2021). The claim was remanded
to the trial court for a review of the claim on the merits. Id.
Mr. Johnson has presented enough evidence of intellectual disability to establish “a
gateway permitting review.” McElwain, 340 S.W.3d at 245. As outlined in this petition,
the State did not present testimony from a single expert at trial disputing his intellectual
disability, instead relying on specious arguments that played on stereotypes at odds with
the clinical understanding of intellectual disability and backdoor evidence from a nontestifying expert whose evaluation did not even come close to comporting with clinical
practice. If this Court feels that more fact-finding on the underlying question of intellectual
disability is required, this case should be remanded so that the ultimate question of Mr.
Johnson’s disability can finally be determined at an adversarial hearing where any opinion
of a State’s expert can be tested through cross-examination.
58

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

had not been met.” 505 U.S. at 345. Because Mr. Johnson’s intellectual disability excludes

claim of innocence of the death penalty and a presumptively prejudicial error in the jury
instructions on that question that has never been reviewed by any court. See McElwain 340
S.W.3d at 255-56 (holding that once a meritorious constitutional violation has been found
in habeas, the petitioner is entitled to the presumption of prejudice that “would have been
afforded to the defendant on direct appeal.”).
In McKim v. Cassady, 457 S.W.3d 831 (Mo. 2015), this Court also noted that Rule
91 habeas relief not only allows a gateway claim of actual innocence, but also a
freestanding claim of actual innocence. Id. at 842. Given that this Court has previously
pronounced it follows the Supreme Court’s definition of that term in terms of eligibility in
capital cases, McKim would also indicate that Mr. Johnson’s substantive claim of
intellectual disability also has a home in this court, as it is a freestanding claim of innocence
of the death penalty. See State ex rel. Amrine v. Roper, 102 S.W.3d 541 (Mo. 2003)
(holding that because the execution of an innocent person “is a manifest injustice, a habeas
petitioner under a sentence of death may obtain relief” upon a showing of actual innocence
alone, independent of any constitutional violation).
In Amrine, this Court specifically noted that continuing duty in death penalty cases
to avoid wrongful executions, in addition to wrongful convictions. Id. at 547. And although
following the lead of the Supreme Court in terms of defining “manifest injustice,” the Court
also noted that the state standard for relief for a freestanding claim of innocence is not

59

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Mr. Johnson has shown enough evidence of intellectual disability to show a gateway

affected by the federalism concerns that limit the federal courts’ jurisdiction.” Id. at 548.
More recently, in Edwards v. Steele, 533 S.W.3d 238 (Mo. Ct. App. E.D. 2017),
Rule 91 was relief was granted on the basis that the defendant, convicted of capital murder
at 17, was given a sentence that violated the Eighth Amendment, because the statutory
scheme prevented consideration of his youth and related circumstances. Id. at 240. Like
Johnson, Supreme Court developments in Eighth Amendment law made it appropriate to
consider his claim in habeas corpus. Id. at 241. Since Johnson’s claim was decided on direct
appeal and post-conviction, and as explained in this petition, the Supreme Court has
provided additional guidance which illustrates that the prior determination of intellectual
disability must be guided by the dictates of clinical practice, not lay stereotypes and
clinically inappropriate evaluations, as was done in Mr. Johnson’s case.
III.

MR. JOHNSON’S EXECUTION BY LETHAL INJECTION WILL CONSTITUTE
CRUEL

AND

UNUSUAL

PUNISHMENT

UNDER

THE

MISSOURI

CONSTITUTION
Due to a unique and specific medical condition of Mr. Johnson, there is a substantial
and unjustifiable risk that Missouri’s lethal injection protocol will affect Mr. Johnson
differently than an average, healthy inmate and will cause Mr. Johnson serious harm and
severe “pain akin to torture.” Johnson v. Precythe, -- U.S. --, 141 S.Ct. 1622, 1628 (2021)
(J. Sotomayor dissenting). Therefore, proceeding with the execution using the state’s

60

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

required “to impose a high a standard as would a federal court,” because “this Court is not

and unusual punishment. Mo. Const. art. I, § 21.
Mr. Johnson was diagnosed with an atypical parasagittal meningioma brain tumor
in 2008. He had a craniotomy surgical procedure in August 2008 where a portion of the
tumor was removed. The remaining portion of the tumor, however, could not be safely
removed and remains in Mr. Johnson’s brain. An MRI was conducted on Mr. Johnson’s
brain revealing the craniotomy procedure resulted in scarring tissue and a brain defect that
causes chronic medical problems.
There is a substantial and unjustifiable risk that the lethal injection drugs will trigger
uncontrollable and severely painful seizures and convulsions due to Mr. Johnson’s unique
brain defect and condition. Mr. Johnson seeks discovery and a hearing on the question of
whether the lethal injection procedure will constitute cruel and unusual punishment under
Mo. Const. art. I, § 21.
Jurisdiction is conferred by Rule 91.02 of the Missouri Rules of Civil Procedure
which provides that the Missouri Supreme Court may be the court of first instance where
the punishment is a sentence of death. Subject matter jurisdiction is conferred by McIntosh
v. Haynes, which provides that a prisoner may file a claim under Rule 91 pleading cruel
and unusual punishment due to the conditions of the punishment even if the detention itself
is deemed legal. 545 S.W.2d 647, 653 (Mo. 1977).

61

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

current protocol will violate the State of Missouri’s constitutional prohibition against cruel

Mr. Johnson suffers from an atypical parasagittal meningioma brain tumor. The
tumor was discovered in or about 2008. A meningioma is a tumor that arises from a layer
of tissue called the meninges that covers the brain and spine. A meningioma is typically
slow growing.
Mr. Johnson had a craniotomy surgical procedure on August 28, 2008, to remove a
portion of the meningioma. (Attachment O, ¶ 9). The entire meningioma could not be
removed during the craniotomy. Id. A portion of the tumor remains in Mr. Johnson’s brain.
Id.
The craniotomy procedure resulted in a hole in the skull of Mr. Johnson that is still
present. The craniotomy also resulted in a significant brain defect as a portion of Mr.
Johnson’s brain has been removed or compressed due to the existence of the tumor and the
craniotomy procedure. This defect is depicted as a dark space or a hole in the brain.
(Attachment O, ¶ 6).
An MRI documents a brain defect and scarring tissue in an area of the brain
responsible for the movement and sensation of the legs. The remaining portion of the
meningioma, the scarring tissue, and the brain defect can create disrupted areas of electrical
brain activity manifesting as violent and uncontrollable seizures. (Attachment O, ¶ 10).
Since the surgical procedure, Mr. Johnson has been diagnosed with a seizure disorder,
epilepsy. Id. Medical records document Mr. Johnson being prescribed anti-seizure

62

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

a. Mr. Johnson’s Medical Condition

seizures. Id.
The administration of the lethal injection drug pentobarbital creates a substantial
and unjustifiable risk that violent and uncontrollable seizures could be triggered during the
execution due to the lethal injection drugs’ interaction with the remaining meningioma,
scarring tissue, and brain defect. (Attachment O, ¶ 14). There is a substantial and
unjustifiable risk that such violent and uncontrollable seizures will result in a severely
painful and prolonged execution in light of Mr. Johnson’s specific and unique medical
condition. Id.
b. Missouri’s Lethal Injection Protocol
Missouri’s lethal injection protocol calls for the administration of 5 grams of
pentobarbital, divided into two syringes, and administered through an IV line into the
execution chamber, where the prisoner is alone and strapped to a gurney. No medical
personnel are close at hand, and the prisoner is monitored remotely from the execution
support room. Although medical personnel insert the IV lines at the outset, the lethal drug
itself is injected by non-medical personnel pushing syringes into the IV line at a
predetermined flow rate.
Pentobarbital is a drug within the barbiturate class and is the agent that will be used
in the Missouri lethal injection protocol. (Attachment O, ¶ 12). All barbiturates are derived
from the parent compound barbituric acid. Id. Relevant properties of barbiturates have a
variety of effects on the central nervous system that include both excitatory and inhibitory
63

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

medications due to his condition. Id. His brain defect, scarring, and tumor cause these

certain portions of the brain. Id.
Methohexital is in the barbiturate class and is a close cousin to pentobarbital as it
shares a common central molecular structure. Methohexital is commonly used in
electroconvulsive therapy (ECT) which is a treatment for intractable depression.
(Attachment O, ¶ 12). The ECT procedure requires producing a seizure for a brief and
controlled duration. Id. This procedure is repeated on at least 10 separate occasions. Id.
During the induced seizure, brief unconsciousness is necessary as the seizure is painful and
disturbing. Id. In extensive research, methohexital has been shown to intensify and prolong
seizures and is the drug of choice for ECT procedures. Id. Methohexital and other
barbiturates have been shown to produce seizures in individuals without an underlying
seizure disorder or epilepsy. Id. In individuals with pre-existing epilepsy, the production
of a seizure is even more certain and more likely to occur when the brain is exposed to the
barbiturate because it is a seizure-producing drug. Id.
The procedure itself begins with the insertion of the IV lines, one in each arm (or a
central line in the femoral, jugular, or subclavian vein if venous access in the arms is
limited). (Attachment W, p. 1). About 15 to 30 minutes before the lethal drug is injected, a
saline solution, which has historically been colored with methylene blue (or another dye)
is injected into the prisoner to determine if the lines are clear. Id. The gurney is position so
medical personnel can remotely observe the prisoner’s face, directly, “or with the aid of a

64

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

states. Id. A barbiturate acts by depressing the central nervous system, particularly on

Id.
Non-medical personnel administer the lethal drugs through syringes into the IV
lines. (Attachment W, p. 2). After the administration of the initial 5 grams of pentobarbital,
the non-medical personnel flush the IV lines with saline and methylene blue. Id. Shortly
thereafter, the execution chamber’s curtains are closed, and medical personnel check the
prisoner to determine if he is deceased. Id. If the prisoner is not dead, then non-medical
personnel inject an additional 5 grams of pentobarbital through two additional syringes. Id.
During the administration of the lethal drug, no one is present in the execution
chamber other than the prisoner and no medical personnel are at hand. The prisoner is
monitored only remotely from the execution support room. The members of the execution
team only enter the execution chamber when the curtains are closed to determine if the
prisoner has died. This check is performed after the administration of the first injection of
pentobarbital, and then again if a second injection is needed.
If the prisoner does not die after the administration of 10 grams of pentobarbital,
Missouri’s protocol provides no further guidance. (Attachment W). The protocol is
completely silent as to what procedures should be followed in the event the lethal drugs
trigger uncontrollable seizures. Id. If the prisoner is not killed by the execution, there is no
protocol or equipment for resuscitating the prisoner. Id. If the execution is halted and the
prisoner remains alive, the State of Missouri must resume medical care of the prisoner, as
it is obligated to do under Article 1 §§ 10 and 21 of the Missouri Constitution.
65

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

mirror.” Id. at 2. Medical personnel monitor the prisoner remotely during the execution.

production of such a seizure is even more certain and more likely to occur when the brain
is exposed to drugs that have been shown to produce and promote seizures. (Attachment ),
¶¶ 12-14). A seizure-promoting compound like pentobarbital will increase the likelihood
of a seizure with a very high degree of probability. Id. at ¶ 15.No medical personnel will
be at hand, instead, the personnel will be watching from the execution support room, unable
to lend any medical aid to Mr. Johnson in the event of a seizure. Missouri’s protocol is
grossly inadequate to address the significant risks to Mr. Johnson during an execution, risks
that could cause an excruciating and severely painful procedure.
c. Affidavit of Dr. Joel Zivot
Dr. Joel Zivot is a highly trained, board-certified physician. He serves as an
associate professor and senior member of the Department of Anesthesiology and Surgery
at Emory University School of Medicine in Atlanta, Georgia. (Attachment O, ¶¶ 1-3;
Attachment P). He holds board certifications in Anesthesiology and Critical Care
Medicine. Id. Dr. Zivot has practiced anesthesiology and critical care medicine for 20 years
and has personally performed, or supervised, the care of over 40,000 patients. (Attachment
O, ¶ 2). Dr. Zivot has reviewed the medical records for Mr. Johnson and traveled to Potosi
Correctional Center to examine Mr. Johnson in person. Id. at ¶ 5.
Upon physical examination, Dr. Zivot observed a large scar on Mr. Johnson’s head
from the prior cranial surgery. Id. ¶5. Dr. Zivot observed that Mr. Johnson’s right leg was
weaker than his left leg and he had hyperreflexia on the deep tendon reflexes of his right
66

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

In individuals with pre-existing epilepsy or a seizure disorder, like Mr. Johnson, the

Zivot observed a small hole in the top of Mr. Johnson’s skull. He also observed a black
region in the brain area that represents missing brain tissue. Dr. Zivot estimates that the
total quantity of the brain is 15 to 20%. The brain defect is irreversible. Id at ¶ 6. Mr.
Johnson’s brain defect is in the region of the brain responsible for movement and sensation
of the legs. (Attachment O, ¶ 7). This corresponds with Mr. Johnson’s complaints and
physical observations about leg weakness, imbalance, and hyperreflexia. Id. at ¶ 8. The
brain defect will not improve over time and the associated weakness and imbalance will
not improve. Id.
Dr. Zivot also observed that Mr. Johnson has a seizure disorder which is a direct
result of the brain surgery. Id. at ¶ 10. According to Dr. Zivot, scar tissue in the brain and
the brain defect creates disrupted areas of electrical brain activity. Id. Based on his review
of Missouri’s execution protocol and Mr. Johnson’s medical records and images, Dr. Zivot
opines that the use of pentobarbital will increase the likelihood of a seizure in Mr. Johnson
with a very high degree of probability. Id.
A drug-induced seizure would likely manifest as a violent shaking of the legs which
can then spread to the rest of the body and then produce unconsciousness. The seizure may
be self-limiting or could last for a prolonged period of time. Outwardly, the seizure is
striking and an alarming event that is seen as a total body shaking and straining. During
such a seizure, physically restraining a seizing individual is very difficult and will not result

67

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

leg. Id. ¶5. Upon his review of the medical records and MRI images for Mr. Johnson, Dr.

disorientation. Id.¶ 11.
Based on the condition of Mr. Johnson, which includes his brain tumor, brain defect,
and scarring, a substantial risk of serious harm will occur during his execution as a result
of a violent seizure that is induced by pentobarbital. Id.¶ 14. The use of pentobarbital during
the execution protocol significantly increases the likelihood that a seizure will occur in Mr.
Johnson. Pentobarbital, a drug in the barbiturate class, produces a variety of effects on the
central nervous system of the patient. A similar drug, Methohexital, a barbiturate and close
cousin of pentobarbital, is used in electroconvulsive therapy to produce seizures in a
patient. Methohexital is known to induce seizures in patients without pre-existing seizure
disorders as seen in Mr. Johnson. In patients like Mr. Johnson, with a known pre-existing
seizure disorder, the introduction of the barbiturate to the body is even more certain and
more likely to produce a seizure in the patient. Mr. Johnson’s seizure disorder creates a
unique and substantially important risk that is significantly increased when exposed to any
drug that promotes seizures. Mr. Johnson’s seizure threshold is substantially lower than the
general population and any further lowering of that threshold will increase the likelihood
of a seizure with a very high degree of probability. Further, pentobarbital cannot reduce
pain and is known to exaggerate pain or make it worse. Thus, the drugs used by the state
of Missouri to execute prisoners have a unique capacity, in this case, to substantially
increase the likelihood of a severely painful execution of Mr. Johnson. Id. at ¶¶ 10, 12, 14.

68

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

in a resolution of the seizure. Such seizures can result in significant muscle pain and

Johnson cannot be dismissed because Mr. Johnson has a pre-existing seizure disorder. Due
to the unique medical condition of Mr. Johnson, the use of pentobarbital in a person with
a pre-existing seizure disorder increases the likelihood of a resulting seizure to a very high
degree of probability.
d. The prior federal litigation indicates that Mr. Johnson has a
colorable claim in state court.
There has been an extensive litigation of the lethal injection claim in federal court,
resulting in stays and remands stretching over a number of years. Of critical importance to
this Court is the most recent and dispositive finding by the Eighth Circuit not disturbed by
the Supreme Court’s denial of certiorari.
The Eighth Circuit most recently found that due to his medical conditions and
interaction with the execution drugs “Johnson raised a plausible allegation that the State’s
method of execution will cause severe pain.” Johnson v. Precythe, 954 F.3d 1098, 1101
(8th Cir. 2020). However, the Eighth Circuit denied Mr. Johnson’s claim on the basis that
he did not plead an appropriate alternative execution method and denied him the right to
amend his original pleading. Id. at 1104.
Mr. Johnson then filed a writ of certiorari with the Supreme Court appealing this
decision and certiorari was denied on May 24, 2021, in a 6-3 decision. Johnson, 141 S. Ct.
1622. The State did not contest that Mr. Johnson “raised a plausible allegation that the
State’s method of execution will cause severe pain.” Johnson, 141 S.Ct. at 1628
69

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Dr. Zivot also opines that the risk of a pentobarbital seizure in the case of Mr.

indicating the acceptance of the plausibility of the claim of cruel and unusual punishment
still stands: “Johnson has plausibly pleaded that, if he is executed using pentobarbital, he
will experience pain akin to torture. Those factual allegations must be accepted as true at
this stage of the litigation.” Johnson, 141 S.Ct. at 1628 (Sotomayor, J., dissenting).
Because Missouri does not require Mr. Johnson to plead an alternative method of
execution, the Eighth Circuit’s finding that he had plead a plausible claim should also hold
true in this court. To the extent this Court would require Mr. Johnson to plead an alternative
method of execution, Mr. Johnson alleges that execution by firing squad is an acceptable
alternative method. To the extent that requiring an alternative method would be a new
pleading requirement, Mr. Johnson would request an opportunity to address that issue
further.
Although the source and efficacy of the drugs used in Missouri’s lethal injection
protocol is unknown (whether manufactured in a controlled laboratory setting as authorized
by the United States government or obtained through a compounding pharmacy), the use
of the lethal injection drugs used by the Missouri Department of Corrections under its
current protocol creates a substantial and unjustifiable risk that Mr. Johnson will suffer a
severely painful execution by the triggering of violent and uncontrollable seizures and
convulsions, which constitutes cruel and unusual punishment in violation of Article 1 §§
10 and 21 of the Missouri Constitution.

70

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

(Sotomayor, J., dissenting). Justice Sotomayor wrote a dissent to the denial of certiorari

1 § 10 of the Missouri Constitution in not being executed by the State in violation of the
Cruel and Unusual Punishment clause of Article 1 § 21 of the Missouri Constitution. Mr.
Johnson’s allegations, if taken as true, would constitute cruel and unusual punishment per
the Eighth Circuit’s ruling in Johnson, 954 F.3d 1098. He, therefore, has satisfied
requirements to state a claim upon which relief can be granted and is entitled to have the
merits of the claim heard per this Court’s ruling in McIntosh v. Haynes, 545 S.W.2d 647,
653 (Mo. 1977).
If not enjoined by the Court, the Defendants and their agents, representatives, and
employees will violate Plaintiff’s right to be free from cruel and unusual punishment as
guaranteed by Article 1 §§ 10 and 21 of the Missouri Constitution. This course of conduct
will cause Plaintiff to suffer irreparable injury. Plaintiff does not have a plain, speedy, and
adequate remedy at law for such an injury. Accordingly, injunctive relief is appropriate.
This issue should also be remanded to a Special Master for further factual development on
this question.
IV.

CONCLUSION

Mr. Johnson requests that the Court grant his habeas writ. Alternatively, Mr.
Johnson requests this Court withhold setting an execution date and remand this case to a
Special Master for factual development on the question of 1) his intellectual disability and
2) whether given his unique medical condition, the lethal injection protocol will cause a
cruel and unusual execution. Alternatively, this case should be remanded for a new
71

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

Mr. Johnson has a life and liberty interest under the Due Process Clause of Article

Mr. Johnson is allowed to cross-examine any State experts who opine that he is not
intellectually disabled. Given the clear and overwhelming evidence of his intellectual
disability when the determination is guided by science and clinical standards, this Court
must act to ensure that an intellectually disabled man is not executed by the State of
Missouri.
Respectfully submitted,
/s/ Jeremy S. Weis
Laurence E. Komp, #40446
Jeremy S. Weis, #51514
Federal Public Defender’s Office
Capital Habeas Unit
1000 Walnut, Suite 600
Kansas City, MO 64106
T: 816 471.8282
F: 816.471.8008
E: Laurence_Komp@fd.org
E: Jeremy _Weis@fd.org
COUNSEL FOR PETITIONER

72

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

sentencing proceeding where the jury is properly instructed on intellectual disability and

I hereby certify that on the 21st day of June, 2021, this writ petition and all
attachments were filed via the Missouri e-filing system, and a true and correct copy was
served on Respondent's counsel, Assistant Attorney General, Mr. Gregory Goodwin, via
electronic mail (gregory.goodwin@ago.mo.gov) by undersigned counsel.
/s/ Jeremy S. Weis
Attorney for Petitioner

73

Electronically Filed - SUPREME COURT OF MISSOURI - June 21, 2021 - 04:25 PM

CERTIFICATE OF SERVICE

Appendix N

ERNEST JOHNSON,
Petitioner,
v.
ANNE PRECYTHE, Director,
Missouri Dept. of Corrections,
Respondent.

)
)
)
)
)
)
)
)
)
)

Case No. SC99176
THIS IS A DEATH PENALTY CASE
EXECUTION DATE – OCT. 5, 2021

PETITIONER ERNEST JOHNSON’S MOTION FOR REHEARING OF THE
RULE 91 PETITION AND REQUEST FOR STAY OF EXECUTION
COMES NOW Ernest L. Johnson, Petitioner herein, and moves this Honorable
Court for rehearing of his Rule 91 petition and his request for a stay of execution. In this
motion, Mr. Johnson sets forth the material matters of law and fact that have been
overlooked or misinterpreted by the Court, in accordance with Mo. S.Ct. Rule 84.17(a).
Mr. Johnson requests this case be remanded to a Special Master pursuant to Rule 8.03 so
credibility determinations can be reliably made, and any State witnesses and evidence
relied on by this Court may be subjected to cross-examination. The appointment of a
Special Master is a necessary step in having a meaningful adversarial process to determine
Mr. Johnson’s intellectual disability claim. Panetti v. Quarterman, 551 U.S. 930, 952
(2007) (by failing to provide a hearing on a competency claim, the state court prevented
the petitioner from “obtaining a constitutionally adequate opportunity to be heard.”). This
process would allow the Special Master to appoint independent experts, hear evidence
subject to the adversarial process, and provide for a reliable determination of Mr. Johnson’s
1

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

IN THE SUPREME COURT OF MISSOURI

these factual determinations are made by the Special Master.
I.

INTRODUCTORY STATEMENT.
The Court’s August 31, 2021, opinion is replete with legal and factual errors that

compel Mr. Johnson to file this motion and to renew his request for immediate relief. Mr.
Johnson’s motion is focused on Claims I and II of his Rule 91 petition. This Court’s opinion
should be withdrawn and relief granted for the following reasons:
 This Court’s overemphasis of the facts of the crime is counter to the
clinical approach and was applied in manner inconsistent with Supreme
Court precedent.
 This Court deviated from the clinical standards adopted by the United
States Supreme Court and utilized by experts throughout the world by
applying legal and factual hurdles that reach an unreliable intellectual
disability determination.
 This Court credited Dr. Heisler’s report even though it was never
admitted into evidence, Dr. Heisler did not testify and subject his
conclusions to the adversarial process, and Dr. Heisler failed to abide by
accepted clinical practices calling into question his overall assessment of
Mr. Johnson.
 This Court misapprehends the statement in the DSM-5, at p. 38, which
discusses the relation between the intellectual functioning prong and the
2

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

intellectual disability claim. Mr. Johnson also requests that his execution be stayed while

removed from the DSM-V-TR because of the danger it is being misused
in contexts such as this, to prevent recognition of the disability in
individuals who meet the diagnostic criteria.
 This Court held the jury made a factual finding regarding intellectual
disability even though the verdict form merely indicates the jury could
not reach a unanimous conclusion whether Mr. Johnson was intellectually
disabled. See Slip Op. p. 5. 1
These issues provide substantial justification for this Court to withdraw its August
31, 2021 opinion and to order immediate relief to avoid executing an intellectually disabled
man in violation of the Eighth and Fourteenth Amendments to the constitution.

1

Mr. Johnson notes that if the Court is correct there must have been an Eddings v.

Oklahoma, 438 U.S. 586 (1978) error. If the finding of non-ID meant the jury did not find
it to exist, then it could not then have been considered as mitigation. The instructions did
not distinguish the consideration as an eligibility factor versus a mitigating factor.
3

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

adaptive behavior prong. This language is in the process of being

ARGUMENT IN SUPPORT OF REHEARING
A. THIS COURT OVEREMPHASIZED THE FACTS OF THE CRIME IN
DIRECT

CONTRAVENTION

OF

THE

SUPREME

COURT’S

DECISION IN ATKINS V. VIRGINIA, MOORE v. TEXAS (I), AND
MOORE V. TEXAS (II)
In this Court’s opinion, it relies heavily on the facts of the crime to reach its finding
that Mr. Johnson is not a person with intellectual disability. See, e.g., Slip Op. p. 12 (noting
the facts of the crime “illustrate Johnson’s ability to plan, strategize, and problem solve –
contrary to a finding of substantial subaverage intelligence.”). However, this reliance
mirrors the error committed by the Texas state courts in applying the “Briseno factors.”
Moore I, 137 S. Ct. at 1046 n. 6 (the final Briseno factor posed was “did the commission
of the offense require forethought, planning, and complex execution of purpose.”) The
United States Supreme Court condemned the Briseno factors and described them as “an
outlier” because they deviated so substantially from the accepted clinical practices. Moore
I, 137 S. Ct. at 1052.
While there were dissents in Moore I, Moore II noted the Court was unanimous in
rejecting reliance on such factors:
Three Members of this Court dissented from the majority’s treatment
of Moore’s intellectual functioning and with aspects of its adaptivefunctioning analysis, but all agreed about the impropriety of the Briseno
factors. As THE CHIEF JUSTICE wrote in his dissenting opinion, the Briseno
factors were “an unacceptable method of enforcing the guarantee of Atkins”
4

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

II.

analyze adaptive deficits.” Moore, 581 U. S., at ___, 137 S. Ct. 1039, 197 L.
Ed. 2d 416, at 431-432 (opinion of ROBERTS, C. J.).
139 S. Ct. at 669-70. Moore II again reversed the state court for its continued reliance on
the facts of the crime Briseno factor. Id. at 671. “Emphasizing the Briseno factors over
clinical factors, we said, “‘creat[es] an unacceptable risk that persons with intellectual
disability will be executed.’” Id. at 669 (citation omitted).
Criminal behavior is considered maladaptive behavior and because there are no
objective norms for its consideration, it should not be considered in the diagnostic process.
See Brumfield v. Cain, 808 F.3d 1041, 1047 (5th Cir. 2015) (in upholding the lower court’s
finding of intellectual disability, the court credited expert testimony explaining that the
presence or absence of maladaptive behavior “is not relevant to the diagnosis of intellectual
disability.”). The Atkins ban exists because the intellectually disabled commit crimes,
sometimes violent crimes. However, overemphasis on the facts of the crime is at odds with
established clinical science. See Van Tran v. Colson, 764 F.3d 594, 608-609 (6th Cir. 2014)
(“[T]he sophistication of the crime and Van Tran’s role in it are mostly irrelevant to the
very narrow, clinically defined question of whether Van Tran suffers a deficit in the area
of functional academics.”); see also Hooks v. State, 126 P.3d 636, 644 (Okla. Ct. Crim
App. 2005) (“individual acts of violent crime, such as armed robbery or rape, require little
or no abstract thought or complex planning.”)

5

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

and the Texas Court of Criminal Appeals “therefore erred in using them to

robbery that resulted in the fatal shooting of a store clerk. Moore I, 137 S. Ct. at 1044. In
Moore I, the Texas courts relied upon Moore’s ability to commit “the crime in a
sophisticated way.” Id. at 1047. After the remand from the United States Supreme Court,
the Texas courts again relied heavily on the facts of the crime to justify its finding that
Moore was not intellectually disabled. Moore II, 139 S.Ct. at 671. The Supreme Court
again reversed this finding because it was based so heavily on lay stereotypes about what
the intellectually disabled can do, in contrast with established science. Id. at 672.
In the original district court proceedings in Brumfield v. Cain, 854 F.Supp.2d 366
(M.D. La. 2012), in which the district court found Brumfield to be intellectually disabled,
the court ably noted why a heavy reliance on the facts of the crime is at odds with the
clinical science:
The reasons for not using maladaptive criminal behavior to assess adaptive
skills are several: (1) the defendant may have gullibly acted under the
direction or training of a confederate during the crime; (2) there may not be
available enough accurate details about the facts of the crime from which to
draw adaptive conclusions; and (3) in any event, there is a lack of normative
information about actions during and following crimes to be able to
meaningfully assess whether and how much a defendant's actions deviated
from the mean adaptive behavior during criminal acts.
Id. at 394. Although these findings were overturned by the Fifth Circuit Court of Appeals
in Brumfield v. Cain, 744 F.3d 918 (5th Cir. 2014), that decision was itself overturned by
6

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

The facts of the crime in Moore closely resemble Mr. Johnson’s crime – a botched

the Fifth Circuit upheld the grant of habeas relief based upon intellectual disability.. See
Brumfield v. Cain, 808 F.3d 1041 (5th Cir. 2016).
This Court relied on evidence of Mr. Johnson’s crime to rebut his claim of
intellectual disability, Slip Op. p. 11, but there is nothing in the facts of this crime that are
at odds with a finding of intellectually disability and this Court’s overreliance on these
facts violate well-established clinical standards. See TASSE, MARC J. AND BLUME, JOHN
H., Intellectual Disability and the Death Penalty: Current Issues and Controversies, p. 101
(2018). The concern among clinical practitioners is that prosecutors will cherry pick the
facts of the crime to “feed into misconceptions and misunderstandings of judges and
jurors.” Id. This Court engaged in this sort of cherry picking of facts to undermine
Johnson’s diagnosis of intellectual disability.
This Court relied on Johnson’s acquisition of a firearm to infer he had a
premeditated plan for the crime. Slip Op. p. 2. While Mr. Johnson did obtain a firearm prior
to robbing the store, the crime was committed with three different weapons, but only the
firearm was brought to the scene in advance. Id. The other two weapons were grabbed in
the frenzy of the moment and undermine efforts to characterize the crime as well-planned.
Id. This Court also neglects to mention the firearm was provided by Rod Grant, Ernest’s
drug dealer, and that Grant had to show Mr. Johnson how to use the weapon and provided
him with only a single bullet. (Tr. Vol. 10, pp. 2148-2154). These facts demonstrate
Johnson’s lack of sophistication as well as how easily he was led by others. The crime itself
at best demonstrates, as this Court held, a plan to rob to support a drug habit, and nothing
7

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

the United States Supreme Court in Brumfield v. Cain, 576 U.S. 305 (2015). On remand,

all but one employee in the back room and having the remaining employee open the safe”);
Slip Op. 12 (“…rob the Casey’s because he needed more money to purchase cocaine…”).
This Court also describes a plan, “wearing layers of clothing,” in order to escape
detection upon fleeing the scene. Slip Op. pp. 2, 12. But Mr. Johnson then walked a wellworn path from Casey’s to his home and walked in the home with the same clothes in front
of witnesses. Id. Thus, the clothing and the evidence was brought home; and the purpose
of escaping detection was unquestionably thwarted. As this Court notes, Johnson was
arrested a day later and immediately contradicted his own alibi. Slip Op. p. 3.
Thus, even if the crime were to be considered, it should be assessed for what it is –
a botched robbery that led to murders to fuel a drug habit. See, e.g., Black v. Bell, 664 F.3d
81 (6th Cir. 2011) and State v. Black, 815 S.W.2d 166, 173 (Tenn. 1991) (intellectually
disabled defendant convicted of triple homicide; hid the firearm to avoid detection);
Hughes v. Epps, 694 F.Supp.2d 533, 536-37 (N.D. Miss. 2010) (intellectually disabled
defendant sought to hide the body of his victim and the clothing worn during the murder).
Even if it was proper to consider the facts of the crime, and it is not, this crime at best
illustrates a “difficult[y] in planning and implementation” of a plan to rob that tragically
went awry. Intellectual Disability: Definition, Diagnosis, Classification, and Systems of
Supports at p. 26 Table 3.1 (12th ed. 2021) (emphasis added). It is also important to
contextualize Johnson’s conduct in relation to a child with the same level of intellectual
functioning. Most adults with intellectual disabilities can achieve reading, arithmetic, and
writing skills equivalent to a 5th or 6th Grader. See Tasse, M.J., p. 102. A child of that age
8

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

else. Slip Op. p. 2 (“confided to Rodriquez his plans to hold up a convenience store, locking

surprising or indicative of special skills, that Mr. Johnson would be capable of committing
a crime even with his significant limitations. The Supreme Court recognized these issues
in twice reversing the Fifth Circuit in Moore I and II for overreliance on the facts of the
crime when assessing Moore’s intellectual disability.
B. THIS

COURT’S

RELIANCE

ON

DR.

HEISLER’S

CLINICALLY

INCORRECT ASSERTION, MADE OUTSIDE THE ADVERSARIAL
PROCESS, THAT JOHNSON WAS MALINGERING ON THE IQ TEST.
This Court ignored its own evidentiary rules to credit references to a clinical report that has
never been admitted into evidence and authored by a clinician who the State chose not to
call as a witness to defend his conclusions. Slip Op. 11. Dr. Gerald Heisler was retained by
the State to conduct a clinical exam of Mr. Johnson in preparation for a sentencing hearing.
Dr. Heisler authored a report, but the State chose not to call him as a witness. Instead, the
State merely asked questions of Mr. Johnson’s retained expert, Dr. Keyes, about Heisler’s
conclusions. This approach allowed the State to avoid subjecting Dr. Heisler to crossexamination while injecting his conclusions into the trial court record. But Heisler’s report
was not introduced as evidence and the prosecutor’s questions were not substantive
evidence. This Court, though, treated the Heisler’s report and its untested conclusions as
substantive evidence and as though it had been admitted and subjected to the same scrutiny
given to Dr. Keyes report. This approach violated this Court’s own long-held evidentiary
standards and, most importantly, relied on a report that rejected nearly every clinically
accepted practice for the diagnosis of intellectual disability. See Bruflat v. Mister Guy, Inc.,
9

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

“has the ability lie, hide, plot, and deceive to get out of trouble.” Id. It is not, therefore,

Big Boy Steel Erection, 121 S.W.3d 220 (Mo. 2003) (“a testifying expert cannot be a mere
conduit for another non-testifying expert. The testimony of the expert who merely acts as
a conduit for another expert’s opinion is hearsay and inadmissible.”)(citations omitted).
This Court credited Heisler’s untested conclusions while at the same time rejecting the
conclusions of Dr. Keyes and Martell who offered different conclusions. Slip Op. pp. 12,
14-15. There is no legal or rational basis for the Court to accept one opinion while
immediately discrediting the others. This Court’s approach is in error; Mr. Johnson
satisfied the pleading requirement and given the conflicting clinical reports, this Court
should order an evidentiary hearing.
Dr. Heisler’s conclusion that Mr. Johnson was malingering is inconsistent with his
own data and based solely on the subjective opinion of a technician. Dr. Heisler did not
administer an IQ test to Mr. Johnson and instead relied on another individual, Sonny
Bradshaw, to conduct the testing. Mr. Bradshaw reported to Dr. Heisler he believed Mr.
Johnson was malingering, but his opinion was based solely on his subjective impression
and not on an objective testing instrument. More importantly, Mr. Bradshaw’s data from
the IQ test – a test that included an imbedded test to measure the test taker’s effort –
objectively demonstrated Mr. Johnson was giving sufficient effort to validate the testing
data. See Attachment H to Rule 91, p. 31. Thus, Bradshaw’s subjective opinion about Mr.
Johnson’s malingering – a conclusion adopted by Heisler and this Court – was without any
support in the record and should not have been relied on to invalidate the IQ test results.

10

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

933 S.W.2d 829, 833 (Mo. App. W. D. 1996), overruled on other grounds by Hampton v.

embedded test of effort in the test or completely failed to mention it in their assertion that
Mr. Johnson was malingering. See Att. Y to Rule 91 at 14 (noting that Mr. Bradshaw had
never taken a course on administering or interpreting the WAIS or any other IQ test); Anne
L. Shandera, et. all, Detection of Malingered Mental Retardation, PSYCHOLOGICAL
ASSESSMENT, Vol. 22, No. 1, 50 (2010) (“Psychologists conducting evaluations in
forensic settings must address the possibility of malingered symptoms using objective
procedures.”). Thus, it was error for this Court to even reference malingering – when in
fact the scientific evidence was that no malingering occurred.
One of the reasons Mr. Johnson requested this case be remanded for additional
factual findings by a Special Master is that Dr. Heisler’s conclusions were never subjected
to cross-examination. The objective measures of validity on the IQ test Bradshaw gave, as
well as Mr. Johnson’s consistency in IQ scores over the years, rebuts any subjective
assertion of malingering. See United States v. Nelson, 419 F.Supp.2d 891, 903 (E.D. La.
2006) (“It is simply impossible for the Court to conclude that Nelson has been malingering
since age 11 and has been able to manufacture the identical testing pattern for all those
years.”). Further, the objective measures then and now, universally rebut any failure of
effort on Mr. Johnson’s behalf.

11

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Both Dr. Heisler and Mr. Bradshaw either failed to recognize there was an

Martell’s and Dr. Adler’s credibility,2 can be reliably judged by a factfinder and their
testimonies can be challenged through the rubric of cross-examination. Dr. Heisler has
never been challenged with the fact that the embedded validity testing given by Mr.
Bradshaw belies any assertion of malingering.
For those practitioners who have little or no clinical experience with the
intellectually disabled, “[m]alingering may be suspected because of confusion related to a
combination of psychiatric symptoms, neurological symptoms, and cognitive deficits. . .”

2

This Court rejected Dr. Adler’s testimony in a sentence due to Mr. Johnson’s “incentive

to produce results indicating intellectual disability.” Slip Op. 15. The State of Missouri
never argued this point because there is no factual basis to support such a conclusion.
Indeed, it is hard to imagine how Mr. Johnson could manipulate the results of a brain scan
to demonstrate he suffers from intellectual disability. The data obtained from a QEEG is
inherently objective. While the State might attempt to object to Dr. Adler’s conclusions
based on his reading of the data, this has nothing to do with Mr. Johnson’s alleged incentive
to produce specific results from the QEEG. Similarly, Dr. Martell administered specific
testing to measure effort and those tests demonstrated proper effort by Mr. Johnson and
validated the overall data. See Attachment H at 25. To the extent this Court credits Heisler’s
conclusions, the data from Drs. Adler and Martell represent clinically significant data
warranting the appointment of a special master to assess the credibility of the conflicting
evidence.
12

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

A remand for factual finding is appropriate so Dr. Heisler’s credibility, and Dr.

270. “[A] defendant cannot readily feign the symptoms of mental retardation.” Newman v.
Harrington, 726 F.3d 921, 929 (7th Cir. 2013); Smith v. Sharp, 935 F.3d 1064, 1081 (10th
Cir. 2019) (citation omitted). Mr. Johnson’s consistent IQ scores over the years belie an
assertion of malingering and it is significant that he obtained the exact same IQ score on
his testing with Dr. Keyes: “it is extremely unlikely that a person with Mr. Johnson’s
history of adaptive deficits could ‘fake’ on two IQ tests a year apart and be able to obtain
the exact same score.” Rule 91 Pet, Att. H at 30. Instead, Mr. Johnson’s history of IQ
scores, over a 51-year time span, indicate overwhelming proof that he fits the first prong
of the diagnosis. See id. at 30 (noting that the consistency of scores indicates a case of
convergent validity on IQ).
C. THIS

COURT

MISAPPREHENDS

THE

IQ

SCORES

IN

THE

CONSIDERATION OF THE INTELLECTUAL FUNCTIONING PRONG.
In finding that Mr. Johnson did not to meet this prong, this Court proceeded from a
flawed premise. This Court noted that on the previously acceptable IQ scores, “only one
(out of four valid scores) that would indicate significant subaverage intelligence.” Slip Op.
11. While a simple math error, it is a dramatic substantive error. Applying science, only
one of these four scores does not indicate significant subaverage intelligence. Stated
another way, three out of four tests administered fully fall within the range of intellectual
disability.
1. The Court references the 77 in 1968. This was adjusted downward to
a 71 due to the Flynn Effect. With the standard error of measurement
13

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Edward Polloway, ed., The Death Penalty and Intellectual Disability, (AAIDD) (2015), at

disability;
2. The Court references the 63 in 1971, this score safely falls within the
range of intellectual disability; and,
3. The Court references the 78 in 1994, This is adjusted downward to a
72.9 due to the Flynn Effect. With the standard error of measurement
of 5, the IQ range is 67.9-77.9, and falls within the range of
intellectual disability.
Contrary to this Court’s finding, Mr. Johnson’s IQ scores have been remarkably consistent
throughout his life with eight of the nine3 full-scale IQ tests within the subaverage
intellectual functioning range. In focusing on IQ scores (incorrectly noting the significance
of the same) and the facts of the crime, this Court failed to consider or discuss the
remarkable consistency of Mr. Johnson’s IQ scores with the results of Achievement Test
Scores. To reiterate, they reflect cognitive shortcomings that also are evidence of adaptive
deficits in the Conceptual category, established long before the crime:
Grade
Grade 2
Grade 3
Grade 4
3

Date
April 1969
April 1970
April 1971

Reading
1% (1.0)
2% (1-5)
1% (1-6)

Math
*
4% (2-4)
*

Language Arts
*
9% (2-4)
2% (2-4)

This Court did not address that the ninth score, given its dramatic variance from all the

other scores, may be some sort of error. Attachment H to Rule 91, pp. 32-33. Mr. Johnson
has pursued the raw data from that testing, but the clinician died years prior to undesigned
counsel’s appointment and the data is no longer available.
14

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

of 5, the IQ range is 66-71, and falls within the range of intellectual

April 1972
April 1973
April 1974
October 1975

29% (3-1)
2% (2-8)
7%
2%

*
2% (3-4)
8%
21%

13% (2-5)
2% (2-9)
2%
6%

Attachment M to Rule 91, p. 29 (“*” designates untested subjects). The above scores were
supported by the testimony of teachers noting Mr. Johnson’s significant cognitive
shortcomings.
Thereafter, the Court held that Dr. Adler “does not make a finding as to whether
Johnson is intellectually disabled.” Slip Op. 15. This is incorrect. As noted in his most
recent report, Dr. Adler noted:

Rule 91 Attachment I p. 2. That opinion was not retracted and was admitted as substantive
evidence in Mr. Johnson’s post-conviction hearing.

4

First year where his transcript is designated as “Special Education.”
15

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Grade 34
Grade 5
Grade 7
Grade 9

BETWEEN

ADAPTIVE

DEFICITS

AND

INTELLECTUAL

FUNCTIONING IS AT ODDS WITH CLINCIAL PRACTICE AND
JUDICIALLY MODIFIES MISSOURI’S INTELLECTUAL DISABILITY
STATUTE.
This Court commits a grievous error in stating “[i]n essence, adaptive deficits must
be caused by impaired intellectual functioning.” Slip Op. 13; see also id. at 14 (“…suffer
from a lack of causal connection to his alleged impaired intellectual functioning.”); id. at
16 (“this Court finds Johnson failed to prove a causal connection between his poor
academic performance and his alleged intellectual impairment.”); id. at 17 (“Johnson again
does not demonstrate a causal connection between these facts and his alleged intellectual
impairment.”); id. at 18-19 (“Criminal behavior, absent a causal connection to intellectual
impairment, however, does not support intellectual disability.”) The Court has
misapprehended this language from the DSM-5 and improperly modified the statutory
definition of intellectual disability. In short, this violates clinical practice and runs afoul of
Moore I and Moore II that require an adherence to clinical guidelines.5 The DSM-5 itself

5

It also runs contrary to Jackson v. Payne, --- F.4th ----, 2021 WL 3573012, at *7 (8th Cir.

Aug. 13, 2021) (in discussing the direct relation language from the DSM-5 at 38, the court
notes Moore I does not require a petitioner to demonstrate a specific connection between
the first and second prongs of the diagnosis) and Johnson v State, 580 S.W.3d 895, 916

16

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

D. THE COURT’S CREATION OF A CAUSATION REQUIREMENT

“When DSM-5 categories, criteria, and textual descriptions are employed for forensic
purposes, there is a risk that diagnostic criteria will be misused or misunderstood.” DSM5, at 25. This risk has come to bear in this Court’s opinion.
Further, the State of Missouri never raised this as a basis to deny the adaptive
behavior prong of the intellectual disability standard. Setting aside the waiver, this Court
also did not entertain oral argument. If raised at argument or notice of this had been given
as a consideration, Mr. Johnson could have firmly challenged this misapplication of the
intellectual disability definition from the DSM-5.
Initially, this Court should be guided by the Missouri Statute and the Legislature’s
determination that the intellectual functioning prong and the adaptive behavior prong be
treated as separate co-equal factors required to be proven. This Court effectuates a
rewriting of the intellectual disability by imposing or inserting a causation requirement.
That remains the province of the Legislature, not this Court. 6

(Mo. banc 2019) (Stith, J., dissenting, joined by Draper, C.J. & Breckenridge, J.) (“Atkins,
as clarified by Hall, Moore I, and Moore II, set out clearly how states are limited by clinical
guidance in determining intellectual disability.”) The above discussions were neither
addressed nor distinguished by the per curiam decision.
6

This Court applied the onset prior to age 18 decided by Missouri’s Legislature even

though the AAIDD 12th Edition has an onset prior to age 22. This Court should treat

17

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

recognizes the danger that their wording will be misinterpreted in the forensic context:

Moore I noted that the Briseno factors “incorporated” an outdated version of the AAIDD
imposing a “related to” requirement. Moore I, 137 S.Ct. at 1046. Thereafter, the Supreme
Court found that the analysis of the “related to” requirement to violate “clinical practice,”
and rather than being used to refute intellectual disability, the facts the Texas court found
at odds with the diagnosis should instead be considered as risk factors for intellectual
disability. Id. at 1051 (noting the state court violated clinical practice by finding that
childhood abuse and a personality order detracted from a determination that the intellectual
and adaptive deficits were related). When the Texas court again applied the “related to”
requirement, the Supreme Court reiterated the previous error (see Moore II, 139 S.Ct. at
669), and again reversed, noting:
Further, the court of appeals concluded that Moore failed to show that the
“cause of [his] deficient social behavior was related to any deficits in general
mental abilities” rather than “emotional problems.” Id., at 570. But in our last
review, we said that the court of appeals had “departed from clinical
practice” when it required Moore to prove that his “problems in
kindergarten” stemmed from his intellectual disability, rather than
“‘emotional problems.’” Moore, 581 U. S., at ___, 137 S. Ct. 1039, 197 L.
Ed. 2d 416, at 429 (quoting Ex parte Moore I, 470 S. W. 3d, at 488, 526).

Missouri Legislature’s adaptive definition with the same respect and deference accorded
the onset provision.
18

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Grafting on a causal/related to requirement conflicts with Moore I and Moore II.

As noted in AAIDD, 12th Edition, p. 33 “Intellectual functioning and adaptive
behavior are distinct and separate constructs, which are only moderately correlated. Equal
weight and joint consideration are given to intellectual functioning and adaptive behavior
diagnosis of ID.” The AAIDD describes requiring a causal connection as a “thinking error.”
This initial positioning has led to two additional thinking errors. The first is
that limitations in intellectual functioning cause the limitation in adaptive
behavior. This error in thinking is refuted by three facts: (1) the relation
between intellectual functioning and adaptive behavior as always been
expressed historically and consistently as correlational, not causative;
(2) there is only a low to moderate statistical correlation between
intelligence and adaptive behavior scores; and (3) there is no empirical
evidence to support inserting a causal interpretation between the two.
Id. at 34 (emphasis added) (citations omitted from original).
This Court misinterprets the statement in the DSM-5 that “deficits in adaptive
functioning must be directly related to the intellectual impairments described in [prong
one].” DSM-5 at 38. This statement does not require Mr. Johnson to prove causation. In
United States v. Wilson, 170 F.Supp.3d 347 (E.D. N.Y. 2016), the court directly addressed
the government’s assertion that this language from the DSM-V requires the defendant to
prove causation:
With respect to the DSM-V’s effect on the legal standard for prong two, the
court finds that this single sentence is insufficient to impose a requirement
19

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Moore II, 139 S.Ct. at 671.

functioning deficits “directly relate” to intellectual functioning deficits, the
DSM-V appears simply to have clarified the most logical approach to a
diagnosis of intellectual disability. The court assumes that a clinician would
not diagnose intellectual disability on the basis of adaptive functioning
deficits that were related to something else entirely, such as a physical
disability or traumatic event. However, where an individual has
demonstrated significantly subaverage intellectual functioning, along with
significant adaptive deficits that relate to such intellectual impairment, that
individual has satisfied the first two diagnostic criteria for intellectual
disability. To require this individual to further prove that he satisfies
these criteria because he is intellectually disabled would render the
criteria meaningless. Indeed, the Government’s approach would
transform the standard for intellectual disability into an impossible test:
In order for a defendant to show that he was intellectually disabled, he
would need to prove that he satisfied the criteria because he was
intellectually disabled. As though trapped on an M.C. Escher staircase, the
defendant would climb to the top only to find he had returned to the bottom.
Likewise, the court finds that a defendant is not required to rule out other
contributing causes of his adaptive deficits in order to meet the standard for
intellectual disability. The APA has clearly stated as much: “The diagnosis
criteria for [intellectual disability] do not include an exclusion criterion;
20

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

for a defendant to prove specific causation. By requiring that adaptive

met, regardless of and in addition to the presence of another disorder.” DSMIV at 47.
Id. at 370-371 (emphasis added).
The Eighth Circuit has held the same. Rejecting the basis accepted by this Court, in
Jackson v. Kelley, 898 F.3d 859, 865 (8th Cir. 2018), the Eighth Circuit held:
Furthermore, the Supreme Court also found in Moore that “[t]he
existence of a personality disorder or mental-health issue, in short, is not
evidence that a person does not also have intellectual disability.” Moore, 137
S. Ct. at 1051 (internal quotation marks omitted) (finding that the court of
appeals erred when it used academic failure and childhood abuse to detract
from a determination that the defendant’s intellectual and adaptive behaviors
were related); see also United States v. Wilson, 170 F. Supp. 3d 347, 371
(E.D.N.Y. 2016). The Court stated that “many intellectually disabled people
also have other mental or physical impairments” and the medical community
actually uses those experiences as “risk factors,” causing clinicians to further
explore the possibility of intellectual disability rather than “counter[ing] the
case for a disability determination.” Moore, 137 S. Ct. at 1051; see also
Wilson, 170 F. Supp. 3d at 371.
Like the court of appeals in Moore, the district court found that
Jackson’s diagnosis of anti-social personality disorder, coupled with his
untreated childhood ADHD, conduct disorders, and communications
21

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

therefore, the diagnosis should be made whenever the diagnostic criteria are

subaverage intellectual functioning. However, prior to issuing its order,
the district court did not have the benefit of the Supreme Court's finding
that the existence of additional personality disorders or mental-health
issues is not evidence weighing against an intellectual disability
determination. In light of the Court's decision in Moore, we believe the
district court erred by placing too much emphasis on the existence of other
diagnosed disorders to find that Jackson was not intellectually disabled.
Id. (emphasis added).
Instead of utilizing an objective measure of adaptive behavior, Dr. Heisler attributed
Mr. Johnson’s poor academic record to his “impoverished background” and “substance
abuse before age 10.” Dr. Heisler report at 4 (Attached as Rehearing Att. 1). Dr. Heisler’s
statement demonstrates his lack of knowledge about clinical assessments of intellectual
disability and undermines his qualifications to provide a reliable opinion. There is no
requirement that Mr. Johnson prove that his deficits are caused by his intellectual disability
and the circumstances of his background are risk factors for intellectual disability – they
do not detract from it. See Moore I, 137 S.Ct. at 1047, 1051 (noting that alternative causes
for adaptive deficits cited by the State included drug abuse and “an abuse-filled childhood”;
however academic failure and a traumatic childhood experiences are risk factors for
intellectual disability). If Mr. Johnson had been properly diagnosed and cared for as a child
it is more than likely he would not have formed maladaptive coping mechanisms, like drug
addiction, that fueled this crime.
22

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

disorders, indicated that his adaptive deficits were not related to

be remanded for factual development. The language from the DSM-5 that this Court relied
on will be removed in the DSM-5-TR, which is the process of publication. See Letter of
Appelbaum, MD (attached as Att. 2). The DSM-5-TR is set to be published in 2022. Id.
The language is being taken out because of a recognition of the “confusion this sentence
caused in the diagnostic process, appearing to add a diagnostic criterion beyond the official
criteria set. That was not the intent of the sentence and thus, to avoid such confusion, the
sentence was removed.” Id.
This Court’s confusion in applying the DSM-5 is understandable given the
complexity of the subject matter and the degree of expertise required. The DSM-5 is
published by the American Psychological Association (APA) and the text states in the
introduction, “Clinical training and experience are needed to use the DSM for determining
a diagnosis. The diagnostic criteria identify symptoms, behaviors, cognitive functions,
personality traits, physical signs, syndrome combinations, and durations that require
clinical expertise to differentiate from normal life variation and transient responses to
stress.” DSM-5, p. 5. Despite these admonitions, this Court undertook the task of
determining whether Mr. Johnson met the DSM-5 definition of intellectual disability
without the benefit of clinical expertise, or an adversarial process informed by competent

23

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

This court’s misapprehension of the DSM-5 is another reason that this case should

proper clinical standards, explained by testifying experts, can be followed in determining
Mr. Johnson’s intellectual disability.
E. THE VERY NATURE OF ADAPTIVE BEHAVIOR ASSESSMENT
REQUIRES RELIANCE ON FAMILY MEMBERS WHO KNEW MR.
JOHNSON DURING THE DEVELPMENTAL PERIOD. THIS COURT
ALSO IGNORED OBJECTIVE TESTIMONY FROM TEACHERS WHICH
FULLY SUPPORT A FINDING THAT JOHNSON HAS EVIDENCED
ADAPTIVE BEHAVIOR DEFICITS SINCE CHILDHOOD.
Assessing adaptive behavior requires assembling information from people who had
extended contact with Mr. Johnson during the developmental period. The obvious people

7

This Court’s struggles with applying the DSM-5 further highlight the challenges

posed to the jury in attempting to make a similar judgment based solely on the jury
instructions provided. As this Court is aware, the jury instructions provided only the
statutory elements of intellectual disability without providing without defining any of the
terms relied on by clinicians. As a result, the jury was left to its own devices to define
“subaverage”, “deficits”, “intellectual functioning”, and “adaptive functioning”. These
issues are challenging even in a clinical setting, much less so than an emotionally charged
jury room in the middle of a capital murder trial where unreliable outcomes result in the
wrongful execution of an intellectually disabled man.
24

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

clinicians relying on sound clinical practices. 7 This Court should remand this case so that

in categorically excluding such people in its assessment.8 The United States Supreme Court
relied on family in Moore I, 137 S. Ct. at 1045 and Moore II, 139 S. Ct. at 667.
This Court unreasonably discounted the testimony of Mr. Johnson’s family
members based upon the fact they “knew Johnson would not be sentenced to death if it was
determined he was intellectually disabled.” Slip Op. 16-17. This is a determination of
credibility that cannot be made on a paper record, it can only be made in a courtroom where
the factfinder can assess the witnesses on Mr. Johnson’s behalf in person. See Anderson v.
State, 564 S.W.3d 592, 600 (Mo. banc 2018) (noting that appellate court should defer to a
lower court’s “superior opportunity” to make credibility determinations); Barton v. State,
432 S.W.3d 741, 760 (Mo. banc 2014) (quoting State v. Twenter, 818 S.W.2d 628, 635
(Mo. banc 1991)). This is why a remand to a Special Master is in order.

8

This Court also disparaged previous lawyers as universally biased and rejected any

consideration of their interactions with Mr. Johnson. Each of these members of the bar
signed the affidavits under penalty of perjury and there is nothing before this Court that
would render their first-hand interactions with Mr. Johnson unreliable or untruthful. See
Moore I, 137 S. Ct. at 1045 (discussing testimony of former counsel). This Court, as the
purported factfinders, must at least meet the fair and impartial standards this Court
demands of its citizens serving on a jury. See State v. Brandolese, 601 S.W.3d 519, 526–
27 (Mo. banc 2020) (“To be sure, a juror who cannot be fair and impartial should be
stricken for cause to ensure a fair and just trial.”) (citation omitted).
25

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

who have had this extended contact will be friends and family members. This Court erred

during the developmental period that support the finding of intellectual disability. Robin
Seabaugh taught Mr. Johnson in a developmental reading class in ninth grade. (Record on
Appeal, Vol. II, p. 1219, State v. Johnson, SC87825 (Mo. 2008)). In ninth grade, Mr.
Johnson was reading between a second and third grade level. (Id. at 1225). He failed ninth
grade and Seabaugh characterized his intelligence as extremely low, which is also
supported by his consistently low achievement scores during the developmental period.
(Id. at 1226, Attachment M to Rule 91, p. 29).
Steve Mason taught Mr. Johnson in art after he had to repeat the ninth grade.
(Record on Appeal, Vol. II, p. 1239). Mr. Johnson could not accomplish even basic tasks
such as using a ruler to draw a straight line, he failed to complete any project, and received
an F in art. (Id. at 1243-44). When Mr. Mason recommended that Mr. Johnson be placed
in special education, he was told by school officials that this was not possible. (Id. at 1247).
Mr. Johnson dropped out of school halfway through his second attempt at ninth grade. (Id.
at 1257).
Having found every other person in Mr. Johnson’s life to be incredible, this Court
should not ignore testimony from historical reporters such as teachers who knew Mr.
Johnson during the developmental period. This Court should remand this matter to a
Special Master so that credibility can be judged in person by a trial court, after the
opportunity for cross-examination.

26

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

In addition, this Court completely ignored the testimony of Mr. Johnson’s teachers

INTELLECTUAL DISABILITY PRIOR TO AGE 18 VIOLATES THE
EIGHTH AMENDMENT.
For various reasons, many of those who suffer from intellectual disability are not
diagnosed as such during the developmental period. See Polloway, at 222 (noting that many
Atkins petitioners have a clear history of school failure but were never labeled ID in school).
In Mr. Johnson’s case, he was born into the poverty of the Missouri bootheel as a child of
a sharecropper, at a time where people with his skin color were shipped to separate, but not
equal, schools. When finally integrated, the unrefuted evidence is that requests for special
education by concerned teachers were ignored. The reality is that the impoverished school
districts Mr. Johnson attended simply did not provide the opportunity for diagnosis
regardless of the apparent need.
This Court cited the Missouri statute for the proposition of requiring intellectual
disability to be “manifested and documented before eighteen years of age.” Slip Op. 15.
On this basis, this Court concluded that “[b]ecause Johnson is now over 60 years old,
reports of Johnson’s alleged current mental ability are not given much weight.” Id. This
Court also noted that Johnson did “not provide any evidence of a formal evaluation or
diagnosis of intellectual disability during the developmental period.” Slip Op. 16.
To the extent this Court requires intellectual disability to be diagnosed during the
developmental period, its opinion violates the Eighth Amendment. See Oats v. State, 181
So.3d 457, 469 (Fla. 2015) (reversing a lower court’s finding that the defendant was not
intellectually disabled based upon a misperception that a lack of diagnosis prior to age 18
27

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

F. INTERPRETING MISSOURI STATUTE TO REQUIRE A DIAGNOSIS OF

with the Supreme Court’s decision following Atkins to require diagnosis prior to age 18
before the protection of Atkins is given: “[t]hat inflexible view would not be supported by
the United States Supreme Court’s recent enunciations in Hall and Brumfield.” Id. at 469;
see also United States v. Wilson, 170 F.Supp.3d 347, 391 (E.D. N.Y. 2016) (noting that the
age of onset requirement does not require diagnosis before the age of 18).
It is error to give Mr. Johnson’s later IQ scores little weight in determining his
intellectual disability when assessing functional academics. His IQ scores, from childhood
to now, have been consistently within the range of intellectual disability, something even
this Court acknowledged. See Slip Op. 11 (noting that adjusting for the margin of error and
the Flynn effect, Mr. Johnson’s test scores “are within the range that could be indicative of
intellectual disability”). The fact that Mr. Johnson may not have been diagnosed as
intellectually disabled during the developmental time frame is more a function of the
paucity of services available to him during his childhood in rural Missouri.
As the Court notes, Mr. Johnson also suffered an abusive childhood. Rather than
proving there is an alternate cause to his deficits, this fact further supports that the lack of
diagnosis before a18 is more a function of the failure of Mr. Johnson’s parental figures and
school to identify and properly accommodate his disability. As Mr. Johnson’s art teacher
testified, when he recommended that Mr. Johnson be placed in special education, he was
told that the school simply could not do anything about that. (Record on Appeal, Vol, II,
p. 1247, State v. Johnson, SC 87825 (Mo. 2008)). Mr. Johnson had no other adults in his
life to advocate for him.
28

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

was fatal to the claim). In Oats, the Florida Supreme Court noted that it would be at odds

illustrated by Mr. Johnson’s consistency in IQ scores over time. See Muncy v. Apfel, 247
F.3d 728, 734 (8th Cir. 2001) (“a person’s IQ is presumed to remain stable over time in the
absence of any evidence of a change in a claimant’s intellectual functioning.”). Mr.
Johnson should not be exempted from the protection of Atkins simply because of the
absence of diagnosis during the developmental time period.
G. THE JURY DID NOT MAKE A FINDING REGARDING INTELLECTUAL
DISABILITY.
The jury in Ernest’s Johnson’s third sentencing hearing did not make a specific
finding regarding Mr. Johnson’s intellectual disability. Mr. Johnson’s jury was instructed
that before he could qualify for a life sentence under the protection of Atkins, they must
“unanimously find” that he had proven that he was intellectually disabled by a
preponderance of the evidence. (Attachment S to Rule 91, p. 6). This requirement of
unanimity was again reiterated in Jury Instructions #7, 11, 12, 16, 17 and 21: “[i]f you did
not unanimously find by a preponderance that the defendant is mentally retarded. . . .”
(Attachment S to Rule 91, pp. 7, 12, 14, 19, 21, 25).
The verdict forms again reiterated that the jury must find unanimously that Mr.
Johnson had proven intellectual disability. (Attachment S to Rule 91, pp. 31, 35, 39). The
signed verdict forms reflecting the findings of the resentencing jury only lay out their
findings in aggravation. (Attachment T to Rule 91, pp. 1-3). There is no signed verdict
form directly addressing their finding on the intellectual disability question or on

29

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Furthermore, IQ scores remain relatively consistent over a person’s lifetime, as

one juror did not find Mr. Johnson to be intellectually disabled. No other findings were
required or made by the jury with respect to this issue.
This Court seemingly adopts the State’s version of a jury finding without evidence
supporting this factual finding. The State argued in its response this Court should not
undermine the jury’s verdict by reweighing the evidence. (Resp. p. 15). The State also
argued the jury “found he was not mentally retarded.” (Id). Similarly, this Court stated,
“the jury found Johnson is not intellectually disabled . . .” Slip Op. p. 5. As noted above,
the jury never made these findings, but this Court’s opinion perpetuates the State’s
unsupported arguments and provides greater weight and significance to the jury’s
consideration of the evidence of intellectual disability than is legally or factually warranted.
H. A STAY WITH A SCHEDULE FOR A SPECIAL MASTER IS IN ORDER.
“One of the crucial functions of the Court in deciding an Atkins claim is to determine
the credibility of witnesses presented at the evidentiary hearing.” Wilson, 170 F.Supp. 3d
at 379. The evidence herein when properly assessed by applicable clinical standards
establishes Mr. Johnson’s intellectual disability.
This Court summarily denied a stay without analysis premised upon the Court’s
intellectual disability ruling. As noted above, Mr. Johnson respectfully suggests errors are
manifest in this Court’s ruling. This Court should reconsider, and appoint a Special Master
and issue a stay similar to the stays granted by many other state courts in the recognition
of the changes wrought by Moore I and Moore II, as cited in Johnson’s stay motion. This
30

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

mitigation. Instead, the only thing that may be said about the jury’s decision is that at least

timeframe for the consideration of the evidence. This is an issue that cannot be decided on
the basis of a paper record . Witnesses need to be called to the stand and their credibility
fairly assessed by a factfinder in person. Otherwise, the risk is too great that Atkins will be
violated and an intellectually disabled person will be executed.
CONCLUSION
This Court’s opinion does not fairly account for the changes wrought by Moore I
and Moore II in making reliable and constitutional determinations of intellectual disability.
This case should be remanded to a Special Master so that proper clinical practice is applied
and any State expert opinions can be subjected to cross-examination. Mr. Johnson’s
intellectual disability question remains unfairly determined by any factfinder guided by
clinical standards.
Respectfully submitted,
/s/ Jeremy S. Weis
Laurence E. Komp, #40446
Jeremy S. Weis, #51514
Federal Public Defender’s Office
Capital Habeas Unit
1000 Walnut, Suite 600
Kansas City, MO 64106
T: 816 471.8282
F: 816.471.8008
E: Laurence_Komp@fd.org
E: Jeremy_Weis@fd.org
COUNSEL FOR PETITIONER
CERTIFICATE OF SERVICE
31

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

Court can provide guidance on the process to be implemented and set forth a finite

attachments were filed via the Missouri e-filing system, and a true and correct copy was
served on all parties of record.
/s/ Jeremy S. Weis
Attorney for Petitioner

32

Electronically Filed - SUPREME COURT OF MISSOURI - September 15, 2021 - 03:20 PM

I hereby certify that on the 15th day of September, 2021, this writ petition and all

Appendix O

1

2

